COMMODITY FUTURES TRADING CO M M I S S I O N



      Performance and
    Accountability Report
               F iscal Year 2006
COMMODITY FUTURES TRADING COMMISSION


Reuben Jeffery III
Chairman
Madge Bolinger Gazzola
Executive Director
Mark Carney
Chief Financial Officer

November 2006

This report is in the public domain. Authorization to reproduce it in whole or in part is granted. While permission to
reprint this publication is not necessary, the citation should be: Commodity Futures Trading Commission, FY 2006 Per-
formance and Accountability Report, Washington D.C., 20581.

All photographs in this document are proprietary and prior permission from the photographer
is required for any use or reproduction of the photographs.
                                                       Table of Contents


	   Message from the Chairman .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

	   FY 2006 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2

	   How This Report is Organized .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 3



M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S
	   Commission at a Glance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5

	   Performance Highlights.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  14

	   Financial Highlights .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  26

	   Management Challenges.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 30

	   Inspector General’s FY 2006 Assessment.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  33



PERFORMANCE SECTION
	   Introduction to the Performance Section .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 41

	   Strategic Goal One: Economic Utility .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 42

	   Strategic Goal Two: Market User and Public.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 54

	   Strategic Goal Three: Industry .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  71



FINANCIAL SECTION
	   Message from the Chief Financial Officer .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  95

	   Limitations of Financial Statements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 96

	   Principal Financial Statements.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  97

	   Report of the Independent Auditors .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 117



APPENDICES
	   FY 2006 Commissioners .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 133

	   Enforcement Litigation by Strategic Goals.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  136

	   CFTC Information Technology Systems.  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .                                     153

	   Glossary of Abbreviations and Acronyms .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  154
   In the Tradition of Quality Reporting,

the Commodity Futures Trading Commission

       Proudly Presents the FY 2006

  Performance and Accountability Report
                   A Message from the Chairman

It is a pleasure to present to you the Commission’s third         consequence, the auditors reported a material weakness in
annual Performance and Accountability Report. This re-            the controls over financial reporting. Included in this find-
port presents our accomplishments and audited financial           ing was another significant deficiency related to how the
statements for Fiscal Year (FY) 2006.                             custodial fines and interest receivable balance was deter-
                                                                  mined. A full discussion of the material weakness can be
	   The Commodity Futures Trading Commission (CFTC
                                                                  found in the Financial Section of this report, which also
or Commission) oversees the commodity futures and op-
                                                                  highlights actions the Commission is taking to resolve it.
tion markets in the United States (U.S.). These markets are
the key source of commodity price discovery and are used          	    Over the last year, the Commission focused its
as a tool by participants in the global economy to offset         resources: to help ensure that customers were protected
price risk. In recent years these trillion dollar markets, with   when a futures brokerage firm collapsed amid an account-
massive economic force, have grown faster than almost             ing fraud; to take action against an energy company in
any other asset class. The markets are expanding steadily         response to allegations of manipulation; and to actively
in both volume and new users and their complexity is              address governance conflicts at publicly listed exchanges.
rapidly evolving with new technologies, globalization,            We also addressed how best to disclose the impact of
product innovation, and greater competition.                      hedge funds and other speculators on our markets. Inter-
                                                                  nationally, we engaged our regulatory counterparts and
	   The Commission accomplishes its mission through
                                                                  stakeholders on whether it is appropriate for an exchange
three strategic goals, each focusing on a vital area of
                                                                  based outside of the U.S. to be designated as a U.S. ex-
regulatory responsibility. They are: to ensure the economic
                                                                  change.
vitality of the commodity futures and option markets; to
protect market users and the public; and to ensure market         	    Although these accomplishments are very significant
integrity in order to foster open, competitive, and finan-        in themselves, they are only part of the important contri-
cially sound markets.                                             butions made daily by the dedicated staff of the Commis-
                                                                  sion. We hope you will join us in applauding their efforts,
	   In the audit report issued today, the public account-
                                                                  which are highlighted in the pages to follow using data,
ing firm, KPMG LLP, on behalf of our Inspector General,
                                                                  both financial and performance, that is reliable and com-
reports that our financial statements were presented fairly,
                                                                  plete.
in all material respects, and in conformity with U.S. gener-
ally accepted accounting principles for Federal agencies.
However, to achieve this result, the FY 2005 financial
statements, which reflected no material weaknesses, were
                                                                  Reuben Jeffery III
restated. This was necessary to conform with the Finan-
                                                                  Chairman
cial Accounting Standards Board’s Statement of Financial
Accounting Standards No. 13, Accounting for Leases. As a          November 15, 2006
                                                                                                                CFTC           
                 Fiscal Year 2006 Commissioners




From left; Sharon Brown-Hruska1, Commissioner; Walter L. Lukken, Commissioner; Reuben Jeffery III, Chairman; Frederick
W. Hatfield, Commissioner; Michael V. Dunn, Commissioner




1	   Sharon Brown-Hruska resigned from the Commission on July 28,
     2006.




       CFTC
                    How This Report is Organized


The CFTC’s FY 2006 Performance and Accountability Report is the third such report published by the Commission. This
document is comprised of three primary sections:



Management’s Discussion and Analysis
                                                                                                     M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The Management’s Discussion and Analysis (MDA) sec-
tion is an overview of the entire report, as supported and
detailed in the Performance Section and the Financial Sec-
                                                                                                                Commission at a Glance .......................................5

                                                                                                                Performance Highlights.......................................14

                                                                                                                Financial Highlights ...........................................26



tion. The MDA presents performance and financial high-
                                                                                                                Management Challenges .....................................30

                                                                                                                Inspector General’s FY 2006 Assessment ...............33




lights for FY 2006, in addition to compliance with legal
and regulatory requirements and the Inspector General’s
assessment of management challenges facing the Commis-
sion. For more information on this section, please contact
Mark Carney, Chief Financial Officer, at 202-418-5477.
                                                                                                                     PERFORMANCE SECTION




Performance Section
The Performance Section compares the Commission’s
performance to the annual goals as set forth in the
                                                                                                                Introduction to the Performance Section................ 41

                                                                                                                Strategic Goal One: Economic Utility ...................42

                                                                                                                Strategic Goal Two: Market Users and Public ........54



2004–2009 CFTC Strategic Plan, Keeping Pace with Change.
                                                                                                                Strategic Goal Three: Industry.............................. 71




For more information on this section, please contact
Emory Bevill, Deputy Director for Budget and Planning, at
202-418-5187.



Financial Section
The Financial Section is comprised of the Commission’s
                                                                                                                         FINANCIAL SECTION




financial statements and related Independent Auditors’
report. For more information, please contact Jeanne Ring,
Deputy Director for Accounting and Financial Systems, at                                                        Message from the Chief Financial Officer..............95

                                                                                                                Limitations of Financial Statements .....................96

                                                                                                                Principal Financial Statements ............................97



202-418-5184.                                                                                                   Report of the Independent Auditors......................117




Questions and comments about this report can be directed to Mark Carney, Chief Financial
Officer, at 202-418-5477 or, via e-mail at mcarney@cftc.gov

An electronic version of the Commodity Futures Trading Commission FY 2006 Performance and
Accountability Report is available on the Internet at www.cftc.gov/cftc/cftcreports.htm. The 2004–
2009 CFTC Strategic Plan, Keeping Pace with Change, is also available at this Web site.



                                                                                                                                                                  CFTC               
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




           Commission at a Glance........................................5

           Performance Highlights........................................14

           Financial Highlights............................................26

           Management Challenges......................................30

           Inspector General’s FY 2006 Assessment................33
                             Commission at a Glance


Organization and Locations                                      	    Auditors examine records and operations of futures
The CFTC consists of five Commissioners who are ap-             exchanges, clearinghouses and firms for compliance with
pointed by the President to serve staggered five-year terms.    the CFTC regulations on financial requirements and trade
All Commissioners are confirmed by the Senate. No more          practices.
than three Commissioners at any one time may be from            	    Economists evaluate filings for new futures and op-
the same political party. The President designates one of       tion contracts and amendments to existing contracts to
the Commissioners to serve as Chairman, with the advice         ensure they meet the Commission’s regulatory standards.
and consent of the Senate.                                      Economists also analyze the economic effect of various
	   The Commission’s organization chart is aligned with         Commission and industry actions and events and advise
its 2004–2009 Strategic Plan, and its functions are divided     the Commission accordingly. In addition, economists
between program policy and internal management. The             monitor trading activity and price relationships in futures
Office of the Chairman oversees the Commission’s princi-        markets to detect and deter price manipulation and other
pal divisions and offices that administer the policies, regu-   potential market disruptions.
lations, and guidance regarding the CEA. The Office of the      	    Futures Trading Specialists perform regulatory and
Executive Director, by delegation of the Chairman, directs      compliance oversight of alleged fraud, market manipula-
the internal management of the Commission, ensuring             tions, and trade practice violations.
that funds are responsibly accounted for and that program
                                                                	    The CFTC is headquartered in Washington, D.C.
performance is measured and improved effectively.
                                                                Regional offices are located in Chicago, New York, Kansas
	   Attorneys at the Commission work on complex and             City and Minneapolis.
novel legal issues in litigation, regulation, and policy
                                                                	    Additional information about the Commission’s his-
development. They participate in administrative and civil
                                                                tory and its divisions can be obtained from the Commis-
proceedings, assist U.S. Attorneys in criminal proceedings
                                                                sion’s Office of External Affairs or through its Web site,
involving futures law violations, develop regulations and
                                                                www.cftc.gov.
provide a wide range of analysis and guidance on regula-
tory issues, and provide legal advice to the Commission
on policy and adjudicatory matters.




                                                                                                               CFTC          
                            Commodity Futures Trading Commission Organization Structure




               Commissioner         Commissioner                    Chairman                     Commissioner    Commissioner




    Office of General Counsel         Office of Inspector General          Equal Employment Opportunity          Office of Executive Director



                                       Office of the Secretariat                 Office of External Affairs



                                                                               Office of International Affairs




      Division of Clearing &              Division of Market
                                                                                 Division of Enforcement         Office of Chief Economist
     Intermediary Oversight                   Oversight




         Eastern Region                    Eastern Region                             Eastern Region
           (New York)                        (New York)                                 (New York)


         Central Region                     Central Region                            Central Region
           (Chicago)                          (Chicago)                                 (Chicago)



       Kansas City Office                 Kansas City Office                        Kansas City Office




                                          Minneapolis Office




          CFTC
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




CFTC History and Transformation                                   Keeping Pace with Change
Futures contracts for agricultural commodities have been          In February 2004, the Commis­sion issued Keeping Pace
traded in the U.S. for more than 150 years and have been          with Change, a strategic plan for FY 2004-FY 2009.2 This
under Federal regulation since the 1920s. Con­gress cre-          plan reflects the new direction of the agency, driven by
ated the CFTC in 1974 as an independent agen­cy with the          the CFMA, including three key objectives: 1) modernizing
mandate to regulate commodity futures and option mar-             regulations affecting trading platforms and mar­ket inter-
kets in the U.S. At the time of the Com­mission’s found-          mediaries; 2) permitting futures based on single stocks
ing, the vast majority of futures trading took place in the       or narrow-based stock indices; and 3) providing legal
agricultural sector. These con­tracts gave farmers, ranchers,     certainty for over-the-counter derivatives.
distributors, and end-users of everything from corn to            	   The plan also reflects the enormous and continuing
cattle an efficient and effective set of tools to hedge against   changes in the markets, including rapid growth in volume,
price movements.                                                  globalization, and the movement from open outcry on-ex-
	    Over the years, however, the futures industry has            change trading floors to all-electronic trading from widely
become increasingly complex. While farmers and ranch-             dispersed geo­graphic locations.
ers continue to use the futures markets as actively as ever       	   The charts that follow reflect many of the changes
to effectively lock in prices for their crops and live­stock      affecting the CFTC: 1) industry growth versus staff growth;
months before they come to market, highly complex                 2) growth in actively traded futures and option contracts;
financial contracts based on interest rates, foreign cur-         3) enforcement actions in energy and foreign currency
rencies, Treasury bonds, stock market indices, and other          (forex) markets; 4) growth in foreign commodity trad-
products have far outgrown agricultural contracts in trad­        ing; 5) registrants; 6) contract markets designated by the
ing volume. The latest statistics show that approximately         CFTC; 7) CFTC-registered derivatives clearing organiza-
five percent of on-exchange derivatives activity occurs in        tions (DCOs); 8) exempt commercial markets (ECMs); 9)
the agri­cultural sector, while financial derivatives make        exempt boards of trade (XBOTs); and 10) customer funds
up approx­imately 86 percent, and other contracts, such as        held at futures commission merchants (FCMs).
those on metals and energy products, make up about nine
percent.

	    In recognition of this changing environment, Con-
gress and the President reauthorized the Commission
through FY 2005 with the passage of the Commodity
Futures Modernization Act (CFMA) in December 2000.
The CFMA repealed the ban on single stock futures and
instituted a regulatory framework for such products to be
administered jointly by the CFTC and the Securities and
Exchange Commission (SEC). It codified the principal
provi­sions of a new regulatory framework adopted earlier
by the Commission. It also brought legal certainty to the
trading done in bilateral, over-the-counter derivatives
transactions and clarified the CFTC’s jurisdiction over the
retail, off-exchange foreign currency market. It gave the
CFTC authority to regulate clearing organizations in a
way that enables the CFTC more effectively to foster open,
competitive, and financially sound markets.




                                                                  	
                                                                  2
                                                                      In November 2006, the Commission will begin its three-year update
                                                                      of the five-year Strategic Plan for the period 2007-2012




                                                                                                                       CFTC               
   Growth in Volume of Futures & Option                                                            Actively Traded Futures & Option
   Contracts Traded & Full-time Equivalents                                                        Contracts, 1996 – 2006
   (FTEs), 1996 – 2006                                                                             The number of actively traded contracts on U.S. exchanges
   Trading volume has quintupled in the last decade while                                          has more than quintupled in the last decade. The number
   staffing levels have decreased in recent years.                                                 is projected to grow to over 1,400 contracts by FY 2008.




                                     2500                                                                      1200
CONTRACT TRADING VOLUME (MILLIONS)




                                                                                                                                                                            1135

                                                          FTEs
                                                                                                               1000
                                     2000                 Contract Trading Volume                                                                                     906


                                                                                                               800




                                                                                                   CONTRACTS
                                     1500                                                                                                                       662

                                                                                                               600                                        538

                                     1000
                                                                                                               400
                                                           560 567 546                                                            286               278
                                                541 553                  514 521 497 517 491 490                            258         251 266 250
                                      500                                                                             199
                                                                                                               200


                                           0                                                                      0
                                                96 97 98 99 00 01 02 03 04 05 06                                      96 97 98 99 00 01 02 03 04 05 06
                                                                 FTE (STAFF YEARS)                                                         FISCAL YEAR




   Spotlight on Energy and Foreign Currency Markets

                       Actions Taken Since Enron Bankruptcy in December 2001                                                                                    Energy Markets
                       Number of Cases Filed or Enforcement Actions                                                                                                                35
                       Number of Entities/Persons Charged                                                                                                                          55
                       Number of Dollars in Penalties Assessed
                       	             • Civil Monetary Penalties                                                                                                  $ 302,863,500



                       Actions Taken Since the Passage of the CFMA in December 2000                                                              Foreign Currency Markets
                       Number of Cases Filed or Enforcement Actions                                                                                                                 93
                       Number of Entities/Persons Charged                                                                                                                          354
                       Number of Dollars in Penalties Assessed
                       	             • Civil Monetary Penalties                                                                                                  $ 292,042,098
                       	             • Restitution                                                                                                               $ 182,471,571
                       		              u   Number of Customers                                                                                                                25,070




                                      CFTC
                                                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




 Growth of Foreign Commodity Trading                                                 Customer Funds Held at Futures
 Since 2000, the number of foreign customers trading on                              Commission Merchants, 1996 – 2006
 U.S. exchanges has more than tripled and the number of                              The amount of customer funds held at FCMs has more
 U.S. customers trading on foreign exchanges has more                                than quadrupled in the last decade.
 than quintupled.



                      200
                                                                                                         $ 150
                                                                                                                                                                                            $139.4

                                                           184.3
AMOUNT IN THOUSANDS




                                                                                                                                                                                     $116.7
                      150




                                                                                    AMOUNT IN BILLIONS
                                                                          145.0
                                                                                                         $ 100                                                                 $94.5


                      100                                                                                                                                              $75.6
                                                                                                                                                               $64.3
                                                                                                                                                       $59.7
                                                                                                                                         $54.1 $56.7
                                                                                                                                 $47.5
                                                                                                          $ 50
                       50                                                                                                $38.7
                            54.0                                                                                 $33.0


                                          27.0
                        0
                                   2000                            2005                                    $0
                                                                                                                 96 97           98       99   00      01       02      03      04     05     06
                                             FISCAL YEAR
                                                                                                                                               FISCAL YEAR

                            Foreign Customers Trading on U.S. Commodity Exchanges

                            U.S. Customers Trading on Foreign Commodity Exchanges




 Number of Registrants
 Companies and individuals who handle customer funds, solicit or accept orders, or give trading advice must apply for
 CFTC registration through the National Futures Association (NFA), a self-regulatory organization (SRO) with delegated
 oversight authority from the Commission.

 The Commission regulates the activities of over 70,000 registrants:

             Type of Registered Professional                                                                                                Number as of September 30, 2006
             Associated Persons (APs) (Salespersons)                                                                                                              54,258
             Commodity Pool Operators (CPOs)                                                                                                                         1,570
             Commodity Trading Advisors (CTAs)                                                                                                                       2,589
             Floor Brokers (FBs)                                                                                                                                     8,203
             Floor Traders (FTs)                                                                                                                                     1,512
             Futures Commission Merchants (FCMs)                                                                                                                     2103
             Introducing Brokers (IBs)                                                                                                                            1,7414
             TOTAL                                                                                                                                                70,083




                                                                                         3
                                                                                             	             Includes 16 notice-registered FCMs.
                                                                                         4
                                                                                             	             Includes 45 notice-registered IBs.




                                                                                                                                                                                 CFTC                
Contract Markets Designated by the CFTC, 2001 – 2006
Designated contract markets (DCMs) are boards of trade or exchanges that meet CFTC criteria and core principles for
trading futures or options by both institutional and retail participants.

                      Commodity
                      Exchanges5                  2001           2002        2003   2004   2005   2006

                      BTEX                          ✓             ✓          ✓

                      CBOT                          ✓             ✓          ✓      ✓      ✓      ✓

                      CCFE                                                          ✓      ✓      ✓

                      CFFE                          ✓             ✓

                      CFE                                                    ✓      ✓      ✓      ✓

                      CME                           ✓             ✓          ✓      ✓      ✓      ✓

                      CSCE                          ✓             ✓          ✓      ✓

                      EPFE                                                          ✓

                      Eurex US                                                      ✓      ✓      ✓

                      HedgeStreet                                                   ✓      ✓      ✓

                      INET                                        ✓

                      KCBT                          ✓             ✓          ✓      ✓      ✓      ✓

                      MACE                          ✓             ✓          ✓

                      ME                            ✓             ✓          ✓      ✓

                      MGE                           ✓             ✓          ✓      ✓      ✓      ✓

                      NQLX                          ✓             ✓          ✓      ✓      ✓

                      NYBOT                                                         ✓      ✓      ✓

                      NYCE                          ✓             ✓          ✓      ✓

                      NYFE                          ✓             ✓          ✓      ✓
                      NYMEX
                      (incl. COMEX)                 ✓             ✓          ✓      ✓      ✓      ✓

                      OCX                                         ✓          ✓      ✓      ✓      ✓

                      PBOT                          ✓             ✓          ✓      ✓      ✓      ✓

                      TOTAL                         14            16          15     18     13     12




	
5
      Refer to the CFTC Glossary in Appendix 4 for full names of organiza-
     tions.




10      CFTC
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Number of CFTC-Registered Derivatives Clearing Organizations, 2001 - 2006
Clearinghouses that provide clearing services for CFTC-regulated exchanges must register as DCOs. Currently, 11 DCOs
are registered with the Commission.


                  DCOs6                2001       2002          2003           2004          2005          2006
                  AE
                  Clearinghouse                                                               ✓              ✓

                  BTEX                  ✓          ✓            ✓

                  CCorp                 ✓          ✓            ✓               ✓             ✓              ✓

                  CBOT                                                          ✓             ✓              ✓

                  CME                   ✓          ✓            ✓               ✓             ✓              ✓

                  EnergyClear           ✓          ✓            ✓

                  FCOM                  ✓          ✓            ✓

                  GCC                              ✓            ✓

                  HedgeStreet                                                   ✓             ✓              ✓

                  ICC                   ✓          ✓            ✓

                  KCBT                  ✓          ✓            ✓               ✓             ✓              ✓

                  LCH                              ✓            ✓               ✓             ✓              ✓

                  MGE                   ✓          ✓            ✓               ✓             ✓              ✓

                  NYCC                  ✓          ✓            ✓               ✓             ✓              ✓

                  NYMEX                 ✓          ✓            ✓               ✓             ✓              ✓

                  OCC                              ✓            ✓               ✓             ✓              ✓

                  ONXCC                 ✓          ✓            ✓

                  TOTAL                 11         14            14             10             11            11




                                                            	
                                                            6
                                                                       Refer to the CFTC Glossary in Appendix 4 for full names of organiza-
                                                                      tions.



                                                                                                                        CFTC           11
Exempt Commercial Markets, 2001 – 2006
Electronic trading facilities providing for the execution of principal-to-principal transactions between eligible commer-
cial entities in exempt commodities may operate as ECMs as set forth under the CEA and the Commission’s regulations.
An ECM is subject to antifraud and anti-manipulation provisions and a requirement that, if performing a significant
price discovery function, the ECM must provide pricing information to the public. A facility that elects to operate as an
ECM must give notice to the Commission and comply with certain informational, record-keeping and other require-
ments. An ECM is prohibited from claiming that the facility is registered with, or recognized, designated, licensed or
approved by, the Commission. To date, 17 ECMs have filed notices with the Commission.

                       Exempt Commercial
                       Markets7                         2001          2002      2003   2004   2005   2006


                       CCX                                                      ✓      ✓      ✓      ✓


                       CDXchange                                       ✓        ✓      ✓      ✓      ✓


                       HSE                                             ✓        ✓      ✓      ✓      ✓


                       ICE                               ✓             ✓        ✓      ✓      ✓      ✓


                       IMAREX                            ✓             ✓        ✓      ✓      ✓      ✓


                       NGX                                             ✓        ✓      ✓      ✓      ✓


                       OPEX                              ✓             ✓        ✓      ✓      ✓      ✓


                       SL                                                       ✓      ✓      ✓      ✓


                       TFSE                                                     ✓      ✓      ✓      ✓


                       TFS                                                      ✓      ✓      ✓      ✓


                       TS                                              ✓        ✓      ✓      ✓      ✓


                       ChemConnect                                                                   ✓


                       ICAP ETC                                                                      ✓


                       ICAP                                                                          ✓


                       ICAP HYDE                                                                     ✓


                       TCX                                                                    ✓      ✓


                       NTP                                                                           ✓


                       TOTAL                              3             7        11     11     12     17




7
    	    Refer to the CFTC Glossary in Appendix 4 for full names of organiza-
        tions.




12         CFTC
Exempt Boards of Trade, 2001 – 2006
Transactions by eligible contract participants in selected commodities may be conducted on an XBOT as set forth under
the CEA and the Commission’s regulations. XBOTs are subject only to the CEA’s anti-fraud and anti-manipulation provi-
sions. An XBOT is prohibited from claiming that the facility is registered with, or recognized, designated, licensed, or ap-
proved, by the Commission. Also, if it is performing a price discovery function, the market must provide certain pricing
information to the public. To date, six XBOTs have filed notices with the Commission.

                   Exempt Boards
                   of Trade8             2001        2002       2003             2004          2005          2006


                   CME AM                                                                       ✓              ✓


                   AE                                                             ✓             ✓              ✓
                   MATCHBOXX
                   ATS                                                                                         ✓


                   WBOT                                             ✓             ✓             ✓              ✓


                   WXL                                ✓             ✓             ✓             ✓              ✓


                   Intrade                                                                      ✓              ✓


                   TOTAL                   0          1              2             3             5              6




                                                                8
                                                                 	        Refer to the CFTC Glossary in Appendix 4 for full names of organiza-
                                                                         tions.




                                                                                                                           CFTC           13
                           Performance Highlights

                                                                            Net Cost by Strategic Goal

Introduction                                                           $30.2 Million
                                                                                                          $33.4 Million
                                                                                                      Goal One; Ensure the
The mission of the CFTC is accomplished through three           Goal Three: Ensure market
                                                                                                       economic vitality of
                                                                integrity in order to foster
strategic goals, each focusing on a vital area of regulatory                                         the commodity futures
                                                                  open, competitive, and
                                                                                                      and option markets.
responsibility: 1) to ensure the economic vitality of the       financially sound markets.
                                                                                                              32%
                                                                            29%
commodity futures and option markets; 2) to protect mar-
ket users and the public; and 3) to ensure market integrity
in order to foster open, competitive, and financially sound
markets. Accomplishing the three long-term strategic goals
is evidenced by the progress of nine key outcome objec-
tives. In most cases, due to the broad economic functions
that the Commission oversees, it is not a simple task to
                                                                                                     $40.6 Million
identify specific detailed objectives that will be accom-                                      Goal Two: Protect market
plished each year; however, it is possible to identify condi-                                   users and the public.
                                                                                                         39%
tions that, if present, are indicators that the Commission’s
activities are contributing successfully to the health of the
                                                                  Full-time Equivalents by Strategic Goal
industry it regulates.

	    Annually, the performance metrics are analyzed to                   139 FTEs                          160 FTEs
                                                                Goal Three: Ensure market             Goal One; Ensure the
determine the measure of success the program’s activities       integrity in order to foster           economic vitality of
                                                                  open, competitive, and             the commodity futures
have achieved in accomplishing the Commission’s overall
                                                                financially sound markets.            and option markets.
strategic mission.                                                          28%                              32%



Resource Investment by Strategic Goal
In FY 2006, the Commission invested 39 percent of its re-
sources protecting market users and the public, and nearly
equal amounts of 30 percent each in economic vitality
and market integrity.
                                                                                                      196 FTEs
                                                                                               Goal Two: Protect market
                                                                                                users and the public.
                                                                                                         40%

14      CFTC
                                   Strategic Goal One

Goal One Summary
The focus of this goal is the marketplace. If U.S. commodity futures and option markets are protected from, and are
free of, abusive practices and influences, they will fulfill their vital role in the nation’s market economy and the global
economy, accurately reflecting the forces of supply and demand and serving market users by fulfilling an economic need.



                                                    Strategic Goal One
                        Ensure the economic vitality of the commodity futures and option markets.
 Outcome 1.1 Markets that accurately reflect the forces of supply and demand for the underlying commodity and are free of
 disruptive activity.
 Annual Performance Goal 1.1 No price manipulation or other disruptive activities that would cause loss of confidence or nega-
 tively affect price discovery or risk shifting.
                                                       Performance Measures
  	   1.1.1.	Percentage growth in market volume.
  	   1.1.2.	Percentage of novel or innovative market proposals or requests for CFTC action addressed within six months to
             accommodate new approaches to, or the expansion in, derivatives trading, enhance the price discovery process, or
             increase available risk management tools.
  	   1.1.3.	Percentage increase in number of products traded.
  	   1.1.4.	Percentage of new exchange and clearinghouse organization applications completed within fast track review period.
  	   1.1.5.	Percentage of new contract certification reviews completed within three months to identify and correct deficiencies in
             contract terms that make contracts susceptible to manipulation.
  	   1.1.6.	Percentage of rule certification reviews completed within three months, to identify and correct deficiencies in ex-
             change rules that make contracts susceptible to manipulation or trading abuses or result in violations of law.
 Outcome 1.2 Markets are effectively and efficiently monitored so that the Commission receives early warning of potential prob-
 lems or issues that could adversely affect their economic vitality.
 Annual Performance Goal 1.2 To have an effective and efficient market surveillance program.
                                                       Performance Measures
  	   1.2.1	 Percentage of derivative clearing organization applications demonstrating compliance with core principles.
  	   1.2.2	 Ratio of markets surveilled per economist.
  	   1.2.3	 Percentage of contract expirations without manipulation.




                                                                                                                     CFTC          15
Performance Trends for Goal One
Monitoring market activity represents one of the ways the Commission seeks to protect the economic functions of the
markets. Market surveillance is conducted to detect attempted manipulation and other abusive practices that could un-
dermine the capacity of these markets to perform their economic function. The Commission takes preventive measures
to ensure that market prices accurately reflect fundamental supply and demand conditions, including the routine daily
monitoring of large trader positions, futures and cash prices, price relationships, and supply and demand factors in
order to detect threats of price manipulation.

Market Volume
Contract trading volume peaked to over 2.4 billion in FY 2006, as shown in Figure two, Growth in Volume of Futures &
Option Contracts Traded & FTEs, on page eight, with increased demand realized for products traded on exchanges. The
actual FY 2006 number is driven by changes in economic fundamentals, success of newly launched products, new partic-
ipants using these markets, and other changes in the marketplace. As such, these factors may impact the precision of any
prediction of future trading volume.



                                                                 FY 2004        FY 2005        FY 2006         FY 2006
 Performance Measure 1.1.1                                        Actual         Actual          Plan           Actual
 Percentage growth in market volume                               24%            26%             20%             26%


New Products
Similar to the growth in volume, the actual percentage of new products offered on the exchanges in FY 2006 increased
above projections. These results are driven by customer demand for new products, exchange innovation, opportunities
made available by the increasing use of electronic trading, and other changes in the marketplace. As such, these factors
may impact the number of products introduced.



                                                                 FY 2004        FY 2005        FY 2006         FY 2006
 Performance Measure 1.1.3                                        Actual         Actual          Plan           Actual
 Percentage increase in number of products traded                 12%            43%             15%             25%




16     CFTC
                                                                      M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Performance Highlights for Goal One                              Intergovernmental Cooperation
The following are the highlights of Commission perfor-           The Commission worked to limit the impact of the liqui-
mance for Goal One:                                              dation of Refco LLC – one of the largest retail commodity
                                                                 brokers in the world. Commission staff worked coopera-
Market Surveillance                                              tively and successfully with SROs, industry participants,
In FY 2006, the Commission’s market surveillance activi-         government officials, and the U.S. Bankruptcy Court to
ties included collecting and analyzing approximately 44          ensure that futures market positions of Refco customers
million line items of data regarding large trader activ-         and more than $7 billion in customer funds were safely
ity and approximately 16,000 reports identifying large           and securely protected.
traders. In the course of the year, economists prepared
                                                                 	   The Commission, jointly with the SEC, promulgated
approximately 1,500 weekly surveillance reports and com-
                                                                 final regulations to permit trading of futures contracts on
piled 23 special market reports.
                                                                 debt indexes and debt securities. The joint rulemaking was
Energy Markets                                                   necessitated by statutory obstacles making it difficult to
In FY 2006, Commission staff conducted daily surveil-            trade these products. The regulations provide a definition
lance of 1,135 active futures and option contracts. In           for broad-based debt security indexes; as a result, futures
particular, close monitoring was conducted on the energy         transactions on these indexes will be able to trade subject
futures markets, which experienced periods of high prices        to the sole jurisdiction of the CFTC. And, for the first time,
and high price volatility due to, among other things, low        the regulations permit trading of security futures products
stocks, tight production capacity, geopolitical tension in       based on debt securities, subject to joint regulation by the
the Middle East, strong world economic demand, and               CFTC and SEC.
natural disasters. In addition, prices and price volatility in
                                                                 Electronic Markets
both the petroleum markets and the natural gas mar-
                                                                 The Commission has worked cooperatively with the
ket were substantially increased by damage inflicted by
                                                                 United Kingdom’s (U.K.) Financial Services Authority
Hurricanes Katrina and Rita to the Gulf Coast oil and gas
                                                                 (FSA) to obtain and share, on a bilateral basis, informa-
production, processing, and transportation infrastructure.
                                                                 tion needed to address common surveillance issues arising
Surveillance staff closely monitored large trader positions
                                                                 from the trading of economically linked futures contracts
on a daily basis to detect large positions that could pose
                                                                 in the U.K. and U.S. The Commission recognizes that, as
a threat of price manipulation, and staff also conducted
                                                                 global markets continue to become linked electronically,
several special analyses of intraday trading to determine
                                                                 no one regulator will have all of the information needed
whether there was evidence of improper trading to affect
                                                                 to carry out its customer and market protection mandate
settlement prices of energy futures contracts.
                                                                 and therefore each regulator must cooperate with its for-
New Contracts                                                    eign regulatory counterparts.
During FY 2006, Commission staff completed reviews
of several innovative contracts filed under its certifica-
tion procedures. Those contracts include the Volatility
Index (VIX) and Dow Jones Industrial Average (DJIA)
VIX futures contracts on the CBOE Futures Exchange, the
South American Soybean Meal futures contract on the
CBOT, Snowfall Index contracts on the CME, the physi-
cally delivered Euro Index on the NYBOT, the Reformu-
lated Gasoline Blendstock for Oxygen Blending (RBOB)
Unleaded Gasoline futures contract on the NYMEX, and
many geographically specific energy futures contracts on
NYMEX.




                                                                                                                  CFTC         17
                                       Strategic Goal Two

Goal Two Summary
While our country is the beneficiary of explosive growth in the futures industry, the risk of fraud and manipulation is
always present. The trend toward electronic trading platforms and the expanding complexity of trading instruments have
challenged the Commission to reconfigure its ability to identify, investigate, and take action against parties involved in
violating applicable laws and regulations. If evidence of criminal activity is found, matters are referred to state or Federal
authorities for prosecution under criminal statutes.

	        Over the years, the Commission has taken action in a num­ber of cases involving manipulation or attempted
manipu­lation of commodity prices. A variety of administrative sanctions, such as bans on futures trading, civil monetary
penalties, and restitution orders, is available to the Commission. The Commission may also seek Federal court injunc-
tions, asset freezes, and orders to disgorge ill-gotten gains.



                                                         Strategic Goal Two
                                                 Protect market users and the public.
    Outcome 2.1 Violations of Federal commodities laws are detected and prevented.
    Annual Performance Goal 2.1 Violators have a strong probability of being detected and sanctioned.
                                                            Performance Measures
     	    2.1.1.	Number of enforcement investigations opened during the fiscal year.
     	    2.1.2.	Number of enforcement cases filed during the fiscal year.
     	    2.1.3.	Percentage of enforcement cases closed during the fiscal year in which the Commission obtained sanctions, e.g.,
                 civil monetary penalties, restitution and disgorgement, cease and desist orders, permanent injunctions, trading bans,
                 and registration restrictions.
     	    2.1.4.	Cases filed by other criminal and civil law enforcement authorities during the fiscal year that included cooperative as-
                 sistance from the Commission.
    Outcome 2.2 Commodity professionals meet high standards.
    Annual Performance Goal 2.2 No unregistered, untested, or unlicensed commodity professionals.
                                                            Performance Measures
     	    2.2.1.	Percentage of self-regulatory organizations that comply with core principles.
     	    2.2.2.	Percentage of derivative clearing organizations that comply with core principles.
     	    2.2.3.	Percentage of professionals compliant with standards regarding testing, licensing, and ethics training.
     	    2.2.4.	Percentage of self-regulatory organizations that comply with requirement to enforce their rules.
     	    2.2.5.	Percentage of total requests receiving CFTC responses for guidance and advice.
    Outcome 2.3 Customer complaints against persons or firms registered under the Act are handled effectively and expeditiously.
    Annual Performance Goal 2.3 Customer complaints are resolved within one year from the date filed and appeals are resolved
    within six months.
                                                            Performance Measures
     	    2.3.1.	Percentage of filed complaints resolved within one year of the filing date.
     	    2.3.2.	Percentage of appeals resolved within six months.




18         CFTC
                                                                            M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Performance Trends for Goal Two                                      60 cases for FY 2006. Due to a hiring freeze over the last
An ever larger segment of the population has money at                two fiscal years, the Division of Enforcement (Enforce-
risk in the futures markets, either directly or indirectly           ment) lost 11 percent of its staff and was forced to operate
through pension funds or ownership of shares in publicly             with fewer staff members. Coming at a time when the
held companies that participate in the markets.                      Enforcement program’s litigation docket and the complex-
                                                                     ity of matters investigated, such as investigation of alleged
	      The Enforcement program works to protect market
                                                                     market manipulation, are at historical highs, the Commis-
users and the public by promoting compliance with, and
                                                                     sion believes that the hiring freeze contributed to this per-
deterring violations of, the CEA and Commission regula-
                                                                     formance result. Moreover, the Commission believes that
tions. The majority of the work in this area involves inves-
                                                                     these resource constraints have the possibility of adversely
tigating and prosecuting enforcement actions in matters
                                                                     affecting future performance as well.
involving fraud and imposing sanctions against wrongdo-
ers. These actions send a message to industry professionals          	     Enforcement staff are operating at full capacity and
about the kinds of conduct that will not be tolerated.               shifting resources from important investigations to ongo-
                                                                     ing and future litigation demands limits the ability to
Enforcement Investigation and Litigation                             pursue new investigations as shown in the metrics below.
During FY 2006, the Commission filed 38 enforcement                  If the Enforcement program is unable to bring actions
actions and its Enforcement program opened 123 in-                   because of insufficient resources, other authorities will not
vestigations of potential violations of the Act and Com-             be available to step in and fill the void. SROs can take ac-
mission regulations. The Commission obtained record                  tion only against their own members, and their sanctions
relief against enforcement action defendants – monetary              cannot affect conduct outside their jurisdiction or markets.
penalties imposed in FY 2006, including restitution, in the          In addition, other Federal regulators and state regulators
amount of $256,724,698 and civil monetary penalties, in              have limited jurisdiction and expertise in handling fu-
the amount of $189,232,437, exceeded any other year in               tures-related misconduct. Finally, while criminal prosecu-
Commission history.                                                  tions by the Department of Justice (DOJ) are an important
	      While the Commission’s Enforcement program                    adjunct to effective enforcement of the CEA, cooperative
continued to perform at a high level, current resource con-          enforcement still requires the active use of Commission
straints had an adverse impact. For example, the 38 cases            FTEs to assist DOJ in their criminal prosecutions.
filed fell short of the Commission’s performance target of

                                                                         FY 2004         FY 2005           FY 2006          FY 2006
    Performance Measure 2.1.1                                             Actual          Actual             Plan            Actual
    Number of enforcement investigations opened during the                 215             131               100               123
    fiscal year



                                                                         FY 2004         FY 2005          FY 2006           FY 2006
    Performance Measure 2.1.2                                             Actual          Actual            Plan             Actual
    Number of enforcement cases filed during the fiscal year               83               69                60               38



                                                                         FY 2004         FY 2005          FY 2006           FY 2006
    Performance Measure 2.1.3                                             Actual          Actual            Plan             Actual
    Percentage of enforcement cases closed during the fiscal              99%             100%              100%             100%
    year in which the Commission obtained sanctions, e.g., civil
    monetary penalties, restitution and disgorgement, cease and
    desist orders, permanent injunctions, trading bans, and regis-
    tration restrictions




                                                                                                                        CFTC          19
Performance Highlights for Goal Two                              for propane, in part because the NYMEX propane contract
The following are the highlights of Commission perfor-           provides for delivery of propane at TEPPCO. CFTC v. BP
mance for Goal Two:                                              Products North America, Inc., No. 06C 3503 (N.D.Ill. filed
                                                                 June 28, 2006).
Foreign Currency Fraud Enforcement
                                                                 	   With the filing of the BP enforcement action, the
During FY 2006, the Commission filed six enforcement
                                                                 Commission has, since December 2002, filed a total of 35
actions against firms and individuals selling illegal forex
                                                                 enforcement actions charging a total of 55 respondents/
futures and option contracts, bringing the total of such
                                                                 defendants (31 companies and 24 individuals) with al-
actions to 93 since enactment of the CFMA in December
                                                                 leged wrongdoing in the energy markets. The Commission
2000. To date, the Commission has obtained in these
                                                                 has settled 27 of these enforcement actions and obtained
enforcement actions approximate monetary sanctions of
                                                                 $302,863,500 in civil monetary penalties. Eight Commis-
$292 million in civil monetary penalties and $182 million
                                                                 sion energy market-related enforcement actions remain
in restitution.
                                                                 pending. The Commission’s Division of Enforcement is
	    In March 2006, Commissioner Michael V. Dunn was             currently investigating approximately 70 individuals and
appointed to head the Commission’s forex task force.             companies for alleged violations in the energy sector.
This task force seeks to alert and educate members of the
general public about the growing epidemic of fraudulent          Enforcement Actions Against Commodity Pool
solicitations and sales of forex to retail customers. The task   Operators and Commodity Trading Advisors
force has two goals: 1) to raise consumer awareness re-          Customers may be harmed by unscrupulous CPOs and
garding forex fraud through direct educational efforts; and      CTAs, including those operating hedge funds. These
2) to encourage state, local and Federal authorities, as well    enforcement actions typically involve investments in com-
as consumer advocacy groups and industry organizations,          modity pools, including self-styled hedge funds, in which
to assist the Commission’s efforts in fighting forex fraud.      the customers’ funds were misappropriated or misused,
                                                                 or where customers were victimized by solicitation fraud
Manipulation, Attempted Manipulation, and False                  involving misrepresentations of assets under management
Reporting Enforcement                                            and/or profitability. The majority of the Commission’s
On June 28, 2006, the Commission filed a civil injunctive        pool fraud cases are brought against unregistered CPOs
enforcement action against BP Products North America,            and/or CTAs. These cases tend to involve Ponzi schemes or
Inc. (BP), a wholly-owned subsidiary of BP plc, alleging         outright misappropriation, as opposed to legitimate hedge
that BP manipulated the price of February 2004 TET physi-        fund operations. During FY 2006, the Commission filed
cal propane by, among other things, cornering the market         11 enforcement actions against commodity pools, hedge
for February 2004 TET physical propane. (The term “TET           funds and CPOs, bringing the total number of actions
propane” refers to propane that is deliverable at the TEP-       filed in this program area to 53 over the past six fiscal
PCO storage facility in Mont Belvieu, Texas, or anywhere         years. The Commission’s Division of Enforcement cur-
within the TEPPCO system. “TEPPCO” is an acronym for             rently has 55 pending investigations of commodity pools,
Texas Eastern Products Pipeline Co, LLC.)                        hedge funds, CPOs, and CTAs.
	    The Commission also charged BP with attempting to
                                                                 Quick-Strike Enforcement Actions
manipulate the price of April 2003 TET physical propane
                                                                 The Commission is committed to responding quickly to
by attempting to corner the April 2003 TET physical
                                                                 enforcement investigations that uncover ongoing fraud.
propane market. According to the lawsuit, TET propane
                                                                 Quick-strike cases are civil injunctive actions that generally
is the primary propane used for residential and commer-
                                                                 are filed in Federal district courts within days or weeks of
cial heating in the Northeast U.S., particularly in rural
                                                                 the discovery of the illegal activity, enabling the Com-
areas that are not served by natural gas pipelines, and the
                                                                 mission to stop fraud at an early stage and to attempt to
price of TET propane at Mont Belvieu affects the price of
                                                                 preserve customer funds. During FY 2006, the Commis-
propane paid by consumers. Furthermore, prices of TET
                                                                 sion prosecuted five quick-strike cases, which were all filed
propane affect the price of the NYMEX futures contract
                                                                 within four months of opening the related investigation.



20      CFTC
Consumer Advisory
In FY 2006, the Commission issued a Consumer Advisory,
Beware Of Promises of Easy Profits from Commodity Trading
Based on Seasonal Demand and Other Well-Known Public
Information. The Advisory warns consumers to watch out
for possibly fraudulent claims that profits on commod-
ity futures or option trading can be made as a result of
changes in the prices of physical commodities based on
seasonal weather patterns or other well-known events. All
of the Commission’s Consumer Advisories are available
on its Web site at http://www.cftc.gov/cftc/cftccustomer.htm

Overall FY 2006 Enforcement Results
During FY 2006, the Commission’s Division of Enforce-
ment filed a total of 38 enforcement actions in the fol-
lowing program areas: Manipulation, Attempted Manipu-
lation and False Reporting; Commodity Pools, Hedge
Funds, CPOs, CTAs, Managed Accounts, and Trading
Systems; FCMs, IBs and their APs; Foreign Currency Cases;
Other Illegal Off-Exchange Cases; Trade Practices; Finan-
cial, Supervision, Compliance and Recordkeeping; and
Statutory Disqualification. During FY 2006, Enforcement
also obtained sanctions in Commission enforcement ac-
tions that included orders to pay a total of $257 million
in restitution and approximately $189 million in civil
monetary penalties.




                                                               CFTC   21
                                Strategic Goal Three

Goal Three Summary
The Commission focuses on issues of market integrity, seeking to protect: 1) the economic integrity of the markets so
that they may operate free from manipulation; 2) the financial integrity of the markets so that the insolvency of a single
participant does not become a systemic problem affecting other market participants; and 3) the operational integrity
of the markets so that transactions are executed fairly and proper disclosures to existing and prospective customers are
made.



                                                 Strategic Goal Three
            Ensure market integrity in order to foster open, competitive, and financially sound markets.
 Outcome 3.1 Clearing organizations and firms holding customer funds have sound financial practices.
 Annual Performance Goal 3.1 No loss of customer funds as a result of firms’ failure to adhere to regulations. No customers
 prevented from transferring funds from failing firms to sound firms.
                                                       Performance Measures
  	   3.1.1.	Lost funds:
  		        a)	   Percentage decrease in number of customers who lose funds.
  		        b)	   Amount of funds lost.
  	   3.1.2.	Number of rulemakings to ensure market integrity and financially sound markets.
  	   3.1.3.	Percentage of clearing organizations that comply with requirement to enforce their rules.
 Outcome 3.2 Commodity futures and option markets are effectively self-regulated.
 Annual Performance Goal 3.2 No loss of funds resulting from failure of self-regulated organizations to ensure compliance
 with their rules.
                                                       Performance Measures
  	   3.2.1.	Percentage of intermediaries who meet risk-based capital requirements.
  	   3.2.2.	Percentage of self-regulatory organizations that comply with requirement to enforce their rules.
 Outcome 3.3 Markets are free of trade practice abuses.
 Annual Performance Goal 3.3 Minimize trade practice abuses.
                                                       Performance Measures
  	   3.3.1.	Percentage of exchanges deemed to have adequate systems for detecting trade practice abuses.
  	   3.3.2.	Percentage of exchanges that comply with requirement to enforce their rules.
 Outcome 3.4 Regulatory environment is flexible and responsive to evolving market conditions.
 Annual Performance Goal 3.4 Rulemakings issued and requests responded to reflect the evolution of the markets and protect
 the interests of the public.
                                                       Performance Measures
  	   3.4.1.	Percentage of CFMA Section 126(b) objectives addressed.
  	   3.4.2.	Number of rulemakings, studies, interpretations, and guidances to ensure market integrity and exchanges’ compli-
             ance with regulatory requirements.
  	   3.4.3.	Percentage of requests for no-action or other relief completed within six months related to novel market or trading
             practices and issues to facilitate innovation.
  	   3.4.4.	Percentage of total requests receiving CFTC responses for guidance and advice.




22      CFTC
Performance Trends for Goal Three
In fostering open, competitive, and financially sound markets, the Commission’s two main priorities are to avoid
disruptions to the system for clearing and settling contract obligations and to protect the funds that customers entrust
to FCMs. Clearing organizations and FCMs are the backbone of the exchange system; together, they protect against the
possibility that the financial difficulties of one trader may become a systemic problem for other traders.

	      The Commission also works with the exchanges and NFA to monitor closely the financial condition of the FCMs
themselves, who must provide the Commission, exchanges, and NFA with various monthly, quarterly, and annual
financial reports. The exchanges and NFA also conduct audits and daily financial surveillance of their respective member
FCMs. Part of this financial surveillance involves looking at each FCM’s exposure to losses from large customer posi-
tions that it carries. As an oversight regulator, the Commission reviews the audit and financial surveillance work of the
exchanges and NFA but also monitors the health of FCMs directly, as appropriate. The Commission also periodically
reviews clearing organization procedures for monitoring risks and protecting customer funds.

Protecting Customer Funds
Commission staff closely monitor the operations of registrants in possession of customer funds. There were no losses
of regulated customer funds as a result of firm failures or the inability of customers to transfer their funds from a failing
firm to a sound firm in 2005 or 2006.

                                                                   FY 2004       FY 2005          FY 2006         FY 2006
    Performance Measure 3.1.1                                       Actual        Actual            Plan           Actual
    Lost funds:
    a)	 Percentage decrease in number of                             0%             0%              0%               0%
        customers who lose funds
    b)	 Amount of funds lost                                         $0             $0               $0              $0


Self-Regulatory Organization Compliance
During FY 2006, the Division of Clearing and Intermediary Oversight (DCIO) completed a review of the NFA’s program
for the oversight of CPOs and CTAs, and initiated a review of the financial and sales practice program of the CBOT.
These reviews included assessments of the disciplinary programs of the NFA and CBOT, respectively. DCIO presented a
report to the Commission stating that NFA was complying with the CEA and its delegated responsibilities. The review of
the CBOT is still in progress at this time, but no material deviations from CEA core principles have been observed.

                                                                   FY 2004       FY 2005          FY 2006         FY 2006
    Performance Measure 3.1.3                                       Actual        Actual            Plan           Actual
    Percentage of clearing organizations that comply with re-       100%          100%             100%            100%
    quirement to enforce rules



                                                                   FY 2004       FY 2005          FY 2006         FY 2006
    Performance Measure 3.2.2                                       Actual        Actual            Plan           Actual
    Percentage of self-regulatory organizations that comply with    100%          100%             100%            100%
    requirement to enforce their rules



                                                                   FY 2004       FY 2005          FY 2006         FY 2006
    Performance Measure 3.3.2                                       Actual        Actual            Plan           Actual
    Percentage of exchanges that comply with requirement to         100%          100%             100%            100%
    enforce their rules




                                                                                                               CFTC         23
Performance Highlights for Goal Three                           certain FCMs and forex option dealers; clarifying that en-
The following are the highlights of Commission perfor-          hanced supervisory requirements applicable to other NFA
mance for Goal Three:                                           members also apply to forex dealer members, including
                                                                requiring the recording of conversations with custom-
Capital Computation and Risk Models                             ers if specified percentages of APs had been previously
The Commission adopted amendments to its regulations            employed by disciplined firms, i.e., firms permanently
that recognize the growing use by FCMs of internally            barred from the industry as a result of deceptive telemar-
developed mathematical models for value-at-risk (VaR),          keting practices or promotional material; requiring NFA
especially in light of SEC regulations that permit well-capi-   Forex Dealer Members to file weekly reports; and requiring
talized broker-dealers to incorporate VaR measurements          additional disclosure on the bankruptcy consequences of
in the market risk and credit risk capital deductions that      forex trading.
are required for their proprietary trading assets. FCM/bro-
ker-dealers who are registered with both the Commission         Foreign Board of Trade Access to U.S. Traders
and the SEC, and who have received SEC approval for             The Commission continued its policy of issuing no-action
their VaR-based market risk and credit risk deductions,         letters in response to requests by foreign boards of trade to
are permitted to use the same deductions when calculat-         permit placement of electronic terminals in the U.S. with-
ing their capital under amended Commission Regula-              out requiring contract market designation for those boards
tion 1.17. When compared to the capital deductions that         of trade. In FY 2006, the Commission issued no-action let-
Commission Regulation 1.17 (or similar SEC regulations)         ters to two additional foreign exchanges to permit them to
otherwise would require, capital deductions based on VaR        make their electronic trading and order matching systems
measurements are aligned more specifically to the risk          available to their respective members in the U.S. without
characteristics of the firm’s trading portfolio. FCMs using     obtaining contract market designation or registration as a
such market risk and credit risk capital deductions are re-     derivatives transaction execution facility.
quired to provide to the Commission, on a periodic basis,
                                                                Foreign Board Of Trade Hearing
information related to their VaR models.
                                                                On June 27, 2006, the Commission held an open hearing
SRO Acceptable Practices                                        to obtain the views of interested parties on the issue of
Recognizing that increased competition and changing             what constitutes “a board of trade, exchange, or market
ownership models are dramatically transforming the              located outside the U.S., its territories, or possessions” as
futures markets, the Commission proposed acceptable             that phrase is used in Section 4(a) of the CEA. The hearing
practices for complying with Core Principle 15 relating         was undertaken in connection with the Commission’s
to exchange governance and conflicts of interest. The           ongoing review of its policy, initiated in 1999, of hav-
acceptable practices call: 1) for each exchange’s board to      ing staff issue no-action letters in response to requests by
be composed of at least 50 percent non-member public            foreign boards of trade to permit placement of electronic
directors; 2) for each exchange to establish a board-level      terminals in the U.S. without requiring contract market
Regulatory Oversight Committee composed of only non-            designation for those boards of trade. Participants at the
member public directors; and 3) for exchange disciplinary       June 27th hearing included representatives of DCMs, for-
panels to include at least one public participant and not to    eign boards of trade, foreign regulators, market profession-
be dominated by any group or class of exchange members.         als and commercial users of futures products. In addition
The proposal also offers guidance on the definition of          to views expressed at the hearing, the Commission also
“public director.”                                              solicited views on the same topic through a concurrent
                                                                public comment period.
Foreign Currency
In FY 2006, the Commission approved numerous rules
submitted by NFA that were intended to address ongo-
ing problems in the off-exchange retail forex market
by, among other things: requiring higher net capital for




24     CFTC
                                     Forward Looking

Future Effects and Performance                                  concerns. In such an integrated global environment, no
Challenges                                                      one regulator will have all of the information or juris-
The above performance metrics and the industry indica-          diction over markets, firms and persons, that is needed
tors shown on pages eight through 13 reflect a dynamic          to ensure customer and market protections. Thus, our
industry full of growth and potential. However, where           challenge will be to work with and coordinate regula-
there is growth, change is ever present.                        tion globally.

Possible future effects and challenges include:               Marketplace
                                                              •	 Development and growth of renewable energy sources
Technology
                                                                (i.e., biofuels) could impact existing energy markets.
•	 Technology continues to make it possible for market
  participants to trade globally 24 hours a day. This         •	 Disruption of oil exports to the U.S. may disrupt energy
  presents a challenge to the Commission to maintain a          markets.
  robust, yet flexible, regulatory framework as market par-   •	 A significant portion of the power grids may be disabled
  ticipants have an increasing number of choices available      for an extended period of time, crippling markets.
  to them as to how and where to trade.
                                                              •	 Changes in the structure of the futures and options
•	 The expansion of electronic trading will require an in-      industry, such as the conversion of exchanges from
  crease in Commission staff trained to carry out oversight     member-owned entities to publicly-listed corporations,
  of more technologically driven markets and self-regula-       exchange mergers, and the introduction of new and
  tory systems.                                                 novel contracts will mean that the Commission will re-
•	 As electronic trading of futures and options on Com-         quire more staff to review novel or increasingly complex
  mision-regulated exchanges becomes the norm the               legal and regulatory issues.
  Commission must upgrade its own technology and
                                                              Government
  infrastructure so that it may effectively discharge its
                                                              •	 Congress could pass new legislation that may impact
  statutory mandate of deterring and preventing price
                                                                the futures markets.
  manipulation and any other disruptions to the integrity
  of the markets the Commission regulates.                    •	 Congress may require an investigation of certain mar-
                                                                kets.
Globalization
                                                              •	 Congress may not appropriate adequate funds for the
•	 The increasing globalization of the futures and option
                                                                Commission to effectively discharge its mission-critical
  markets requires new staff competencies, including
                                                                functions
  knowledge of how individual overseas markets operate
  and are regulated, how cross-border trading and clear-      Management
  ing systems operate, and what law, especially bankrupt-     •	 Competition to hire and retain staff is intense in a job
  cy law, applies in cross-border transactions.                 market where scarce mission-critical skills command
•	 The possibility of market disruptions caused by eco-         premium compensation levels. Even at “pay parity”
  nomic changes, terrorism, epidemics, natural disasters        salaries, cost of living increases make recruitment and
  or political developments could trigger global market         retention of a talented and qualified workforce difficult.




                                                                                                            CFTC         25
                                   Financial Highlights

Financial Summary
                                                                               2005
                                                          2006
                                                                       (As Restated)
 Condensed Balance Sheet Data
 	   Fund Balance with Treasury                $	    20,055,508   $	     23,464,887
 	   Property, Equipment, and Software, Net           3,674,493           1,919,650
 	   Accounts Receivable                                63,855              185,927
 	   Prepayments                                       461,038                    0
 	   Other (Custodial)                                5,756,605          28,663,845
 Total Assets                                  $	    30,011,499   $	     54,234,309
 	   FECA Liabilities                          $	      311,285    $	        629,800
 	   Payroll, Benefits and Annual Leave               9,182,837           8,082,514
 	   Contingent & Deposit Fund Liabilities              59,088               20,094
 	   Other Deferred Lease Liabilities                 2,837,403           2,166,518
 	   Accounts Payable                                 2,574,535           1,692,411
 	   Custodial Liabilities                            5,756,605          28,663,845
 Total Liabilities                             $	    20,721,753   $	     41,255,182
 Cumulative Results of Operations              $	   (4,568,800)   $	     (6,106,083)
 Unexpended Appropriations                           13,858,546          19,085,210
 Total Net Position                                   9,289,746          12,979,127
 Total Liabilities and Net Position            $	    30,011,499   $	     54,234,309
 Condensed Statements     of   Net Cost
 	   Total Cost                                $	   104,256,065   $	   $100,132,194
 	   Net Revenue                                       (23,150)           (114,705)
 Total Net Cost of Operations                  $	   104,232,915   $	    100,017,489
 Net Cost   by   Strategic Goal
 	   Goal One - Economic Utility               $	    33,354,533   $	     34,005,946
 	   Goal Two - Market User and Public               40,650,837          40,006,996
 	   Goal Three - Industry                           30,227,545          26,004,547
                                               $	   104,232,915   $	    100,017,489




26    CFTC
                                                                       M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Financial Discussion and Analysis                                 CEA, as amended. Violators may be subject to a variety
The CFTC prepares annual financial statements in ac-              of sanctions including fines, injunctive orders, bars or
cordance with GAAP for Federal government entities and            suspensions, rescissions of illegal contracts, disgorgement,
subjects the statements to an independent audit to ensure         and restitution to customers. When collectable custodial
their integrity and reliability in assessing performance.         receivables (non-entity assets) are high, these fines and
                                                                  penalties that have been assessed and levied against busi-
	   Management recognizes the need for performance and
                                                                  nesses for violation of law dominate the balance sheet.
accountability reporting, and fully supports assessments of
risk factors that can have an impact on its ability to do so.     	   In FY 2005, the majority of approximately $28.7
Improved reporting enables managers to be accountable             million in net custodial receivables can be attributed
and supports the concepts of the Government Performance           to two debts totaling approximately $24 million. The
and Results Act (GPRA), which require the Commission to:          energy company El Paso owed $10.3 million as the second
1) establish a strategic plan with programmatic goals and         installment of a $20 million dollar judgment, paid March
objectives; 2) develop appropriate measurement indicators;        2006, and DBS Capital, Inc. and Douglas Stevens owed
and 3) measure performance in achieving those goals.              $14.1 million pursuant to a June 2005 order. The latter
                                                                  receivable was maintained after allowances on the FY
	   The financial summary as shown on page 26 highlights
                                                                  2005 financials because almost one million dollars in
changes in financial position between September 30, 2005
                                                                  frozen funds had been collected, and staff were pursuing
and September 30, 2006. This overview is supplemented
                                                                  other funds in a foreign bank. With the passage of time,
with brief descriptions of the nature of each required
                                                                  the Commission determined the chances of collecting
financial statement and its relevance. Certain significant bal-
                                                                  the remaining funds had diminished and a full allowance
ances or conditions featured in the graphic presentation are
                                                                  for the DBS Capital, Inc. and Douglas Stevens receivable
explained in these sections to help clarify their relationship
                                                                  was taken. Of the remaining 15 receivables for FY 2005,
to Commission operations. Readers are encouraged to gain
                                                                  seven were paid in full; one was partially paid; two oth-
a deeper understanding by reviewing Commission financial
                                                                  ers remain as net receivables because payment is not yet
statements and notes, and the accompanying audit report
                                                                  due; one was written off; and allowances were taken on
presented in the Financial Section of this report.
                                                                  the remaining four. For FY 2006, the majority of the $5.7
Understanding the Financial Statements                            million net receivables can be attributed to a $4.2 million
The CFTC presents financial statements and notes in the           debt imposed on Dominion Resources in the last days of
format required for the current year by OMB Circular              the fiscal year, and collected in early October 2006.
A-136, Financial Reporting Requirements, which is revised
                                                                  	   As should be expected from a small regulatory agency,
annually by the OMB in coordination with the U.S. Chief
                                                                  payroll, benefits, and annual leave make up the majority
Financial Officers Council. CFTC current year and prior
                                                                  of CFTC liabilities. Several factors influenced the change
year financial statements and notes are presented in a
                                                                  in the Commission’s net position during FY 2006. This, as
comparative format.
                                                                  noted above, includes the timing of prior year write-offs of
Balance Sheet                                                     old debt, and the overall case management and analysis of
The balance sheet presents, as of a specific point in time,       debt by the Division of Enforcement.
the economic value of assets and liabilities retained or
                                                                  Statement of Net Cost
managed by the Commission. The difference between
                                                                  The statement of net cost is designed to present the compo-
assets and liabilities represents the net position of the
                                                                  nents of the net cost of the Commission. Net cost is the gross
Commission.
                                                                  cost incurred less any revenues earned from Commission
	   The balance sheet reflects total assets of $30 million,       activities. The statement of net cost is categorized by the
an almost 45 percent decrease from FY 2005. This decrease         Commission’s strategic goals. The Commission experienced
is attributable to custodial fines and interest receivables       a four percent increase in the total net cost of operations
from the Civil Monetary Sanctions Program. The CFTC               during FY 2006. This is consistent with the increase in our
litigates against defendants for alleged violations of the        appropriation.



                                                                                                                   CFTC         27
of operations during FY 2006. This is consistent with the      Statement of Financing
increase in our appropriation.                                 This statement demonstrates the relationship between an
                                                               entity’s proprietary and budgetary accounting informa-
	    Goal One, which tracks activities related to market
                                                               tion. It links the net cost of operations (proprietary) with
oversight continues to require a significant share of Com-
                                                               net obligations (budgetary) by identifying key differences
mission resources, experienced a one percent decrease in
                                                               between the two statements. This statement is structured
net cost in operations, in FY 2006, decreasing to $33.4
                                                               to identify total resources used during the fiscal year, and
million.
                                                               makes adjustments based on whether the resources were
	    Goal Two is representative of efforts to protect market
                                                               used to finance the net obligations or net cost.
users and the public. In FY 2006, the Goal Two net cost of
                                                               	   For FY 2006, this statement identifies the major
operations rose to $40.7 million, a two percent increase.
                                                               components of the net cost of operations as $99.6 million
These added funding permitted to Commission to pursue
                                                               of resources used to finance activities, and $3.8 million of
a number of highly complex cases, many which are ongo-
                                                               resources used to finance items not part of the net cost of
ing. The impact of this work has yet to be reflected on the
                                                               operations. As noted earlier, the total net cost of opera-
balance sheet.
                                                               tions for FY 2006 is a little over $104 million.
	    The net cost of operations for Goal Three, ensuring
market integrity, was $30.2 million, in FY 2006. The deci-     Statement of Custodial Activity
sion to allocate an increase of 16 percent to this goal was    This statement provides information about the sources
made by the Commission, in FY 2006, in response to mar-        and disposition of non-exchange revenues. Non-exchange
ket concerns when futures brokerage Refco LLC collapsed        revenue at the CFTC is primarily represented by fines,
amid an accounting fraud. Moreover, as futures markets         penalties, and forfeitures assessed and levied against busi-
generally become more global in nature, the Commission         nesses and individuals for violations of the CEA. Other
is increasingly called upon to register overseas clearing-     non-exchange revenue includes registration, and filing and
houses and futures firms, to approve complex cross-border      appeal fees, as well as general receipts. The statement of
trading and clearing linkages, and to perform effective        custodial activity reflects total non-exchange revenue col-
ongoing supervision. This requires the Commission to           lected (cash collections) of $13.6 million and a transfer of
invest resources in developing and maintaining effective       the collections to the Treasury in the same amount.
relationships with foreign regulatory authorities.             	   Historical experience has indicated that a high per-
                                                               centage of custodial receivables proves uncollectible. The
Statement of Budgetary Resources
                                                               methodology used to estimate the allowance for uncollect-
This statement provides information about the provision
                                                               ible amounts related to custodial accounts is that custodial
of budgetary resources and their status as of the end of the
                                                               receivables are considered 100 percent uncollectible unless
reporting period. Information in this statement is consis-
                                                               otherwise noted in the judgment. An allowance for uncol-
tent with budget execution information and the informa-
                                                               lectible accounts has been established and included in
tion reported in the Budget of the U.S. Government.
                                                               “accounts receivable” on the balance sheet. The allowance
	    The variances in this statement are mainly due to the
                                                               is based on past experience in the collection of accounts
increase in the appropriations received in FY 2006. The
                                                               receivable and analysis of outstanding balances. Accounts
increase was used to maintain a “steady state” and funded
                                                               are re-estimated quarterly based on account reviews and
benefits and compensation, lease expenses, printing, and
                                                               determination that changes to the net realizable value
services to support systems users, telecommunications,
                                                               are needed. The re-estimate can cause wide swings in the
operations, and maintenance of technology equipment.
                                                               statement line that reports Changes in Accounts Receiv-
Gross outlays increases are mainly due to the increase in
                                                               able.
the disbursements for payroll and benefits, netted by a
decrease in the disbursements in a no-year appropriation
and expired-year appropriations. 	




28     CFTC
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Future Business Trends and Events                                 comply with laws and regulations, internal controls, and
Almost everything in the futures industry has fundamen-           taxpayer expectations. This could lead to dramatic changes
tally changed over the last 20 years – from the products          in its workforce composition and geographical distribu-
that are trading to the platforms on which they are traded.       tion.
As the Commission looks ahead, we expect technology,
                                                                  Technology Transformation
globalization, and innovation will continue to drive
                                                                  Technology improvements will continue to empower the
growth in the markets we regulate.
                                                                  Commission in the future by increasing the availability of
	    During this time of rapid change, the Commission             our most critical resource – time. Through these improve-
expects to lose most of its experienced career staff, primar-     ments, executive management may spend additional time
ily through retirement. During FY 2006, the Commission            on policy analysis and decision-making rather than on the
experienced its first large wave of these retirements.            processing and compiling of key data. The Commission
From a performance perspective, the Commission has                will increasingly leverage business processes, services, and
struggled to operate at the level needed to ensure that it        systems of larger agencies for internal operations, while
has the tools and resources necessary to do the job ex-           externally relying more on exchange databases when con-
pected of it by the Congress, the Administration, and the         ducting reviews and investigations.
American people. The Commission must make difficult
                                                                  Human Capital Transformation
choices about how it will use its limited resources.
                                                                  Human capital management planning will emphasize
	    It is anticipated that Commission efforts will be            dedicating staff resources to core business lines, while
scaled back to the extent increased productivity cannot           meeting support requirements through the use of lever-
offset anticipated resource reductions. As noted in the           aged resources and competitive sources of service.
discussion of the net cost of operations, the Commission
attempts to balance its investment in three strategic goals,
each focusing on a vital area of regulatory responsibility.
To continue to be an effective regulator, the Commis-
sion will need to place greater reliance on risk manage-
ment approaches to supervision. It will also continue to
leverage needed systems and data maintained by other
Federal agencies and, wherever possible, data reposito-
ries maintained by self-regulatory organizations. Moving
forward the Commission will be required to confront the
jurisdictional challenges created by innovation and the
worldwide creation and expansion of futures and option
markets. This, coupled with a wide array of new surveil-
lance issues, is expected to significantly change the way the
Commission consumes and allocates resources across its
performance goals. From an operational perspective, the
Commission will continue to allocate and deploy its re-
sources in less traditional ways as described below. As this
process accelerates, the Commission seeks to transform
itself along the following dimensions.

Institutional Transformation
The Commission will concentrate on the costs of identify-
ing and controlling institutional risks, specifically, the risk
of impairment to the Commission’s operations model,
reputation, and financial condition from failure to fully



                                                                                                                      CFTC         29
                           Management Challenges


Management Overview                                           •	 Control Activities are the actions supported by man-
The CFTC is committed to management excellence and              agement policies and procedures to address risk, e.g.,
recognizes the importance of strong financial systems and       performance reviews, status of funds reporting, and
internal controls to ensure accountability, integrity, and      asset management reviews.
reliability. This operating philosophy has permitted the      •	 Monitoring is the assessment of internal control per-
Commission to make significant progress documenting             formance to ensure the internal control processes are
and testing its internal controls over financial reporting      properly executed and effective.
next year, as prescribed in OMB Circular A-123, Manage-
                                                              •	 Information and Communication ensures the agency’s
ment’s Responsibility for Internal Control. The graph below
                                                                control environment, risks, control activities, and per-
depicts all five components of the internal control process
                                                                formance are communicated throughout the agency.
that must be present in an organization to ensure an effec-
tive internal control process.                                                      Internal Control Process
•	 Control Environment fosters the highest level of
  integrity and personal and professional standards and
  promotes internal control through leadership philoso-
                                                                                                           Inf
                                                                                       n
                                                                                      tio




                                                                                              Monitoring
  phy and operating style.
                                                                                                            or
                                                                                     ica




                                                                                                                ma
                                                                                un




•	 Risk Assessment is the identification and analysis
                                                                                                                 tio
                                                                               mm




                                                                                                                  n&




  of risks associated with business processes, financial                                   Control Activities
                                                                               Co




                                                                                                                       Co




  reporting, technology systems, and controls and legal
                                                                          n&




                                                                                                                       mm




  compliance in the pursuit of agency goals and objec-
                                                                         tio




                                                                                                                        un
                                                                     ma




  tives.
                                                                                                                            ica




                                                                                           Risk Assessment
                                                                    or




                                                                                                                             tio
                                                                   Inf




                                                                                                                              n




                                                                                        Control Environment




30         CFTC
                                                                          M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




The Commission relies on its performance management                	     During FY 2006, in accordance with the FMFIA,
and internal control framework to:                                 and using the guidelines of the OMB, the Commission
                                                                   reviewed key components of its management and internal
•	 ensure that its divisions and mission support offices
                                                                   control system.
    achieve their intended results efficiently and effectively;
    and                                                            	     The objectives of the Commission’s internal controls
                                                                   are to provide reasonable assurance that:
•	 ensure the maintenance and use of reliable, complete,
    and timely data for decision-making at all levels.             •	 Obligations and costs are in compliance with applicable
                                                                       laws;
	     The Commission strongly believes that the rapid
implementation of audit recommendations is essential to            •	 Assets are safeguarded against waste, loss, unauthorized
improving its operations. Integration of Commission stra-              use, or misappropriation;
tegic, budget, and performance data permits management             •	 Revenues and expenditures applicable to Commission
to make individual assurance statements with confidence.               operations are properly recorded and accounted for to
Moreover, data-driven reporting provides the foundation                permit the preparation of accounts and reliable finan-
for Commission staff to monitor and improve its control                cial and statistical reports and to maintain accountabil-
environment.                                                           ity over the assets; and
Management Assurances                                              •	 All programs are efficiently and effectively carried out
The Statement of Assurance is required by the Federal                  in accordance with applicable laws and management
Managers’ Financial Integrity Act (FMFIA) and OMB Cir-                 policy.
cular A-123, Management’s Responsibility for Internal Control.
                                                                   	     The efficiency of the Commission’s operations is
The assurance is for internal controls over operational
                                                                   continually evaluated using information obtained from
effectiveness (we do the right things to accomplish our
                                                                   reviews conducted by the Government Accountability
mission) and operational efficiency (we do things right).
                                                                   Office (GAO) and the Office of Inspector General (OIG),
Statement of Assurance                                             specifically requested studies, or observations of daily
“CFTC management is responsible for establishing and               operations.
maintaining effective internal control and financial manage-       	     These reviews ensure that the Commission’s systems
ment systems that meet the objectives of the Federal Managers’     and controls comply with the standards established by
Financial Integrity Act (FMFIA). During the past fiscal year,      FMFIA. Moreover, managers throughout the Commission
CFTC conducted its assessment of the effectiveness of internal     are responsible for ensuring that effective controls are
control over financial reporting, which includes safeguarding      implemented in their areas of responsibility. Individual
of assets, and compliance with applicable laws and regulations,    assurance statements from division and office heads serve
in accordance with the requirements of OMB Circular A-123.         as a primary basis for the Chairman’s assurance that man-
The Commission assessment is in agreement with the detailed        agement controls are adequate. The assurance statements
exceptions provided in the independent auditors’ report as of      are based upon each office’s evaluation of progress made
September 30, 2006. Therefore, other than the exceptions           in correcting any previously reported problems, as well
noted in Exhibit I of their audit report, Commission internal      as new problems identified by the OIG, the GAO, other
controls were operating effectively, and no other material weak-   management reports, and the management environment
nesses were found in the design or operation of the internal       within each office.
control over financial reporting. In addition, the CFTC is able
                                                                   	     Commission organizations that have material weak-
to provide a qualified statement of assurance that the internal
                                                                   nesses are required to submit plans for correcting those
controls and financial management systems meet the objectives
                                                                   weaknesses. The plans, combined with the individual as-
of FMFIA.”
                                                                   surance statements, provide the framework for continually
Reuben Jeffery III                                                 monitoring and improving the Commission’s manage-
Chairman                                                           ment and internal controls. The items presented below
                                                                   are illustrative of the work performed during FY 2005 and
                                                                   2006:

                                                                                                                      CFTC         31
•	 Implemented analyses and initiatives that address chal-          accruals. It will evaluate the adequacy of the prior year
  lenges identified by the OIG in FY 2005 concerning                accrual by comparing subsequent payments received
  strategic management of human capital;                            after year-end against the accrual. It will consider mak-
                                                                    ing changes to the accrual methodology based on the
•	 Assessed gaps in compliance with the pay and benefits
                                                                    results of the analysis.
  provisions called for in Section 10702 of Public Law
  107-171, Farm Security and Rural Investment Act of              The Commission did not declare any material weaknesses
  2002;                                                           in FY 2005.

•	 Improved financial performance and expanded partici-           FMFIA Section 4, Financial Management Systems
  pation in electronic government initiatives sponsored           The Commission declared no systems nonconformance
  by the OMB;                                                     under FMFIA during FY 2005. The independent auditors’
•	 Took steps to become fully compliant with the Federal          report for FY 2005 disclosed one instance of noncompli-
  Information Security Reform Act; and                            ance that was required to be reported under Government
                                                                  Audit Standards and OMB Bulletin 06-03, Audit Standards
•	 Took action to correct reportable conditions and dis-
                                                                  for Federal Financial Statements. The auditors disclosed
  closed noncompliance with laws and regulations identi-
                                                                  noncompliance with the Federal Information Security
  fied in the FY 2005 and FY 2006 independent auditors’
                                                                  Management Act (FISMA), noting continued improve-
  report of the agency’s financial statements and related
                                                                  ments were required with entity-wide security and contin-
  internal controls.
                                                                  gency planning programs, access controls, segregation of
FMFIA Section 2, Management Control                               duties, and service continuity to fully meet guidelines of
The Commission has one declared material weakness                 the E-Government Act of 2002 and OMB Circular A-130,
under FMFIA for FY 2006 in the area of financial reporting        Management of Federal Information Resources. The Commis-
that hinders preparation of timely and accurate financial         sion took corrective actions between June 30, 2005 and
statements. The major impediments facing the Commis-              June 30, 2006 that addressed the majority of the concerns
sion and the actions its taking to resolve them fall across       leading to the audit disclosure – in particular with conti-
the following areas:                                              nuity of operations. However, the independent auditors’

•	 Establishing the custodial fines and interest receivable       report for FY 2006 continued to disclose noncompliance

  balance as well as estimating the allowance for loss on         with these two regulations. The agency will continue cor-

  each receivable. Over the next year the Commission will         rective actions in FY 2007 to address these matters.

  rely on its new accounting system, and enhancements
  to its case tracking processes and systems to correct this
  impediment.

•	 Accounting for leases and knowledge of accounting
  principles. CFTC now recognizes lease expense, for rent-
  al of its various office spaces, on a straight-line basis, as
  required under U.S. generally accepted accounting prin-
  ciples. CFTC restated its FY 2005 financial statements.

•	 Improvements are needed in recording accruals and
  preparing financial statements.CFTC did not properly
  record the accounts payable, operating leases, subse-
  quent cash disbursements, and undelivered orders.
  Over all these areas, 16 out of 95 transactions tested
  were either inappropriately included or excluded from
  accounts payable as of September 30, 2006. CFTC needs
  to validate and improve its process to properly record its




32     CFTC
Inspector General’s FY 2006 Assessment




                                    CFTC   33
34   CFTC
M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




                                            CFTC         35
36   CFTC
                                                                        M A N A G E M E N T ’ S D I S C U S S I O N A N D A N A LY S I S




Management Addresses Inspector                                       by completing its initial project to prepare a compen-
General’s FY 2005 Assessment                                         sation philosophy that will guide future pay parity
In the FY 2005 Performance and Accountability Report,                program choices and to update the agency performance
the Inspector General identified two “serious management             management system so it can support the move to a
challenges” facing the Commission: 1) Human Resource                 modern pay-for-performance system. These initiatives
Planning, and 2) Challenges in the Marketplace.                      will provide the requisite foundation of an improved
                                                                     ability to account for and reward results, which will in
The following is the Inspector General’s FY 2005 assess-
                                                                     turn support effective implementation of programs to
ment for each challenge and the Commission’s actions
                                                                     strategically manage agency human capital assets.
taken in FY 2006 to address these challenges.
                                                                   •	 Based on the successful launch of the Strategic Work-
Challenge #1, Human Resource Planning                                force Planning Survey system in 2005, OHR has worked
FY 2005 IG Assessment:                                               with managers to help them act on that objective and
“Last year, we highlighted the forthcoming human resource            provided quantitative data that details the areas and
challenge likely to be faced by the agency in FY 2006. This year     timeframes in which they stand to lose specific types
that challenge is ever more apparent. By March 2006, current         and levels of mission critical employee job competen-
estimates are that over 20 percent of CFTC staff including           cies through retirements or other attrition. By providing
28 percent of the agency’s leadership positions will be eligible     assistance in the use of the online Talent Management
for retirement. Consequently, based on these factors, this is a      Action Plan template, OHR has encouraged planning
significant challenge faced by a relatively small Federal agency     and responsive action by managers to close the poten-
which will necessitate careful planning by management. The           tial talent gaps in their units, since the tool facilitates
OIG is heartened by the agency’s decision to establish a Human       creation of targeted, prioritized human capital plans
Capital Team to catalogue current skills of existing employees       down to the level of individual work units. At the same
and propose possible pathways for meeting this potential deficit     time, OHR and the Office of Information and Technol-
that is likely to occur in the next six months. We look forward      ogy Services (OITS) have met regularly during the year
to the agency successfully accommodating the approaching             to enhance the reporting capability of the Strategic
wave of employee retirements without materially disrupting the       Workforce Planning Survey system, so that managers
performance of the agency.”                                          will continue to receive data on competencies at risk of
                                                                     loss. Finally, OHR and OITS supported the first annual
FY 2006 Actions Taken or Actions in Progress:
                                                                     update by employees of their online self-assessment
•	 To assure high-level attention to human capital plan-             surveys, so that the inventory of employee job compe-
  ning issues on an ongoing basis, agency leadership                 tencies available to meet the agency mission remains up
  directed the formation of the Pay Parity Governance                to date.
  Committee (PPGC), in March 2006. The PPGC is a
                                                                   •	 In addition to aiding individual offices and divisions
  permanent body with rotating membership from all of-
                                                                     and their subunits to create specific action plans, OHR
  fices, divisions, and regions and is charged with identi-
                                                                     has acted to address human resource challenges that ap-
  fying, studying, and recommending solutions to agency
                                                                     ply across the agency. Armed with data on trends such
  human resources challenges, particularly those that may
                                                                     as the potential of 40 percent of CFTC supervisory and
  be positively affected by pay parity. It focuses on effec-
                                                                     managerial personnel to retire by 2009, OHR has rolled
  tive use of the agency’s authority to seek total compen-
                                                                     out a customized suite of online managerial courses
  sation parity with the other Federal financial regulators,
                                                                     from Harvard Business School Publishing and prepared,
  as provided by the 2002 amendments to the CEA, in
                                                                     during FY 2006, to provide all employees with the Skill-
  support of attracting, retaining, and developing agency
                                                                     soft online training facility. By funding these initiatives,
  talent. The Office of Human Resources (OHR) provides
                                                                     agency management has acted to train employees in the
  two technical representatives to support committee
                                                                     managerial skills required to close the gap in this crucial
  research and communications. By meeting weekly since
                                                                     agency competency that would otherwise develop due
  March of 2006, the PPGC has made significant progress
                                                                     to inevitable retirements.



                                                                                                                    CFTC           37
•	 OHR staff have continued to represent the agency on             •	 Commission staff reviewed for compliance with the
  the Financial Regulatory Agency Group, comprised of                CEA and the Commission’s regulations, exchange
  Human Resources staff from the financial regulatory                notifications to the Commission, including merger
  agencies that, like the CFTC, must seek comparability              agreements and purchase and sale agreements, under
  with one another under their legislative authority to of-          Commission Regulation 38.5(d) when equity in an
  fer pay and benefits outside of the normal limitations of          exchange is acquired by a new owner, including review
  Title 5 of the U.S. Code that apply to General Schedule            of the acquisitions of equity in HedgeStreet, NYMEX
  and Senior Executive Service positions. These contacts             and OneChicago. Such review includes evaluation, for
  assure that OHR maintains current awareness of pay                 compliance with the CEA and the Commission’s regula-
  parity issues, knowledge that is vital to supporting use           tions, of both new exchange governance documents and
  of the CFTC pay parity authority as a mainstay of strate-          changes to those documents, including bylaws, articles
  gic planning to compete for mission-critical skills over           of incorporation, and limited liability agreements or
  time.                                                              operating agreements.

•	 OHR staff continue to implement administrative im-              •	 As part of its rule enforcement reviews, Commission
  provements that will speed the recruitment of replace-             staff considered the impact of such changes on the
  ments for retiring employees, when directed. These                 ability of the exchanges to continue to carry out their
  include online systems that speed security and suitabil-           self-regulatory responsibilities.
  ity checks on candidates for employment and support              •	 As a result of financial difficulties experienced by Refco,
  more efficient administrative processes. Examples                  Inc the parent of Refco LLC, a Commission-registered
  include the project now underway to convert to the                 FCM, the Commission mobilized its staff to ensure
  government-wide system of electronic Official Person-              that all customer segregated funds at Refco LLC, were
  nel Folders under the Office of Personnel Management’s             protected until such time as they were transferred in an
  Enterprise Human Resources Integration program.                    orderly manner to other FCMs – including the eventual
                                                                     sale of the remaining customer accounts and certain
Challenge #2, Challenges in the Marketplace
                                                                     other assets of Refco LLC, to Man Financial, Inc. (Man)
FY 2005 IG Assessment:
                                                                     on November 25, 2005. CFTC staff took the following
“The Commodity Futures Modernization Act of 2000 (CFMA)
                                                                     steps to ensure that customers were fully protected: 1)
transformed the agency from a prescriptive regulator into an
                                                                     examining the FCM’s books and records; 2) undertak-
oversight regulatory agency. The agency’s regulatory mission
                                                                     ing daily calls with Refco staff on issues ranging from
over the futures industry is guided by core principles stated in
                                                                     transfers of accounts, to satisfaction of clearing obliga-
the CFMA. Recent innovations in the industry such as the ini-
                                                                     tions, to requests to withdraw capital from the FCM;
tial public offerings of major Chicago based futures exchanges
                                                                     and 3) coordinating with Commission-registered DCOs
and futures commission merchants (FCM) have broadened the
                                                                     to ensure that transactions were processed in a timely
impact of any malfeasance within the futures industry. How the
                                                                     manner. The Commission also took an active role in
agency handles unanticipated events such as market disruptions
                                                                     the eventual sale of certain Refco LLC, assets during the
and FCM bankruptcies will be closely watched by a worldwide
                                                                     bankruptcy proceeding, including consultations with
audience. To date, management has handled major turbulences
                                                                     the exchanges, Refco, and potential bidders concerning
that have occurred during the fiscal year.”
                                                                     the means by which the assets could lawfully be sold.
FY 2006 Actions Taken or Actions in Progress:

•	 Commission staff reviewed for compliance with the
  CEA and the Commission’s regulations, filings of
  exchanges submitted to the SEC prior to demutualiza-
  tion and initial public offering, including the review of
  the CBOT initial public offering and ongoing review of
  preparations for the NYMEX initial public offering. Staff
  also have been in contact with SEC staff when requests
  arise.

38         CFTC
CFTC   39
     PERFORMANCE SECTION




Introduction to the Performance Section................. 41

Strategic Goal One: Economic Utility....................42

Strategic Goal Two: Market Users and Public.........54

Strategic Goal Three: Industry............................... 71
 Introduction to the Performance Section




Detail of Commission efforts to meet its strategies and performance goals are provided in this section. The Commission
scrutinizes performance measures to ensure that the metrics adequately challenge the programs to reach the desired
results, ensure accountability, and provide information that can be used to make financial decisions and develop future
budgets.




                                                                                                          CFTC       41
                                 Strategic Goal One




Ensure the economic vitality of the commodity futures and option markets.
Impact
Properly functioning futures markets collect information from around the world, digest it, and respond with judgments
about the likely price of commodities at some future time. Such judgments could, in turn, trigger decisions to: 1) sell
a commodity at a certain price; 2) raise capital through an equity rather than a debt offering; 3) increase inventories of
various commodities, e.g., copper, soybeans, etc.; 4) use corn syrup rather than sugar as a sweetener; or 5) hold receiv-
ables in Japanese Yen rather than British Pounds. Thus, futures markets help market users to plan and to make decisions,
so that they avoid uncontrolled risk.




42       CFTC
                                                                                  PERFORMANCE SECTION




Performance Results for Performance Goal One


    Performance Measure 1.1.1 Percentage growth in market volume.


                                                History of Results:        FY 2003 Actual          FY 2004 Actual       FY 2005 Actual

                                                                                20%                    24%                     26%


                         FY 2006 Performance Results

                   100


                    80                                                	         Results:	    26%
      PERCENTAGE




                                                                      	   Measurement:	      Percentage
                    60

                                                                      	    Data Source:	     Exchanges’ Trading Volume data.
                    40
                                                                      	     Verification:	   Exchange data is compared to FIA report.
                    20


                     0

                           Plan              Actual



Lead Program Office
Division of Market Oversight (DMO)

Performance Analysis and Review
Growth in the futures markets continued in FY 2006 with
increased demand realized for products traded on the ex-
changes. The actual FY 2006 number is driven by changes
in economic fundamentals, success of newly launched
products, the number of new participants using these
markets, and other changes in the marketplace.

Data Source and Validation
Exchanges are required to submit trading volume data to
the Commission on a daily basis. This data is then stored
in a Commission database for use in market surveillance
analyses.

	    Exchange volume data is submitted to the Commis-
sion electronically for each business day, subjected to
a series of edit and quality checks, and maintained in a
central database. The data is also compared to monthly
data published by the Futures Industry Association (FIA).




                                                                                                                           CFTC          43
    Performance Measure 1.1.2 Percentage of novel or innovative proposals or requests for CFTC action
    addressed within six months to accommodate new approaches to, or the expansion in, derivatives trading, enhance the
    price discovery process, or increase available risk management tools.
                                                 History of Results:        FY 2003 Actual           FY 2004 Actual        FY 2005 Actual

                                                                                100%                     100%                  100%


                          FY 2006 Performance Results

                   100

                                                                       	         Results:	    100%
                    80
                                                                       	   Measurement:	      Percentage
      PERCENTAGE




                    60
                                                                       	    Data Source:	     Formal filings and signed letter responses by
                                                                                              the Commission.
                    40
                                                                       	     Verification:	   Formal filing and disposition dates
                                                                                              maintained in internal tracking system.
                    20


                     0

                            Plan              Actual



Lead Program Office
Division of Market Oversight

Performance Analysis and Review
DMO handled a number of proposals or requests for
Commission action during the fiscal year that included
newer approaches to derivatives trading or enhancements
to the price-discovery process. The items, which included
innovative products and exchange processes, were all ad-
dressed within six months of formal receipt.

Data Source and Validation
Supporting documentation is in the form of formal filings
with the Commission and signed letter responses by DMO
or the Commission (upon DMO recommendation).

	     DMO is able to calculate review time by consulting
an internal tracking system which reflects all formal fil-
ings that are made with the Division, including filing and
disposition dates.




44                 CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 1.1.3 Percentage increase in number of products traded.


                                                History of Results:        FY 2003 Actual          FY 2004 Actual         FY 2005 Actual

                                                                                25%                     12%                    36%


                         FY 2006 Performance Results

                   100
                                                                      	         Results:	    25%
                    80
                                                                      	   Measurement:	      Percentage
      PERCENTAGE




                    60                                                	    Data Source:	     Exchanges submit data on trading volume,
                                                                                             open interest, delivery notices, exchange of
                                                                                             futures and prices for all products traded.
                    40

                                                                      	     Verification:	   Data is validated by internal program edits
                    20                                                                       and quality checks in central database.

                     0

                           Plan              Actual



Lead Program Office
Division of Market Oversight

Performance Analysis and Review
The growth in the number of new products offered on
the exchanges continued in FY 2006. The actual FY 2006
number is driven by customer demand for new products,
exchange innovation, opportunities made available by the
increasing use of electronic trading, and other changes in
the marketplace. As such, these factors may not be foresee-
able with high precision.

Data Source and Validation
Exchanges are required to submit trading volume, open
interest, delivery notices, exchange of futures, and prices to
the Commission each business day for all products traded.
This data is then stored in a Commission database for use
in market surveillance analyses.

	    The exchange data is submitted to the Commission
electronically for each business day, subjected to a series
of edit and quality checks, and maintained in a central
database.




                                                                                                                             CFTC           45
    Performance Measure 1.1.4 Percentage of new exchange or clearinghouse organization applications
    completed within expedited review period.

                                                 History of Results:        FY 2003 Actual           FY 2004 Actual       FY 2005 Actual

                                                                                100%                     100%                 100%


                          FY 2006 Performance Results

                   100
                                                                       	         Results:	    100%
                    80
                                                                       	   Measurement:	      Percentage
      PERCENTAGE




                    60                                                 	    Data Source:	     New Exchange(s) and DCO application(s).

                                                                       	     Verification:	   FILAC automated database tracks and
                    40
                                                                                              calculates processing time from receipt
                                                                                              date through to date of designation or
                    20                                                                        registration.

                     0

                            Plan              Actual



Lead Program Office
Division of Clearing and Intermediary Oversight
Division of Market Oversight

Performance Analysis and Review
One exchange designation application was filed in FY
2006. The review of that contract market currently is
stayed.

Data Source and Validation
Supporting documentation consists of the application for
designation as a contract market, including all attach-
ments and supporting materials submitted by the ap-
plicant, related materials produced by DCIO and DMO
staff in reviewing the application, a memorandum to the
Commission, and the proposed order.

	    DCIO and DMO staff maintain files containing sup-
porting documentation related to the review of an applica-
tion. The DCIO methodology for determining the statistic
would be to tabulate the number of applications received
and reviewed, determine the number that are completed
within the fast track review period, and calculate the per-
formance statistic. DMO staff use a database, Filings and
Actions (FILAC), that includes the date of receipt of the
request for designation as a contract market, stays in the
review process, and the date of designation. The database
automatically calculates processing time.




46                 CFTC
                                                                                 PERFORMANCE SECTION




  Performance Measure 1.1.5 Percentage of new contract certification reviews completed within three months
  to identify and correct deficiencies in contract terms that make contracts susceptible to manipulation.

                                               History of Results:        FY 2003 Actual          FY 2004 Actual           FY 2005 Actual

                                                                               21%                     53%                      54%


                        FY 2006 Performance Results

                  100
                                                                     	         Results:	    81%
                   80
                                                                     	   Measurement:	      Percentage
     PERCENTAGE




                   60                                                	    Data Source:	     Exchange certification filings, certified rule
                                                                                            amendments, and agency memoranda.
                   40
                                                                     	     Verification:	   FILAC automated database tracks and
                                                                                            calculates processing time from receipt date
                   20                                                                       through to date of designation.

                    0

                          Plan              Actual



Lead Program Office
Division of Market Oversight

Performance Analysis and Review
In FY 2006, an unusually large proportion of new contract
certifications was for security futures products (SFPs).
SFPs typically are easier to review and analyze than other
contracts, and thus the percentage of completed reviews
for contract certifications filed in FY 2006 was higher than
anticipated.

Data Source and Validation
DMO staff maintain files containing exchange certifica-
tion filings, including new contract certification filings and
certified rule amendments to correct deficiencies in new
contract certification filings, and DMO memoranda. DMO
memoranda provide descriptions, analyses, and conclu-
sions regarding compliance with the CEA and Commis-
sion regulations and policies. The FILAC database includes
the receipt date of the new product certification and the
date of DMO’s memorandum. The database automatically
calculates processing time.




                                                                                                                              CFTC           47
  Performance Measure 1.1.6 Percentage of rule change certification reviews completed within three months, to
  identify and correct deficiencies in exchange rules that make contracts susceptible to manipulation or trading abuses or
  result in violations of law.										
                                                History of Results:        FY 2003 Actual          FY 2004 Actual          FY 2005 Actual

                                                                                70%                     70%                     84%


                         FY 2006 Performance Results

                  100
                                                                      	         Results:	    86%

                   80                                                 	   Measurement:	      Percentage
     PERCENTAGE




                                                                      	    Data Source:	     Exchange certification filings and agency
                   60
                                                                                             memoranda.

                   40                                                 	     Verification:	   FILAC automated database tracks and
                                                                                             calculates processing time from receipt date
                                                                                             of certification filing through to date of DMO
                   20
                                                                                             memorandum.

                    0

                           Plan              Actual



Lead Program Office
Division of Market Oversight

Performance Analysis and Review
The new FILAC database has improved tracking the
processing of rule amendment certification filings. That
database was delivered to DMO in May 2006. Thus, the
percentage calculations of filings reviewed and analyzed
within the last three months is more accurate than past
entries. The percentage of rule amendments to contract
terms and conditions was higher in FY 2006 than in past
years.

Data Source and Validation
DMO staff maintain files containing exchange certification
filings and DMO memoranda. Those DMO memoranda
provide descriptions, analyses, and conclusions regarding
compliance with the CEA and Commission regulations.
The FILAC database includes the receipt date of the certi-
fication filing and the date of DMO’s memorandum. The
database automatically calculates processing time.




48                CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 1.2.1 Percentage of derivative clearing organization applications demonstrating
    compliance with core principles.										

                                                History of Results:        FY 2003 Actual         FY 2004 Actual        FY 2005 Actual

                                                                               100%                    100%                  100%


                          FY 2006 Performance Results

                    100
                                                                      	         Results:	    Not Applicable
                     80
                                                                      	   Measurement:	      Percentage
       PERCENTAGE




                     60                                               	    Data Source:	     New exchange(s) and DCO application(s)
                                                                                             for registration.
                     40
                                                                      	     Verification:	   Agency files containing applications, staff
                                                                                             reviews, memoranda to the Commission and
                     20                                                                      proposed orders.

                      0

                            Plan              Actual



Lead Program Office
Division of Clearing and Intermediary Oversight

Performance Analysis and Review
No applications for registration as a DCO were received in
FY 2006.

Data Source and Validation
Supporting documentation would consist of an applica-
tion for registration as a DCO including all attachments
and supporting materials submitted by the applicant, and
related materials produced by DCIO staff in reviewing the
application including a memorandum to the Commission
and a proposed order.

	    DCIO staff maintain files containing supporting
documentation related to the review of an application.
The DCIO methodology for determining the statistic
would be to tabulate the number of applications received
and reviewed to determine that the applications demon-
strated compliance with CEA core principles, and calculate
the performance statistic.




                                                                                                                           CFTC          49
    Performance Measure 1.2.2 Ratio of contracts surveilled per economist.


                                            History of Results:        FY 2003 Actual            FY 2004 Actual       FY 2005 Actual

                                                                             8                        10                    11


                     FY 2006 Performance Results

              100
                                                                  	         Results:	    12
               80
                                                                  	   Measurement:	      Ratio

               60                                                 	    Data Source:	     Exchanges submit data to the Commission
                                                                                         on all traded contracts, which are maintained
      RATIO




                                                                                         in the Commission’s database.
               40

                                                                  	     Verification:	   Data is validated by internal program edits
               20                                                                        and quality checks in central database.

                0

                       Plan              Actual



Lead Program Office
Division of Market Oversight

Performance Analysis and Review
The actual number of contracts surveilled per economist
met expectations. Even though the number of contracts
increased during the year, these were mostly extensions of
existing commodities and therefore not counted as dis-
creet contracts. Similar contracts on the same underlying
commodity are normally analyzed together and do not
add materially to the burden on the economist.

Data Source and Validation
Exchanges submit data to the Commission on all traded
contracts. The individual contracts are grouped by un-
derlying commodity in a central database. This group-
ing is used in the adjustment of the number of contracts
surveilled by economist.

	    Exchanges submit data on all products traded to the
Commission electronically for each business day. The
data is subject to a series of edit and quality checks and
is maintained in a central database. The total number of
contracts is extracted from this data. This number is then
modified by subtracting out individual contracts that are
very similar to, and have the same underlying commodity
as, another contract. The final number is then divided by
the number of regional office economists.




50            CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 1.2.3 Percentage of contract expirations without manipulation.


                                                History of Results:        FY 2003 Actual          FY 2004 Actual         FY 2005 Actual

                                                                               99.9%                   99.9%                  99.9%


                         FY 2006 Performance Results

                   100

                                                                      	         Results:	    99.9%
                    80
                                                                      	   Measurement:	      Percentage
      PERCENTAGE




                    60
                                                                      	    Data Source:	     Surveillance reports and large trader
                                                                                             position reports.
                    40
                                                                      	     Verification:	   Economists daily track and monitor futures
                                                                                             expirations and economic fundamentals.
                    20


                     0

                           Plan              Actual



Lead Program Office
Division of Market Oversight

Performance Analysis and Review
This measurement examines the number of contract expi-
rations without manipulation compared to the total num-
ber of futures and option expirations. The total number
of expirations may vary throughout the year as different
contracts enter and exit the market.

Data Source and Validation
The number of referrals to and from the Division of En-
forcement in conjunction with information and evidence
gathered internally by surveillance economists is used to
find the number of expirations without manipulations.
The total number of futures and option expirations is
retrievable from the database.

	    Economists track and monitor futures expirations
and economic fundamentals on a daily basis. The large
trader reporting system is also used to generate detailed
surveillance reports of large trader positions going into
expiration. Information on reportable traders’ positions is
stored and kept in the system, and can be analyzed further
through its internally developed integrated surveillance
system.




                                                                                                                            CFTC           51
Program Contributions to Strategic Goal One

  Economic and Statistical Analyses                            Treasury futures contract because of concern about large
  Commission staff performed economic and empirical            long positions relative to the supply of the cheapest-to-de-
  analyses to evaluate the performance of futures markets      liver note on this contract.
  and to evaluate the impact of changes in trading rules and   	    Commission staff reviewed one formal and several
  contract specifications on the performance of the futures    draft applications of entities seeking to become designated
  markets. For example, staff empirically examined the ef-     contract markets. Staff also reviewed four formal filings by
  fects of participation by managed money traders in certain   entities that notified the Commission of their intention
  U.S. futures markets. Staff economists also conducted a      to operate as exempt markets under the CEA, as well as
  study of the role of commodity index investing on the        several draft filings.
  price discovery and hedging performance of commod-
                                                               	    In FY 2006, under the Commission’s certification
  ity futures markets. Economists in the Office of the Chief
                                                               procedures for listing new products, 182 new contracts
  Economist also provided economic and statistical consult-
                                                               were filed, including five SFPs, by eight different DCMs.
  ing services to Commission staff and offered economic
                                                               Commission staff completed reviews of the terms and
  and financial research seminars and short courses in
                                                               conditions of 248 contracts submitted under certification
  futures, option, and financial economics.
                                                               procedures to ensure that statutory and regulatory anti-
  	    Staff also provided economic and statistical analysis   manipulation requirements were met and to provide es-
  on a number of cases involving foreign currencies and        sential background information in order to conduct mar-
  energy products, and conducted an examination of the ap-     ket surveillance. Staff also reviewed 14 rule amendment
  propriate role for Federal oversight of event-type markets   approval requests for existing futures and option contracts.
  and of several recently developed derivatives products. In   Under the Commission’s certification procedures, 124
  addition, Commission staff presented research findings       substantive product rule changes were filed. Staff com-
  relating to price discovery, hedging, and market micro-      pleted the reviews of 72 certified rule amendments.
  structure and development issues at industry or academic
                                                               	    The Commission’s review of exchange rules is a key
  and industry conferences, as well as through publications
                                                               aspect of the statutory framework for self-regulation under
  available to the public.
                                                               Commission oversight. The staff reviewed exchange rule
  Market Surveillance                                          submissions with a view toward maintaining the fair-
  In FY 2006, the Commission conducted daily surveillance      ness and financial integrity of the markets, protecting
  of 1,135 active futures and option contracts. Particularly   customers, accommodating and fostering innovation,
  close monitoring was conducted on the energy futures         and increasing efficiency in self-regulation consistent with
  markets, which experienced periods of high prices and        the Commission’s statutory mandates. During FY 2006,
  high price volatility due to, among other things, low        staff reviewed 178 exchange rule submissions containing
  stocks, tight production capacity, geopolitical tension in   1,237 separate new rules and rule amendments. Commis-
  the Middle East, strong world economic demand and            sion staff are also responsible for providing exemptive,
  natural disasters. Close surveillance was also conducted     interpretive, or other relief to various markets and market
  on the copper market, which had record high prices due       participants to facilitate the continued development of an
  to strong demand, production disruptions and low world       effective, flexible regulatory environment responsive to
  copper stocks. In addition, Commission staff closely         evolving market conditions.
  monitored the expiration of the September 2005 10-Year



  52     CFTC
                                                                PERFORMANCE SECTION




Integrated Surveillance System
In FY 2005, the Commission’s primary mission-critical
application to support futures and option data market
surveillance, the Integrated Surveillance System (ISS), was
significantly enhanced to address changes and growth in
the futures industry. In FY 2006, those changes included
the automation of the collection and review of data from
ECMs. In addition, a number of noteworthy enhance-
ments were established in the ISS that will improve the
efficiency of market monitoring and analysis. These
modifications include integrated document storage capa-
bilities in support of large trader reporting, consolidated
market queries that allow related markets to be grouped
together for better market analysis, full search capabilities
throughout the application, and comprehensive graphing
capability.




                                                                                      CFTC   53
                                  Strategic Goal Two




Protect market users and the public.
Impact
Market users must be protected from possible wrongdoing on the part of firms and commodity professionals with whom
they deal to access the marketplace, and they must be confident that the marketplace is free of fraud, manipulation, and
abusive practices. The Commission plays a crucial role in deterring behavior that could affect market users’ confidence by
investigating and taking action against these unscrupulous commodity professionals who engage in a variety of fraudu-
lent sales practices against the public.




54       CFTC
                                                                              PERFORMANCE SECTION




Performance Results for Performance Goal Two


    Performance Measure 2.1.1 Number of enforcement investigations opened during the fiscal year.


                                            History of Results:        FY 2003 Actual          FY 2004 Actual        FY 2005 Actual

                                                                            172                     215                   131


                     FY 2006 Performance Results

               130
               120
                                                                  	         Results:	    123
               110
               100
                90
                                                                  	   Measurement:	      Number
                80
                                                                  	    Data Source:	     Agency documentation and reports
      NUMBER




                70
                60                                                                       maintained in the MSR (Monthly Status
                50                                                                       Report) case tracking system.
                40
                30                                                	     Verification:	   Internal reports on investigations and
                20                                                                       litigations documented and maintained in
                10                                                                       internal Enforcment systems.
                 0

                       Plan              Actual



Lead Program Office
Division of Enforcement

Performance Analysis and Review
Performance targets were met. Commencing in 2002,
Commission case filings, as well as the complexity of cases
filed, have increased substantially over prior fiscal years.
By 2006, Enforcement’s litigation docket had increased
approximately 30 percent from FY 2002. Concurrently,
the complexity of the matters investigated, for example,
investigation of alleged energy market manipulation, also
has increased substantially since FY 2002.

Data Source and Validation
Internal Enforcement reports identify each of the litiga-
tions and investigations opened during the fiscal year.

	    Staff prepare opening reports for each Enforcement
investigation and litigation. These opening reports are
recorded in internal Enforcement systems (currently,
Monthly Status Report (MSR); future, Practice Manager).




                                                                                                                        CFTC          55
    Performance Measure 2.1.2 Number of enforcement cases filed during the fiscal year.


                                               History of Results:        FY 2003 Actual          FY 2004 Actual          FY 2005 Actual

                                                                                65                      83                      69


                        FY 2006 Performance Results

                 60


                 50                                                  	         Results:	    38

                 40                                                  	   Measurement:	      Number
        NUMBER




                 30
                                                                     	    Data Source:	     Agency documentation and reports
                                                                                            maintained in the MSR (Monthly Status
                 20
                                                                                            Report) case tracking system.

                 10
                                                                     	     Verification:	   Final orders for each litigation are recorded
                                                                                            in internal Enforcement system.
                  0

                          Plan              Actual



Lead Program Office
Division of Enforcement

Performance Analysis and Review
Performance targets were not met in terms of the number
of cases filed. Commencing in FY 2002, Commission
case filings as well as the complexity of cases filed have
increased substantially over prior fiscal years. By FY 2006,
Enforcement’s litigation docket had increased approxi-
mately 30 percent from FY 2002. Concurrently, the com-
plexity of the matters investigated, for example, investiga-
tion of alleged market manipulation, also has increased
since FY 2002. Moreover, due to a hiring freeze over the
fiscal year, Enforcement was forced to operate with fewer
staff members. As a result of the overall increased case
filings over past years and refocus on the types of cases in-
vestigated there has been a dramatic increase in the relief
obtained against defendants—restitution and penalties
imposed in FY 2006 exceeded any other year in Commis-
sion history.

Data Source and Validation
Enforcement results identify each litigation and litigation
result obtained by the Division on behalf of the Commis-
sion.

	    Staff are required to submit all final orders for each
litigation as part of closing activities for their files. These
orders are recorded in internal Enforcement systems (cur-
rently, MSR; future, Practice Manager).



56               CFTC
                                                                                    PERFORMANCE SECTION




    Performance Measure 2.1.3 Percentage of enforcement cases closed during the fiscal year in which the
    Commission obtained sanctions (e.g. civil monetary penalties, restitution and disgorgement, cease and desist orders,
    permanent injunctions, trading bans, and registration restrictions).
                                                  History of Results:        FY 2003 Actual           FY 2004 Actual         FY 2005 Actual

                                                                                  99%                     99%                    100%


                           FY 2006 Performance Results

                     100


                                                                        	         Results:	    100%
                      80

                                                                        	   Measurement:	      Percentage
        PERCENTAGE




                      60
                                                                        	    Data Source:	     Agency documentation and reports
                                                                                               maintained in the MSR (Monthly Status
                      40
                                                                                               Report) case tracking system.

                      20                                                	     Verification:	   Final orders for each litigation are recorded
                                                                                               in internal Enforcement system.
                       0

                             Plan              Actual



Lead Program Office
Division of Enforcement

Performance Analysis and Review
Performance targets were met.

Data Source and Validation
Enforcement results identify each litigation and litigation
result obtained by the Division on behalf of the Commis-
sion.

	     Staff are required to submit all final orders for each
litigation as part of closing activities for their files. These
orders are recorded in internal Enforcement systems (cur-
rently, MSR; future, Practice Manager).




                                                                                                                               CFTC            57
    Performance Measure 2.1.4 Cases filed by other criminal and civil law enforcement authorities during the
    fiscal year that included cooperative assistance from the Commission.

                                             History of Results:        FY 2003 Actual          FY 2004 Actual          FY 2005 Actual

                                                                              20                      23                      23


                      FY 2006 Performance Results

               25

                                                                   	         Results:	    23
               20
                                                                   	   Measurement:	      Number
               15
                                                                   	    Data Source:	     Copies of final orders submitted to the
      NUMBER




                                                                                          Commission by cooperating authorities.
               10                                                                         Orders maintained in the MSR (Monthly
                                                                                          Status Report) case tracking system.
                5
                                                                   	     Verification:	   Final orders for each litigation recorded in
                                                                                          internal Enforcement system.
                0

                        Plan              Actual



Lead Program Office
Division of Enforcement

Performance Analysis and Review
Performance targets were met

Data Source and Validation
Copies of all orders are collected by the Division’s Office
of Cooperative Enforcement.

	     Staff and cooperating authorities submit final orders
to the Office of Cooperative Enforcement, which main-
tains a database of all cooperative enforcement matters.
In addition, pending cooperative enforcement matters are
tracked through internal enforcement systems (currently,
MSR; future, Practice Manager).




58             CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 2.2.1 Percentage of self-regulatory organizations that comply with core principles.


                                                History of Results:        FY 2003 Actual           FY 2004 Actual        FY 2005 Actual

                                                                               100%                     100%                  100%


                         FY 2006 Performance Results

                   100


                    80                                                	         Results:	    100%
      PERCENTAGE




                                                                      	   Measurement:	      Percentage
                    60

                                                                      	    Data Source:	     Agency reports and files from reviews and
                    40                                                                       analyses.

                                                                      	     Verification:	   Interviews, walk-through demonstrations,
                    20
                                                                                             empirical testing and site visits of SROs.

                     0

                           Plan              Actual



Lead Program Office                                                        the fieldwork is to confirm DCIO’s understanding of the
Division of Clearing and Intermediary Oversight                            SRO’s program and to provide reasonable assurance that it
Division of Market Oversight                                               operates in the manner represented.

Performance Analysis and Review                                            	     The testing of execution of procedures is performed
DCIO staff conduct risk-focused reviews of the financial                   by sample testing and documentation review. DCIO
and sales practice oversight programs of SROs. During FY                   staff use standard statistical techniques to size and select
2006, DCIO completed a review of NFA’s program for the                     samples in the areas of disclosure documents, financial
oversight of CPOs and CTAs and initiated a review of the                   reports, exemption and extension notices, compliance
financial and sales practice program of the CBOT. DCIO                     examinations, and sales practices. However, samples are
presented a report to the Commission stating that NFA                      selected and tested to facilitate an understanding of the
was complying with the CEA and its delegated responsi-                     operation of a process or procedure in practice rather than
bilities. The review of the CBOT is still in progress at this              to provide statistical assurances.
time, but no material deviations from CEA core principles                  	     For further verification of compliance oversight
have been observed.                                                        procedures, DCIO staff also visit firms whose operations
Data Source and Validation                                                 were reviewed by the SRO during the SRO’s examination.
Supporting documentation of DCIO’s assessment of SROs’                     Such reviews include performing the same testing steps
compliance with CEA core principles is contained in re-                    that the SRO conducted in its examinations of the firms.
ports and the workpapers prepared by staff while carrying                  The results of such DCIO testing are then compared to the
out the review and analyzing relevant SRO materials. Such                  workpapers of the SRO’s examination of the selected firm.
documentation is maintained in DCIO’s files.                               	     The methodology for collecting this statistic is based
	     DCIO delivers a letter to the SRO requesting docu-                   on ongoing oversight and planned reviews related to the
ments that reflect the systems, policies, procedures, prac-                aforementioned areas for which the results could poten-
tices, and internal controls implemented by the SRO. After                 tially indicate an SRO’s noncompliance with CEA core
reviewing these materials, DCIO staff interview selected                   principles.
management staff, followed by fieldwork at the SRO and a
review of documents. The fieldwork at the SRO primarily
consists of a walk-through demonstration. The purpose of



                                                                                                                             CFTC          59
    Performance Measure 2.2.2 Percentage of derivative clearing organizations that comply with core principles.


                                                 History of Results:        FY 2003 Actual            FY 2004 Actual         FY 2005 Actual

                                                                                100%                      100%                    100%


                          FY 2006 Performance Results

                   100


                                                                       	         Results:	     100%
                    80

                                                                       	   Measurement:	       Percentage
      PERCENTAGE




                    60
                                                                       	    Data Source:	      Documentation from DCOs under review;
                                                                                               agency reports; and financial surveillance
                    40
                                                                                               materials.

                    20                                                 	     Verification:	    Statistical data is obtained through financial
                                                                                               surveillance and planned reviews.
                     0

                            Plan              Actual



Lead Program Office                                                         Data Source and Validation
Division of Clearing and Intermediary Oversight                             Each of the DCOs under review has submitted exten-
                                                                            sive documentation. DCIO staff have created extensive
Performance Analysis and Review
                                                                            workpapers in conducting the reviews of DCOs. When the
As of the end of FY 2006, reviews of compliance with CEA
                                                                            reviews are complete, DCIO staff provide reports to the
core principles were ongoing at six DCOs: CME, NYMEX,
                                                                            Commission. Files are maintained containing many of
NYCC, KCBT, CCORP, and MGE. Reviews of the first five
                                                                            these materials.
DCOs will be completed in the first quarter of FY 2007. A
review of the sixth DCO will be completed in the second                     	     Financial surveillance materials are also maintained
quarter of FY 2007. While analysis is currently underway,                   in files. Some of them are maintained on a DCIO shared
no affirmative conclusion of noncompliance can be made                      drive called Financial Surveillance Home. In addition,
at this time.                                                               written reports are periodically prepared and kept on file.

	     On a daily basis, DCIO staff conduct financial surveil-               	     A paper file is created for each DCO rule submission.
lance of DCOs and clearing members. Staff have identified                   Typically, a staff memorandum is included in the file.
no instances of noncompliance.                                              	     The methodology for collecting this statistic is based
	     During the past fiscal year, 57 rule submissions were                 on ongoing oversight and planned reviews related to the
filed by DCOs under the self-certification provisions of the                aforementioned areas for which the results potentially
CEA. Staff reviewed each of the submissions and found                       could indicate a DCO’s noncompliance with core prin-
none that violated CEA core principles.                                     ciples.




60                 CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 2.2.3 Percentage of professionals compliant with standards regarding testing,
    licensing, and ethics training.

                                                History of Results:        FY 2003 Actual           FY 2004 Actual        FY 2005 Actual

                                                                               100%                     100%                  100%


                         FY 2006 Performance Results

                   100


                    80                                                	         Results:	    100%
      PERCENTAGE




                                                                      	   Measurement:	      Percentage
                    60

                                                                      	    Data Source:	     National Futures Association audit reports.
                    40
                                                                      	     Verification:	   NFA audits and the agency’s ongoing
                                                                                             oversight of NFA’s compliance and
                    20
                                                                                             registration programs.

                     0

                           Plan              Actual



Lead Program Office
Division of Clearing and Intermediary Oversight

Performance Analysis and Review
There is no variance; as planned, 100 percent of profes-
sionals were compliant with standards regarding testing,
licensing, and ethics training.

Data Source and Validation
DCIO relies on information provided by NFA. In FY 2006,
NFA reported that, in 10 percent of the audits it com-
pleted, NFA cited the firms in its audit report for failing to
have adequate ethics training procedures or failing to fol-
low their procedures. In FY 2005, NFA reported that, in 12
percent of the audits it completed, NFA cited the firms in
its audit report for failing to have adequate ethics training
procedures or failing to follow their procedures. However,
through subsequent follow-up activity for both FY 2005
and FY 2006, NFA confirmed that, in each case, the cited
firm came into compliance.

	    The methodology for collecting this statistic is based
on information provided by NFA and DCIO’s ongoing
oversight and examinations it periodically conducts with
respect to NFA’s registration and compliance programs.




                                                                                                                            CFTC           61
  Performance Measure 2.2.4 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.

                                                History of Results:        FY 2003 Actual           FY 2004 Actual        FY 2005 Actual

                                                                               100%                     100%                  100%


                         FY 2006 Performance Results

                  100


                   80                                                 	         Results:	    100%
     PERCENTAGE




                                                                      	   Measurement:	      Percentage
                   60

                                                                      	    Data Source:	     Agency reports and files from reviews and
                   40                                                                        analyses.

                                                                      	     Verification:	   Interviews, walk-through demonstrations,
                   20
                                                                                             empirical testing and site visits of DCOs.

                    0

                           Plan              Actual



Lead Program Office                                                        consists of a walk-through demonstration. The purpose of
Division of Clearing and Intermediary Oversight                            the fieldwork is to confirm DCIO’s understanding of the
Division of Market Oversight                                               SRO’s program and to provide reasonable assurance that it
                                                                           operates in the manner represented.
Performance Analysis and Review
DCIO staff conduct risk-focused reviews of the financial                   	     The testing of execution of procedures is performed
and sales practice oversight programs of SROs. During FY                   by sample testing and documentation review. DCIO
2006, DCIO completed a review of NFA’s program for the                     staff use standard statistical techniques to size and select
oversight of CPOs and CTAs and initiated a review of the                   samples in the areas of disclosure documents, financial
financial and sales practice program of the CBOT. Both of                  reports, exemption and extension notices, compliance
these reviews included an assessment of the disciplinary                   examinations, and sales practices. However, samples are
programs of the NFA and CBOT. DCIO presented a report                      selected and tested to facilitate an understanding of the
to the Commission stating that NFA was complying with                      operation of a process or procedure in practice rather than
the CEA and its delegated responsibilities. The review of                  to provide statistical assurances.
the CBOT is still in progress at this time, but no material                	     For further verification of compliance oversight pro-
deviations from core principles have been observed.                        cedures, DCIO staff also visit firms whose operations were
Data Source and Validation                                                 reviewed by the SRO. Such reviews include performing the
Supporting documentation is contained in the report and                    same testing steps that the SRO conducted in its examina-
the workpapers prepared by the staff while carrying out                    tions of the firms. The results of such DCIO testing are
the review and analyzing relevant SRO materials. Such                      then compared to the workpapers of the SRO’s examina-
documentation is contained in DCIO’s files. DCIO deliv-                    tion of the selected firm.
ers a letter to the SRO, requesting documents that reflect                 	     The methodology for collecting this statistic is based
the systems, policies, procedures, practices, and internal                 on ongoing oversight and planned reviews related to the
controls implemented by the SRO. After reviewing these                     aforementioned areas for which the results potentially
materials, DCIO staff interview selected management                        could indicate an SRO’s and NFA’s noncompliance with
staff, followed by performing fieldwork at the SRO and a                   the requirement to enforce their rules.
review of documents. The fieldwork at the SRO primarily




62                CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 2.2.5 Percentage of total requests receiving CFTC response for guidance and advice.


                                                History of Results:        FY 2003 Actual          FY 2004 Actual         FY 2005 Actual

                                                                                90%                     90%                    90%


                         FY 2006 Performance Results

                   100


                                                                      	         Results:	    95%
                    80

                                                                      	   Measurement:	      Percentage
      PERCENTAGE




                    60
                                                                      	    Data Source:	     Signed letters (formal) and email &
                                                                                             telephone responses (informal).
                    40

                                                                      	     Verification:	   Agency files maintained in chronological
                    20                                                                       files and responses to formal requests are
                                                                                             published on Commission’s Web site.
                     0

                           Plan              Actual



Lead Program Office                                                        respond to requests as quickly as possible, but the timeli-
Division of Clearing and Intermediary Oversight                            ness of a response also is affected by the speed with which
                                                                           a requester provides additional information sought by
Performance Analysis and Review
                                                                           staff, and the length of time required by other Commis-
DCIO staff respond to numerous requests for guidance
                                                                           sion divisions or offices to review a draft response, factors
and advice on the CEA and Commission regulations each
                                                                           outside the control of DCIO.
year. Requests are received from members of the public,
market participants, intermediaries, SROs, foreign entities,               	     DCIO staff responded to five percent more requests
and others. These requests may be formal, such as written                  than planned. This was due, among other reasons, to the
requests for no-action, interpretative, or exemption letters.              ever-increasing experience and familiarity of staff with the
DCIO also receives numerous requests for guidance and                      CEA and the Commission’s regulations, and to the use by
advice via e-mail and phone calls.                                         requestors of electronic communications to more easily
                                                                           and readily present and supplement their requests for
	    DCIO responds to all requests received. Many of
                                                                           guidance.
these requests are routine in nature and are responded
to in a very short time frame, if not immediately. This is                 Data Source and Validation
particularly true for many of the requests that are received               Supporting documentation is in the form of responses
via e-mail and phone calls. Other requests that raise                      to formal (by signed letter) and informal (by e-mail and
novel or complex issues, or requests for formal DCIO                       telephone) requests for guidance and advice contained in
responses in the form of no-action letters, interpretations                DCIO’s files.
or exemptions, take more time to research and to prepare                   	     Responses to formal requests are posted on the
a response. It should be noted, however, that statistics                   Commission’s Internet Web site and are maintained by
on numbers of letters issued or e-mail responded to may                    hard copy in DCIO’s chronological files; responses to non-
not reflect the complexity of any particular matter or the                 routine, informal requests similarly are recorded by hard
resources necessary to address one issue versus another                    copy and maintained in DCIO’s chronological files. The
issue. In addition, matters commenced in one fiscal year                   methodology for collecting these statistics is to compare
may overlap into, and be completed during, a subsequent                    the files of requests received with responses sent and to
fiscal year, resulting in some imprecision in statistical                  calculate the performance statistic.
measures for a given year. DCIO staff make every effort to



                                                                                                                            CFTC           63
    Performance Measure 2.3.1 Percentage of filed complaints resolved within one year of the filing date.


                                                 History of Results:        FY 2003 Actual          FY 2004 Actual        FY 2005 Actual

                                                                                 50%                    41%                    50%


                          FY 2006 Performance Results

                   100


                    80                                                 	         Results:	    39%
      PERCENTAGE




                                                                       	   Measurement:	      Percentage
                    60

                                                                       	    Data Source:	     Reparations case tracking system and
                    40                                                                        Judge/Judgment Officer Disposition report.

                                                                       	     Verification:	   Monthly reports and statistics submitted by
                    20
                                                                                              presiding officers.

                     0

                            Plan              Actual



Lead Program Office                                                         	     In resolving complaints, the targets cannot be arbi-
Office of Proceedings                                                       trarily set at a level at which achievement is automatic
                                                                            because of the numerous and various external factors that
Performance Analysis and Review
                                                                            are involved in processing the complaints.
As shown above, the performance results were 41 percent
in FY 2004, 50 percent in FY 2005 and 39 percent in FY                      Data Source and Validation
2006. The planned results were anticipated at 50 percent                    The reparations case tracking system generates reports,
for each fiscal year regarding the percentage of complaints                 which provide the total number of cases that were decided
that would be resolved within one year of the filing date.                  by fiscal year, the date that each case was received, the date
The planned results were not met for FY 2004 and FY                         of the decision, number of processing days, and decision
2006 because of the complexity of the complaints that                       type. There is also a report that provides the same infor-
were received, requests for extensions of time, lengthy                     mation except that it breaks down the data by admin-
discovery periods, and other factors that increased the                     istrative law judge (ALJ) or judgment officer (JO) and
number of days that it takes to resolve a complaint. How-                   fiscal year. These reports are used to provide the statistical
ever, the planned results were met for FY 2005.                             information for the performance measure.

	     During FY 2006, the actual results were less than the                 	     The Office of Proceedings uses “Repcase,” the in-
FY 2005 results. Although the planned results were not                      tegrated computerized case tracking system, to collect,
met, the decline in performance could be attributed to the                  maintain, and analyze performance information for each
fact that the presiding officers decided more complaints                    reparations case. The reparations case reports are separated
in FY 2006 than in FY 2004 and FY 2005. Based upon                          into two sections: complaints and hearings. The data and
the reports that were generated, one factor that may have                   information collected in the Complaints Section consist
contributed to meeting the planned result in FY 2005 was                    of the number of cases pending the first of the month, the
that there were fewer cases decided during that fiscal year.                number of cases received during the month, the num-
                                                                            ber of cases disposed of in complaints, and the number
	     It would be difficult to provide an alternative plan of
                                                                            of cases pending at the end of the month. The data and
action to meet the planned results because the Office of
                                                                            information collected for the Hearings Section consist
Proceedings does not have control over the various exter-
                                                                            of the number of cases pending with an ALJ or JO at the
nal factors that affect the filing and disposition of repara-
                                                                            beginning of the month, the number of cases assigned
tions cases.



64                 CFTC
                                                            PERFORMANCE SECTION




during the month, including remands, reassignments, and
motions to vacate, the number and type of cases disposed
of during the month, and the number of cases pending
with each ALJ and JO at the end of the month.

	   The data can be verified and validated by the reports
and statistics that the presiding officers submit on a
monthly basis. An additional report is prepared regarding
the reparations cases pending one year or more.




                                                                                  CFTC   65
    Performance Measure 2.3.2 Percentage of appeals resolved within six months.


                                                 History of Results:        FY 2003 Actual          FY 2004 Actual       FY 2005 Actual

                                                                                 35%                    35%                   46%


                          FY 2006 Performance Results

                   100

                                                                       	         Results:	    46%
                    80
                                                                       	   Measurement:	      Percentage
      PERCENTAGE




                    60
                                                                       	    Data Source:	     Opinions and orders issued by the
                                                                                              Commission.
                    40
                                                                       	     Verification:	   Final opinions and orders are posted on
                                                                                              the Commission’s Web site. Pending cases
                    20
                                                                                              are maintained by the Secretariat; status
                                                                                              reports are issued monthly.
                     0

                            Plan              Actual



Lead Program Office
Office of General Counsel (OGC)

Performance Analysis and Review
The increase between FY 2004 and FY 2005 in the number
of cases resolved within six months resulted from a strong
push for increased productivity, together with a number
of matters of limited complexity that could be resolved
quickly. The lower number projected for FY 2006 reflects
the issuance this year of several long-pending complex
cases. The difference between the plan and the actual
number indicates extended staff review.

Data Source and Validation
The principal supporting documentation consists of the
opinions and orders issued by the Commission.

	    Apart from this documentation, which is posted on
the Commission’s Web site, the Office of Proceedings,
OGC, and the Secretariat maintain dockets on the status
of pending cases. In addition, OGC prepares monthly
reports to the Commission on the status of cases. Perfor-
mance data is validated as follows: the date of the notice
of appeal or other pleading bringing a matter before
the Commission starts the six-month time period. The
Commission’s order disposing of a matter stops the time
period.




66                 CFTC
Program Contributions to Strategic Goal Two

  Oversight of NFA and Intermediary Registration                 view addressed NFA’s programs involving CPOs and CTAs
  A core element of the Commission’s mission is to protect       to assess NFA’s performance with respect to: 1) disclosure
  market users and the public from fraud and abusive prac-       documents and annual reports; 2) compliance examina-
  tices related to the offer and sale of commodity futures       tions; 3) monitoring of sales practices; 4) registration; and
  and options. Toward this goal, the Commission oversees         5) processing of exemption notices.  The purpose of the
  NFA that operates as an industry-wide SRO with certain         review was to assess the effectiveness of NFA’s systems,
  regulatory responsibilities over intermediaries. These         practices, and procedures in monitoring its members that
  include Commission-delegated responsibilities such as          are Commission-registered CPOs and CTAs with respect
  processing and screening registration applications of fu-      to customer protection, including NFA’s performance of
  tures industry intermediaries and FTs, including initiating    registration and compliance functions as authorized by
  actions to revoke and/or deny registration, and reviewing      the Commission.
  CPO and CTA disclosure documents and CPO annual                	   In FY 2006, there were 70,083 industry registrants.
  reports.                                                       These registrants included 210 FCMs (16 of which were
  	   Commission staff conduct formal oversight of NFA’s         securities broker-dealers registered with the SEC that “no-
  registration program and perform ongoing oversight relat-      tice-registered” with the CFTC because their only futures-
  ed to screening market professionals for fitness. Oversight    related activity involved SFPs), 1,741 IBs (45 of whom
  activities involve inspection of records and interviews with   were notice-registered), 1,512 CPOs, and 2,589 CTAs.
  NFA staff as well as numerous informal contacts between        These firms employ 54,258 sales personnel, known as APs.
  NFA and the Commission staff on a weekly basis. These          In addition, there are 8,203 individuals registered as FBs
  oversight activities are designed to protect market par-       and 1,507 individuals registered as FTs executing trades
  ticipants and the public interest by assuring that persons     on U.S. exchanges. In connection with the huge number
  who deal directly with customers and those who handle          of industry registrants, the Commission seeks to protect
  customer orders and funds meet the standards for fitness       market users and the public by requiring futures industry
  and integrity established under the CEA. Persons who           professionals to meet high standards through registration
  cannot meet these standards may be subject to statutory        and passing of a proficiency exam by salespersons. When
  disqualification from registration and may have their          Commission staff identify persons who are not registered
  registration denied, conditioned, or revoked. In addi-         but should be, a letter is sent to the person, and/or the
  tion, Commission staff oversee CPO and CTA disclosure          matter is referred for enforcement action.
  standards, particularly for managed futures and option         	   Commission staff chaired the Registration Working
  products, to assure that market users and potential market     Group (RWG), which is composed of Commission and
  users are appropriately and consistently informed of the       NFA representatives. The RWG was created as a means for
  risks of futures and option trading, and are provided with     Commission and NFA staff to share ideas and concerns
  information about trading managers.                            about issues that are not tied to any specific pending
  	   As part of the Commission’s formal oversight of NFA,       registration case. Commission staff participated in four
  Commission staff completed a review of certain self-regu-      meetings of the RWG during FY 2006.
  latory activities of NFA to evaluate its members’ compli-
  ance with NFA rules and Commission regulations.  The re-




                                                                                                               CFTC          67
Anti-Money Laundering (AML)                                   	    In another administrative enforcement case, the
Commission staff continued to work with other Federal fi-     respondent appealed from the ALJ’s decision to suspend
nancial regulators on various aspects of a program to com-    his FB registration under Section 8a(11) of the CEA pend-
bat money laundering and terrorist financing. Specifically,   ing the resolution of securities and bank fraud, and other
staff continue to participate in developing regulations       Federal felony charges brought against him. The Commis-
implementing the USA PATRIOT Act and in developing            sion determined that the suspension was appropriate. It
and issuing guidance concerning the application of these      held that charges of fraud and other dishonesty, even if
regulations. For example, staff worked with the Treasury in   arising from markets not directly regulated by the Com-
drafting joint guidance that addressed the customer iden-     mission, clearly affect both a registrant’s general fitness to
tification program requirements for omnibus accounts          participate in financial markets and the public perception
and sub-accounts established by financial intermediaries.     of market integrity. In re Anixter.
Commission staff also continue to work with the Treasury      	    A reparations appeal presented the question of
to share information about possible terrorist financiers      whether the 3H Commission’s Policy Statement Con-
and money launderers. As part of this process, staff main-    cerning Swap Transactions, issued in 1989, governed a
tain and update a list of FCMs and contact persons that       disputed interest rate transaction. The respondent argued
the Treasury then uses when preparing a biweekly list of      that the Policy Statement created a safe harbor for the
possible money launderers and terrorist financiers.           transaction, and operated to deprive the Commission of
                                                              jurisdiction over it. The complainant asserted that the
Opinions and Review
                                                              Policy Statement had been superseded by amendments
During FY 2006, the Commission issued 23 opinions and
                                                              to the CEA, and that the transaction was an illegal, off-
other orders, including orders issued pursuant to delegat-
                                                              exchange futures contract. The Commission stated that
ed authority, 17 of which were final dispositions of cases
                                                              it had never withdrawn the Policy Statement and had
pending on the Commission’s docket. These included the
                                                              expressly reaffirmed its continuing vitality on two occa-
Commission’s decision in In re Global Telecom, Inc. The
                                                              sions. It scrutinized the transaction at issue and concluded
Commission affirmed the initial decision, which held an
                                                              that all requirements of the Policy Statement had been
FCM liable for misleading advertising created and used
                                                              met, the safe harbor applied, and the swap lay outside its
by three of its APs, although the FCM’s name was not
                                                              regulatory authority. Khorram Properties, LLC v. McDonald
used in the advertisements. The APs also owned a closely
                                                              Investments, Inc.
held CTA firm, Global Telecom, Inc., which was the only
company named in the advertisements at issue. The FCM         	    In another reparations case, the Commission held
argued that the advertising was used outside the scope        that solicitations involving high pressure sales techniques
of the APs’ employment with it. It also argued that as a      generally are not unlawful in the absence of other fraud,
matter of law, the advertising could not violate Section 4b   but that such marketing tactics become problematic when
of the CEA, because it was not used “in or in connection      designed to prevent customers from making reasoned
with” a futures transaction executed “for or on behalf of”    investment decisions. The Commission stated that such
another person. The Commission held that the dually           pressure may contribute to a consumer’s ultimate decep-
registered APs acted on behalf of both corporate principals   tion by increasing the likelihood that the customer will
in disseminating the fraudulent advertising. It found that    accept and act on other statements that are deceptive. The
the FCM benefited because customers who responded to          Commission affirmed the decision below in favor of the
the advertisements were solicited to open accounts at the     complainant, who was rushed into opening an account
FCM. The Commission also rejected the FCM’s Section           without receiving the complete risk disclosure statement
4b arguments, distinguishing Commodity Trend Service,         required by Regulation 33.7. The company’s AP was held
Inc. v. CFTC, 233 F.3d 981 (7th Cir. 2000). The FCM relied    liable as an aider and abettor under Section 13(a) of the
on Commodity Trend Service for its argument that the          CEA. Sanchez v. Crown.
“for or on behalf of” element of Section 4b had not been
satisfied.




68      CFTC
                                                                    PERFORMANCE SECTION




	    In a case raising procedural issues in the reparations    05-60641 (5th Cir. 2006); Miller v. CFTC, No. 04-73914
forum, the Commission granted a petition for interlocuto-      (9th Cir. 2006); Slusser v. CFTC, No. 04-2138 (7th Cir.
ry review of an order by an ALJ retaining jurisdiction over    2006).  With the Department of Justice, the Commission
a counterclaim after dismissing the complaint for lack of      defeated a claim that public access to information could
jurisdiction. The complainant sought dismissal after a year    be barred by an unsubstantiated assertion that the Com-
of prehearing proceedings, having become convinced that,       mission received the information in settlement negotia-
even if he were able to prove that the injurious conduct       tions.  In re Subpoena Duces Tecum Issued to CFTC, 439 F. 3d
actually happened as alleged, he would not be able to          740 (D.C. Cir. 2006).   Also, OGC successfully argued the
establish that respondents acted with scienter, as required    Commission’s right to prevent even a firm in bankruptcy
by Commission precedent. The Commission held that,             from violating the Commodity Exchange Act.  CFTC v.
once the ALJ dismissed the main claim on jurisdictional        NRG Energy, No. 05-2570 (8th Cir. 2006).
grounds, he lost jurisdiction over the counterclaim as well.   	    Before the District Courts, OGC assisted the court in
The Commission dismissed the counterclaim. Dunmire v.          addressing issues critical to the financial stability of the
Hoffman.                                                       commodity exchange clearing system.  CFTC v. Eustace,
	    The Commission affirmed the NFA’s denial of Daniel        No. 05-cv-2973 (E.D. Pa.).  OGC also assisted the U.S.
P. Marzano’s floor broker registration application based       Attorney in obtaining dismissal of a suit seeking damages
on his felony convictions for fraud and embezzlement.          against Commission employees for their lawful conduct in
It found that Marzano’s argument that he lacked the            investigating and prosecuting violations of the CEA. Mady
requisite intent contradicted findings of an appeals court     v. CFTC, No. 2:05:cv73745 (E.D. Mich. 2006).
and thus did not show mitigating circumstances. Con-           	    OGC monitors bankruptcy cases involving futures
cerning rehabilitation, the Commission reiterated that         industry professionals and, as appropriate, assists courts,
rehabilitation may be shown without expert testimony.          trustees, and customers in implementing special U.S.
It stated that it considered favorably the testimony of        Bankruptcy Code provisions that pertain to commod-
futures industry participants who knew and worked with         ity firms.  In FY 2006, the OGC analyzed 35 bankruptcy
Marzano in the industry and in a personal capacity. The        cases and formally appeared before various Bankruptcy
Commission nonetheless determined that Marzano did             Courts in 14 cases. Notably, OGC appeared in one of the
not introduce sufficient probative evidence that he had        largest financial industry bankruptcies in history, Refco
changed his direction, noting that he did not affirmatively    LLC.  With other staff, OGC worked cooperatively and
accept responsibility for his misconduct, which included       successfully with SROs, industry participants, government
using laundered money to buy an exchange seat. Marzano         officials, and the U.S. Bankruptcy Court to ensure that
v. National Futures Association.                               Refco customers’ market positions and more than seven
                                                               billion dollars in customer funds were safely and securely
Office of General Counsel
Through the litigation program, OGC represents the             protected.

Commission in the U.S. District Courts and the Courts of       Regulatory and Legislative Matters
Appeals and assists the Solicitor General in representing      In FY 2006, Commission staff continued to advise the
the Commission before the U.S. Supreme Court.  OGC             Commission concerning the implementation of regula-
also monitors litigation of interest to accomplishing the      tions issued pursuant to the CFMA. Commission staff
Commission’s mission, including the Commission’s coop-         assisted the Commission in new regulatory initiatives to
eration with other Federal financial regulators through the    further carry out CFMA mandates, including technical and
President’s Working Group on Financial Markets and the         clarifying amendments to regulations for exempt markets,
President’s Corporate Fraud Task Force.                        derivatives transaction execution facilities and designated
	    During FY 2006, before the Courts of Appeals, three       contract markets, and procedural changes for DCOs, and
separate appellate courts sustained the Commission’s au-       extending the interpretation of “eligible contract partici-
thority to impose meaningful monetary penalties against        pant.”
violators of the CEA. R & W Technical Services v. CFTC, No.



                                                                                                               CFTC           69
	    The Commission, jointly with the SEC, promulgated
final regulations to permit trading of futures on debt
indexes and debt securities.   The joint rulemaking was
necessitated by the existing statutory obstacles making it
difficult to trade these products.  The regulations provide
a definition for broad-based debt security indexes; futures
transactions on these indexes will be able to trade subject
to the sole jurisdiction of the CFTC.  The regulations also
provide for security futures product trading on debt securi-
ties, subject to joint regulation by the CFTC and SEC. 

	    In FY 2006, the Commission continued to consult
with staff of the Treasury and various Federal financial
regulators to develop AML regulations required under the
USA PATRIOT Act, providing guidance to certain custom-
ers of CTAs and working with other agencies to complete
information-sharing agreements.

	    During FY 2006, the Commission presented testi-
mony before Congressional Committees on the Commis-
sion’s reauthorization. 

Proceedings
The Commission provides a forum for effectively and ex-
peditiously handling customer complaints against persons
or firms registered with the Commission at the time of the
alleged wrongdoing or at the time the complaint is filed.

	    Of the 80 complaints disposed/completed, in FY
2006, 39 percent of those cases were disposed/com-
pleted within one year from the date the complaint was
filed. The remaining complaints were not resolved within
one year as a result of issues beyond the Commission’s
control. For example, parties requested additional time
for one or   more of the following reasons: 1) to supple-
ment their cases; 2) to prepare pleadings; 3) to complete
extensive discovery documents; or 4) to deal with personal
or professional responsibilities.  

	    The Commission’s ALJs are responsible for hearing
and rendering decisions in administrative enforcement
cases brought by the Commission against alleged viola-
tors of the CEA or related regulations.  The Commission
decided 11 administrative enforcement cases in FY 2006.




70      CFTC
                              Strategic Goal Three




Ensure market integrity in order to foster open, competitive, and financially sound
markets.
Impact
The U.S. futures markets must be protected from abusive practices and influences to better operate and fulfill their vital
role in the nation’s economy, as well as the global economy. The CFTC works diligently to ensure that futures markets
do function properly so that the marketplace may be used with confidence by market participants ranging from the
farmer who wishes to hedge his crop or feed, to the pension fund manager who desires to guarantee a particular return
on money entrusted for investment.




                                                                                                             CFTC       71
Performance Results for Performance Goal Three


  Performance Measure 3.1.1 (a) Lost Funds: Percentage decrease in number of customers who lose funds.


                                                History of Results:        FY 2003 Actual          FY 2004 Actual          FY 2005 Actual

                                                                                0%                        0%                    0%


                         FY 2006 Performance Results

                  100


                                                                      	         Results:	    0%
                   80

                                                                      	   Measurement:	      Percentage
     PERCENTAGE




                   60
                                                                      	    Data Source:	     Agency database for filing financial reports,
                                                                                             1-FR-FCM and FOCUS reports.
                   40

                                                                      	     Verification:	   Exchanges’ daily trading data and FCMs’
                   20                                                                        financial filings are maintained in SPARK and
                                                                                             1-FR data systems.
                    0

                           Plan              Actual




  Performance Measure 3.1.1 (b) Lost Funds: Amount of funds lost.


                                                History of Results:        FY 2003 Actual          FY 2004 Actual          FY 2005 Actual

                                                                                 $0                       $0                     $0


                         FY 2006 Performance Results

                  100


                                                                      	         Results:	    $0
                   80

                                                                      	   Measurement:	      Dollars
                   60
     DOLLARS




                                                                      	    Data Source:	     Agency database for filing financial reports,
                                                                                             1-FR-FCM and FOCUS reports.
                   40

                                                                      	     Verification:	   Exchanges’ daily trading data and FCMs’
                   20                                                                        financial filings are maintained in SPARK and
                                                                                             1-FR data systems.
                    0

                           Plan              Actual



Lead Program Office                                                        gated accounts, DCIO staff are able to closely monitor the
Division of Clearing and Intermediary Oversight                            operations of registrants in possession of customer funds.
                                                                           There were no losses of regulated customer funds due to
Performance Analysis and Review
                                                                           firm failures or the inability of customers to transfer their
Through the use of DCIO’s Stressing Positions at Risk
                                                                           funds from a failing firm to a sound firm in 2005 or 2006.
(SPARK) system, combined with required financial warn-
ing notices and market monitoring, as well as statutory
requirements that customer funds be maintained in segre-




72                CFTC
                                                               PERFORMANCE SECTION




Data Source and Validation
Supporting documentation is contained in DCIO’s files
and the database maintained for filing 1-FR-FCM forms
and FOCUS reports.

	   The methodology for collecting and maintaining the
data to use to analyze and validate this item is part of the
daily procedures for handling the SPARK and 1-FR data
systems. The data is obtained from daily trading informa-
tion obtained from the exchanges combined with the
periodic financial filings of the FCMs




                                                                                     CFTC   73
    Performance Measure 3.1.2 Number of rulemakings to ensure market integrity and financially sound markets.


                                             History of Results:        FY 2003 Actual          FY 2004 Actual        FY 2005 Actual

                                                                              1                       1                      3


                      FY 2006 Performance Results

                3


                                                                   	         Results:	    3

                2                                                  	   Measurement:	      Number
      NUMBER




                                                                   	    Data Source:	     Code of Federal Regulations: proposed and
                                                                                          final amendments to regulations.
                1
                                                                   	     Verification:	   Proposed and final regulations are published
                                                                                          in the Federal Register and posted on the
                                                                                          Commission’s Web site.
                0

                        Plan              Actual



Lead Program Office                                                     Data Source and Validation
Division of Clearing and Intermediary Oversight                         In FY 2006, DCIO completed three rulemakings that ad-
                                                                        dressed regulatory efforts to ensure market integrity and
Performance Analysis and Review
                                                                        financially sound markets. The supporting documenta-
The number of rulemakings to ensure market integrity
                                                                        tion is maintained in DCIO’s system of files related to the
and financial soundness is not a number that can be
                                                                        respective rulemaking.
predetermined precisely. The final number of rulemak-
ings is driven in part by changes in the marketplace, or                •	 17 CFR Part 4, Advertising by Commodity Pool Opera-
in the structure of exchanges, clearing organizations, and                 tors, Commodity Trading Advisors, and the Principals
intermediaries that operate within that marketplace. The                   Thereof, at 71 Fed. Reg. 49387 (August 23, 2006) – Pro-
number can be a function of what is needed to allow                        posed amendments to regulations.
appropriate market interrelationships to be maintained                  •	 17 CFR Parts 36, 37, 38, 39, and 40, Technical and
and to allow these entities to operate in the most efficient               Clarifying Amendments to Rules for Exempt Markets,
manner. As such, these factors may not be foreseeable at                   Derivatives Transaction Execution Facilities and Des-
the time the performance estimate is prepared. In addi-                    ignated Contract Markets, and Procedural Changes for
tion, a requirement for a rulemaking may not be known                      Derivatives Clearing Organization Registration Applica-
or may not have reached a decision-making point until                      tions, at 71 Fed. Reg. 1953 (January 12, 2006) – Final
further analysis, study, and other actions or events have                  amendments to regulations.
taken place. This also can account for a difference between
                                                                        •	 17 CFR Parts 1, 145 and 147, Alternative Market Risk
the FY 2006 Plan estimate and actual.
                                                                           and Credit Risk Capital Charges for Futures Commis-
	    The number of rulemakings also can be affected by                     sion Merchants and Specified Foreign Currency Forward
other factors that arise after the plan is prepared. For ex-               and Inventory Capital Charges, at 71 Fed. Reg. 5587
ample, DCIO developed for issuance by the Commission                       (February 2, 2006) – Final amendments to regulations.
proposed amendments to Regulation 4.41, which governs
advertising by CPOs, CTAs, and their principals. DCIO
developed this proposal at the request of the Division of
Enforcement although the request was made after the FY
2006 Plan estimate had been submitted.



74             CFTC
                                                               PERFORMANCE SECTION




	       DCIO staff maintain files of the supporting docu-
mentation related to the respective rulemakings. The
methodology for collecting these statistics is by tabulating
the number of rulemakings for the fiscal year. In addi-
tion, proposed and final regulations are published in the
Federal Register and are posted on the Commission’s Web
site.




                                                                                     CFTC   75
    Performance Measure 3.1.3 Percentage of clearing organizations that comply with requirement to enforce
    rules.

                                                 History of Results:        FY 2003 Actual            FY 2004 Actual         FY 2005 Actual

                                                                                100%                      100%                    100%


                          FY 2006 Performance Results

                   100


                                                                       	         Results:	     100%
                    80

                                                                       	   Measurement:	       Percentage
      PERCENTAGE




                    60
                                                                       	    Data Source:	      Documentation from DCOs under review;
                                                                                               agency reports & files; and financial
                    40
                                                                                               surveillance materials.

                    20                                                 	     Verification:	    Statistical data is obtained through financial
                                                                                               surveillance and planned reviews.
                     0

                            Plan              Actual



Lead Program Office                                                         Data Source and Validation
Division of Clearing and Intermediary Oversight                             Each of the DCOs under review has submitted extensive
                                                                            documentation. DCIO staff have created extensive work
Performance Analysis and Review
                                                                            papers in conducting the reviews of DCOs. When the
As of the end of FY 2006, reviews of compliance with the
                                                                            reviews are complete, Commission staff provide reports to
core principles were ongoing at six DCOs: CME, NYMEX,
                                                                            the Commission. Files are maintained containing many of
NYCC, KCBT, CCORP, and MGE. Reviews of the first five
                                                                            these materials.
DCOs will be completed in the first quarter of FY 2007. A
review of the sixth DCO will be completed in the second                     	     Financial surveillance materials are also maintained
quarter of FY 2007. While analysis is currently underway,                   in files. Some of them are maintained on a DCIO shared
no affirmative conclusion of noncompliance can be made                      drive called Financial Surveillance Home. In addition,
at this time.                                                               written reports are periodically prepared and kept on file.

	     On a daily basis, DCIO staff conduct financial surveil-               	     A paper file is created for each DCO rule submission.
lance of DCOs and clearing members. Staff have identified                   Typically, a staff memorandum is included in the file.
no instances of noncompliance.                                              	     The methodology for collecting this statistic is based
	     During the past fiscal year, 57 rule submissions were                 on ongoing oversight and planned reviews related to the
filed by DCOs under the self-certification provisions of the                aforementioned areas for which the results potentially
CEA. Staff reviewed each of the submissions and found                       could indicate a DCO’s noncompliance with the require-
none that violated CEA core principles.                                     ment to enforce its rules.




76                 CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 3.2.1 Percentage of intermediaries who meet risk-based capital requirements.


                                                History of Results:        FY 2003 Actual           FY 2004 Actual         FY 2005 Actual

                                                                               100%                     100%                   100%


                         FY 2006 Performance Results

                   100


                    80                                                	         Results:	    100%
      PERCENTAGE




                                                                      	   Measurement:	      Percentage
                    60

                                                                      	    Data Source:	     Agency database for filing financial reports,
                    40                                                                       1-FR-FCM and FOCUS reports.

                                                                      	     Verification:	   FCM’s financial filings are maintained in
                    20
                                                                                             SPARK and 1-FR data systems.

                     0

                           Plan              Actual



Lead Program Office
Division of Clearing and Intermediary Oversight

Performance Analysis and Review
Through the use of DCIO’s SPARK system, combined with
required financial warning notices and market monitor-
ing, DCIO staff are able to closely monitor the financial
condition of FCMs. As DCIO performs enhanced moni-
toring of exchanges’ oversight of financial intermediaries
upon the filing of notices, DCIO ensures that risk-based
capital requirements continue to be met.

Data Source and Validation
Supporting documentation is contained in DCIO’s files
and the database maintained for the filing of 1-FR-FCM
forms and FOCUS reports.

	    The methodology for collecting and maintaining the
data to use to analyze and validate this item is part of the
daily procedures for handling the SPARK and 1-FR data
systems. The data is obtained from daily trading informa-
tion obtained from the exchanges combined with the
periodic financial filings of the FCMs.




                                                                                                                             CFTC            77
  Performance Measure 3.2.2 Percentage of self-regulatory organizations that comply with requirement to
  enforce their rules.

                                                History of Results:        FY 2003 Actual           FY 2004 Actual         FY 2005 Actual

                                                                               100%                     100%                   100%


                         FY 2006 Performance Results

                  100


                                                                      	         Results:	    100%
                   80

                                                                      	   Measurement:	      Percentage
     PERCENTAGE




                   60
                                                                      	    Data Source:	     Documentation from SROs under review;
                                                                                             agency reports & files; and financial
                   40
                                                                                             surveillance materials.

                   20                                                 	     Verification:	   SRO financial filings are maintained in
                                                                                             SPARK and 1-FR data systems..
                    0

                           Plan              Actual



Lead Program Office                                                        	     The testing of execution of procedures is performed
Division of Clearing and Intermediary Oversight                            by sample testing and documentation review. DCIO
                                                                           staff use standard statistical techniques to size and select
Performance Analysis and Review
                                                                           samples in the areas of disclosure documents, financial
DCIO staff conduct risk-focused reviews of the financial
                                                                           reports, exemption and extension notices, compliance
and sales practice oversight programs of SROs and NFA
                                                                           examinations, and sales practices. However, samples are
on risk-based examination cycles. During FY 2006, DCIO
                                                                           selected and tested to facilitate an understanding of the
completed a review of NFA’s program for the oversight of
                                                                           operation of a process or procedure in practice rather than
CPOs and CTAs, and initiated a review of the financial and
                                                                           to provide statistical assurances.
sales practice program of the CBOT. Both of these reviews
included an assessment of the disciplinary programs of                     	     For further verification of compliance oversight pro-
the NFA and CBOT. DCIO presented a report to the Com-                      cedures, DCIO staff also visit firms whose operations were
mission stating that NFA was complying with the CEA and                    reviewed by the SRO during 2004. Such reviews include
delegated responsibilities. The review of the CBOT is still                performing the same testing steps that the SRO conducted
in progress at this time, but no material deviations from                  in its examinations of the firms. The results of such DCIO
CEA core principles have been observed.                                    testing are then compared to the workpapers of the SRO’s
                                                                           examination of the selected firm.
Data Source and Validation
DCIO delivers a letter to the SRO, requesting documents                    	     The methodology for collecting this statistic is based
that reflect the systems, policies, procedures, practices,                 on ongoing oversight and planned reviews related to the
and internal controls implemented by the SRO. After                        aforementioned areas for which the results potentially
reviewing these materials, DCIO staff interview selected                   could indicate an SRO’s noncompliance with the require-
management staff, followed by performing fieldwork at                      ment to enforce its rules.
the exchange and a review of documents. The fieldwork at
the SRO primarily consists of a walk-through demonstra-
tion. The purpose of the fieldwork is to confirm DCIO’s
understanding of the program and to provide reasonable
assurance that it operates in the manner represented.




78                CFTC
                                                                                 PERFORMANCE SECTION




  Performance Measure 3.3.1 Percentage of exchanges deemed to have adequate systems for detecting trade
  practice abuses.

                                               History of Results:        FY 2003 Actual           FY 2004 Actual       FY 2005 Actual

                                                                              100%                     100%                 100%


                        FY 2006 Performance Results

                  100
                                                                     	         Results:	    100%
                   80
                                                                     	   Measurement:	      Percentage
     PERCENTAGE




                   60                                                	    Data Source:	     Agency reports and files from reviews
                                                                                            and analyses, and documentation from
                                                                                            exchanges subject to a rule enforcement
                   40
                                                                                            review.

                   20                                                	     Verification:	   Reviews and analysis of systems,
                                                                                            procedures, policies, practices and manuals.
                                                                                            Reviews include site visits.
                    0

                          Plan              Actual



Lead Program Office                                                       Data Source and Validation
Division of Market Oversight                                              Each DCM that is the subject of an RER, and its third party
                                                                          service provider, if applicable, submits extensive documen-
Performance Analysis and Review
                                                                          tation during the course of RERs. DMO staff also create
DMO staff conduct rule enforcement reviews (RERs) of
                                                                          work papers during its analysis of submitted documenta-
DCMs on a regular cycle that includes review and analysis
                                                                          tion. Exchange submissions and staff work papers are
of systems for detecting trade practice abuses. During FY
                                                                          organized and maintained in DMO files.
2006, DMO completed an RER of the KCBT that included,
among other things, review of KCBT’s trade practice                       	     When initiating an RER, DMO sends a letter to the
surveillance program, including a detailed analysis of                    exchange requesting documents that reflect the systems,
KCBT’s surveillance system. Shortly after the end of FY                   policies, procedures, and practices that relate to the CEA
2006, DMO completed an RER of the CME that included,                      core principles and programs under review. With respect
among other things, review of CME’s automated trade                       to an exchange’s surveillance systems, DMO requests
practice surveillance systems. These RERs resulted in                     copies of all manuals, procedures, and/or guidelines
reports that found that KCBT and CME maintain adequate                    relating to any automated surveillance system used by the
trade practice surveillance programs that include surveil-                exchange in connection with trade practice surveillance.
lance systems. In addition, during FY 2006, DMO initiated                 After reviewing the requested material, DMO staff conduct
a combined RER of the CCFE, U.S. Futures Exchange, and                    an on-site visit that includes interviewing senior exchange
HedgeStreet. These exchanges all contract with the NFA                    officials and reviewing files that demonstrate exchange
to perform trade practice surveillance. In reviewing these                staff’s use of surveillance systems as part of their investiga-
exchanges’ trade practice surveillance programs, DMO is                   tory process. The verification of procedures and adequacy
carefully reviewing and analyzing NFA’s automated sur-                    of exchange surveillance systems is measured by determin-
veillance system. Although this review is still in progress,              ing whether the exchange initiated a sufficient number
staff have not identified any material deficiencies.                      of investigations given exchange volume, the adequacy
                                                                          of investigations, and the exchange’s success in bringing
                                                                          disciplinary actions.

                                                                          	     The methodology for collecting this statistic is based
                                                                          on RERs relating to review and evaluation of exchange
                                                                          systems for detecting trade practice abuses.


                                                                                                                           CFTC          79
  Performance Measure 3.3.2 Percentage of exchanges that comply with requirement to enforce their rules.


                                                History of Results:        FY 2003 Actual           FY 2004 Actual         FY 2005 Actual

                                                                               100%                     100%                    100%


                         FY 2006 Performance Results

                  100

                                                                      	         Results:	    100%
                   80
                                                                      	   Measurement:	      Percentage
     PERCENTAGE




                   60
                                                                      	    Data Source:	     Agency reports and files from reviews
                                                                                             and analyses, and documentation from
                   40                                                                        exchanges subject to a rule enforcement
                                                                                             review.
                   20
                                                                      	     Verification:	   Statistical data is obtained through financial
                                                                                             surveillance and planned reviews.
                    0

                           Plan              Actual



Lead Program Office                                                        procedures and sanctions, and dispute resolution. DMO
Division of Clearing and Intermediary Oversight                            also completed an RER that examined the NYBOT’s
Division of Market Oversight                                               market surveillance program. Shortly after the end of FY
                                                                           2006, DMO completed an RER of the CME that examined
Performance Analysis and Review
                                                                           CME’s audit trail, trade practice surveillance, disciplinary,
Division of Clearing and Intermediary Oversight
                                                                           and dispute resolution programs. These RERs culminated
DCIO staff conduct risk-focused reviews of the financial
                                                                           in reports that found that the exchanges that were exam-
and sales practice oversight programs of SROs. During FY
                                                                           ined adequately enforced their rules and had no material
2006, DCIO initiated a review of the financial and sales
                                                                           deficiencies in any of the programs reviewed. In addition,
practice program of the CBOT. This review will include an
                                                                           during FY 2006, DMO initiated a combined RER of the
assessment of the disciplinary program of the CBOT. The
                                                                           CCFE, U.S. Futures Exchange, and HedgeStreet to exam-
review of the CBOT is still in progress, but no material de-
                                                                           ine their compliance with CEA core principles relating to
viations from core principles have to date been observed.
                                                                           market surveillance, audit trail, trade practice surveillance,
Division of Market Oversight                                               disciplinary procedures and sanctions, and dispute resolu-
DMO staff conduct RERs of DCMs on a regular cycle                          tion. Although this RER is still in progress, to date, DMO
to ensure that exchanges enforce their rules. CEA Core                     staff have not identified any material deficiencies.
Principle 2 specifically requires that exchanges monitor
                                                                           	     DMO also conducts ongoing daily surveillance of all
and enforce compliance with their rules. DMO reviews
                                                                           exchanges to ensure that exchanges are enforcing their
exchange compliance with CEA Core Principle 2 when it
                                                                           rules.
conducts an RER of an exchange’s trade practice surveil-
lance program. RERs also examine the adequacy of an ex-                    Data Source and Validation
change’s market surveillance, audit trail, disciplinary, and               Division of Clearing and Intermediary Oversight
dispute resolution programs. When DMO examines these                       Supporting documentation of DCIO’s assessment of
programs, its review includes an analysis to ensure that an                exchanges complying with requirements to enforce their
exchange is enforcing its rules that relate to the particular              rules is contained in the report and the work papers
program under review. During FY 2006, DMO completed                        prepared by DCIO staff while carrying out the review and
an RER of the KCBT that examined KCBT’s compliance                         analyzing relevant exchange’s materials. Such documenta-
with those core principles that relate to market surveil-                  tion is contained in DCIO’s files.
lance, audit trail, trade practice surveillance, disciplinary


80                CFTC
                                                                    PERFORMANCE SECTION




	   DCIO delivers a letter to the exchange, requesting         ing the requested material, DMO staff conduct an on-site
documents that reflect the systems, policies, procedures,      visit that includes interviewing senior exchange officials
practices, and internal controls implemented by the            and reviewing files that demonstrate exchange staff’s use
exchange. After reviewing those materials, DCIO staff          of surveillance systems as part of the investigatory process.
interview selected management staff, followed by perform-      The verification of procedures and adequacy of exchange
ing fieldwork at the exchange and a review of documents.       surveillance systems is measured by determining whether
The fieldwork at the exchange primarily consists of a walk-    the exchange initiated a sufficient number of investiga-
through demonstration. The purpose of the fieldwork is         tions given exchange volume, the adequacy of investiga-
to confirm DCIO’s understanding of the exchange and to         tions, and the exchange’s success in bringing disciplinary
provide reasonable assurance that it operates in the man-      actions.
ner represented.                                               	   The methodology for collecting this statistic is based
	   The testing of execution of procedures is performed        on ongoing oversight and planned RERs relating to the
by sample testing and documentation review. DCIO staff         aforementioned areas for which the results potentially
use standard statistical techniques to size and select sam-    could indicate a DCM’s noncompliance with the require-
ples in the areas of financial reports and audits. However,    ment to enforce its rules.
samples are selected and tested to facilitate an understand-
ing of the operation of a process or procedure in practice
rather than to provide statistical assurances.

	   For further verification of compliance oversight
procedures, DCIO staff also visit firms whose opera-
tions are reviewed by the exchange. Such reviews include
performing the same testing steps that the SRO conducts
in its examinations of the firms. The results of such DCIO
testing are compared to the work papers of the exchange’s
examination of the selected firm.

	   The methodology for collecting this statistic is based
on ongoing oversight and planned reviews related to the
aforementioned areas for which the results could poten-
tially indicate an exchange’s noncompliance with the
requirement to enforce its rules.

Division of Market Oversight
Each DCM that is the subject of an RER, and its third party
service provider, if applicable, submits extensive documen-
tation during the course of RERs. DMO staff also create
work papers during their analysis of submitted documen-
tation. Exchange submissions and staff work papers are
organized and maintained in DMO files.

	   DMO also maintains a log of its exchange floor sur-
veillance and maintains trade practice investigation files
that include exchange trade data and staff’s analysis.

	   When initiating an RER, DMO sends a letter to the
exchange requesting documents that reflect the systems,
policies, procedures, and practices that relate to the CEA
core principles and programs under review. After review-




                                                                                                             CFTC           81
  Performance Measure 3.4.1 Percentage of CFMA Section 126(b) objectives addressed.


                                                  History of Results:        FY 2003 Actual           FY 2004 Actual       FY 2005 Actual

                                                                                 100%                     100%                 100%


                           FY 2006 Performance Results

                    100


                     80                                                 	         Results:	    100%
       PERCENTAGE




                                                                        	   Measurement:	      Percentage
                     60

                                                                        	    Data Source:	     Agency reports, files and documentation.
                     40
                                                                        	     Verification:	   Formal MOUs or seriatim approvals are
                                                                                               published in the Federal Register and posted
                     20
                                                                                               on the Commission’s Web site.

                      0

                             Plan              Actual



Lead Program Office
Executive Direction & Support

Performance Analysis and Review
The Commission’s Office of International Affairs (OIA)
assists the Commission in formulating its international
policy by: 1) coordinating with foreign regulatory authori-
ties; 2) participating in international regulatory organiza-
tions and forums; and 3) providing technical assistance to
foreign governmental bodies. These efforts are intended to
facilitate cross-border transactions and the supervision of
such transactions by developing internationally accepted
standards, enhancing international supervisory coopera-
tion, and improving the quality and timelines of interna-
tional information sharing. The performance measure was
met.

Data Source and Validation
OIA staff maintain files of supporting documentation
under key words that reflect the Section 126(b) topics.
Projects are also found in the Commission Secretariat’s
file, e.g., formal Memoranda of Understanding (MOUs)
or seriatim approvals of International Organization of
Securities Commissions (IOSCO) documents, and pub-
lished Federal Register notices. IOSCO projects will also
be contained in those final reports adopted by the IOSCO
Technical Committee and published on the IOSCO
Web site.




82                  CFTC
                                                                            PERFORMANCE SECTION




  Performance Measure 3.4.2 Number of rulemakings, studies, interpretations, and guidances to ensure market
  integrity and exchanges’ compliance with regulatory requirements.

                                          History of Results:        FY 2003 Actual          FY 2004 Actual          FY 2005 Actual

                                                                           8                        6                       6


                   FY 2006 Performance Results

              20

                                                                	         Results:	    20
              15                                                	   Measurement:	      Number

                                                                	    Data Source:	     Code of Federal Regulations, proposed and
     NUMBER




              10                                                                       final amendments to regulations; Federal
                                                                                       Register, notice and order; and staff letters.

               5                                                	     Verification:	   Proposed and final regulations are published
                                                                                       in the Federal Register and posted on the
                                                                                       Commission’s Web site.
               0

                     Plan              Actual



Lead Program Office                                                  Division of Market Oversight
Division of Clearing and Intermediary Oversight                      The number of rulemakings, studies, interpretations,
Division of Market Oversight                                         and statements of guidance is not a number that can be
                                                                     forecasted precisely. The final number is driven, in part,
Performance Analysis and Review
                                                                     by changes in the marketplace or in the operations of
Division of Clearing and Intermediary Oversight
                                                                     exchanges that may not be foreseeable at the time the
The number of rulemakings, studies, interpretations, and
                                                                     performance estimate is prepared.
statements of guidance to ensure market integrity and
exchanges’ compliance with regulatory requirements is                Data Source and Validation
not a number that can be predetermined precisely. The                Division of Clearing and Intermediary Oversight
final number of these combined statistics reported by                In FY 2006, DCIO completed a combined total of 12
DCIO is driven in part by changes in the marketplace, or             rulemakings, studies, interpretations, and statements of
in the structure of the exchanges, clearing organizations,           guidance that addressed regulatory efforts to ensure mar-
and intermediaries that operate within that marketplace.             ket integrity and exchanges’ compliance with regulatory
The number can be a function of what is needed to allow              requirements. The supporting documentation is main-
appropriate market interrelationships to be maintained               tained in DCIO’s files related to the respective rulemaking,
and to allow the exchanges, clearing organizations, and              study, interpretation, and statements of guidance.
intermediaries to operate in the most efficient manner. As           	     DCIO staff maintain files of the supporting docu-
such, these factors may not be foreseeable at the time the           mentation related to the respective rulemaking, studies,
performance estimate is prepared. In addition, a require-            interpretations, and statements of guidance. The meth-
ment for a rulemaking, study, or interpretation may not be           odology for collecting these statistics is by tabulating the
known or may not have reached a decision-making point                number of such rulemakings, studies, interpretations, and
until further analysis and other actions or events have              statements of guidance for the fiscal year. In addition, pro-
taken place. This also can account for a difference between          posed and final regulations are published in the Federal
the FY 2006 plan and actual.                                         Register and, along with staff no-action, interpretative and
                                                                     exemptive letters, are posted on the Commission’s
                                                                     Web site.




                                                                                                                        CFTC            83
•	 17 CFR Part 1, Financial Reporting Requirements for         •	 DCIO memorandum to the Commission, issued on
  Introducing Brokers, at 71 Fed. Reg. 54789 (September          November 14, 2006, regarding customer funds in segre-
  19, 2006) – Proposed amendments to regulations.                gated amounts, Section 4d(2) of the CEA, and secured
                                                                 accounts, Part 30 of the Commission regulations – de-
•	 17 CFR Part 1, Definition of “Client” of a Commod-
                                                                 scribing trends in growth and concentration.
  ity Trading Advisor, at 71 Fed. Reg. 9442 (February 24,
  2006) – Final amendments to regulations.                     Division of Market Oversight
                                                               DMO staff maintain files of the supporting documenta-
•	 17 CFR Part 4, Commodity Pool Operator Electronic
                                                               tion related to the referenced rulemakings and study. The
  Filing of Annual Reports, at 71 Fed. Reg. 8939 (February
                                                               methodology for collecting these statistics is by tabulat-
  22, 2006) – Final amendments to regulations.
                                                               ing the number of rulemakings and studies for the fiscal
•	 17 CFR Parts 36, 37, 38, 39, and 49, Technical and
                                                               year. In addition, the referenced rulemakings and study
  Clarifying Amendments to Rules for Exempt Markets,
                                                               were published in the Federal Register and posted on the
  Derivatives Transaction Execution Facilities and Des-
                                                               Commission’s Web site.
  ignated Contract Markets, and Procedural Changes for
                                                               •	 17 CFR Parts 36, 37, 38, 39 and 40, Technical and Clari-
  Derivatives Clearing Organization Registration Applica-
                                                                 fying Amendments to Rules for Exempt Markets, Deriva-
  tions, at 71 Fed. Reg. 1953 (January 12, 2006) – Final
                                                                 tives Transaction Execution Facilities and Designated
  amendments to regulations.
                                                                 Contract Markets, and Procedural Changes for Deriva-
•	 Recognition of Multilateral Clearing Organizations
                                                                 tives Clearing Organization Registration Applications,
  (re: NetThruPut, Inc.), at 71 Fed. Reg. 10958 (March 3,
                                                                 at 71 Fed. Reg. 1953 (January 12, 2006) - final amend-
  2006) – Notice and Order.
                                                                 ments to regulations.
•	 17 CFR Part 4, CPO and CTA Electronic Filing of No-
                                                               •	 Commission order In the Matter of the New York Mer-
  tices and Exemptions and Exclusions under Part 4 of the
                                                                 cantile Exchange, Inc. Petition To Extend Interpretation
  Commission’s regulations, at 71 Fed. Reg. 60454 (Octo-
                                                                 Pursuant to Section 1a (12) (C) of the Commodity
  ber 13, 2006) – Proposed amendments to regulations.
                                                                 Exchange Act , at 71 Fed. Reg. 6755 (February 9, 2006)
•	 Staff Letter 06-16, dated July 7, 2006, granting an ex-       – final Commission order.
  emption to a registered CPO of a publicly offered, pub-
                                                               •	 17 CFR Parts 1, 15, 16, 17, 18, 19, 21, and 37, Technical
  licly traded commodity pool from otherwise applicable
                                                                 and Clarifying Amendments to Rules for Market and
  disclosure, reporting and recordkeeping requirements.
                                                                 Large Trader Reporting, at 71 Fed. Reg. 37809 (July 3,
•	 Staff Letter 06-15, dated July 12, 2006, granting an ex-      2006) – final amendments to regulations.
  emption to a registered CPO of a publicly offered, pub-
                                                               •	 17 CFR Parts 41 and 240, Application of the Definition
  licly traded commodity pool from otherwise applicable
                                                                 of Narrow-Based Security Index to Debt Securities In-
  disclosure, reporting and recordkeeping requirements.
                                                                 dexes and Security Futures on Debt Securities, at 71 Fed.
•	 Staff Letter 05-19, dated November 10, 2005, granting         Reg. 39534 (July 13, 2006) – joint final amendments to
  an exemption to a registered CPO of a publicly offered,        regulations with the SEC.
  publicly traded commodity pool from otherwise appli-
                                                               •	 17 CFR Part 38, Conflict of Interest in Self-Regula-
  cable disclosure, reporting and recordkeeping require-
                                                                 tion and Self-Regulatory Organizations, at 71 Fed. Reg.
  ments.
                                                                 38739 (July 7, 2006) - proposed amendments to regula-
•	 Staff Letter 06-20, dated September 7, 2006, extending        tions.
  previous relief to permit institutional customers to trade
                                                               •	 Comprehensive Study of the Commitments of Trad-
  certain futures contracts in a securities account with a
                                                                 ers Reporting Program, at 71 Fed. Reg. 35627 (June 21,
  notice-registrant FCM by accepting “substantial compli-
                                                                 2006) – study of the continued use of the Commit-
  ance” with the applicable securities laws.
                                                                 ments of Traders reports.
•	 DCIO letter of guidance, issued on May 23, 2006, re-
  garding segregation treatment of customer funds related
  to intra-day variation settlements held by the NYCC.


84     CFTC
                                                                                  PERFORMANCE SECTION




    Performance Measure 3.4.3 Percentage of requests for no-action or other relief completed within six months
    related to novel market or trading practices and issues to facilitate innovation.

                                                History of Results:        FY 2003 Actual           FY 2004 Actual         FY 2005 Actual

                                                                               100%                     100%                    100%


                         FY 2006 Performance Results

                   100
                                                                      	         Results:	    100%
                    80
                                                                      	   Measurement:	      Percentage
      PERCENTAGE




                    60                                                	    Data Source:	     Applicant’s letter requesting relief and
                                                                                             Commission letter of response.
                    40
                                                                      	     Verification:	   Applicant’s letter and supporting
                                                                                             documentation maintained in internal
                    20                                                                       tracking system, FILAC. Responses to
                                                                                             formal request published on Commission’s
                                                                                             Web site.
                     0

                           Plan              Actual



Lead Program Office
Division of Market Oversight

Performance Analysis and Review
In FY 2006, DMO issued nine no-action letters in response
to requests for formal no-action relief from requirements
of the CEA. Each letter was issued by DMO within six
months of the receipt of the relief request.

Data Source and Validation
Supporting documentation is in the form of the appli-
cant’s letter requesting relief and the Division’s signed
letter in response to the formal requests for guidance and
advice.

	     DMO maintains the FILAC internal tracking system
for recording DMO actions, such as the issuance of no-ac-
tion letters, which reflects the dates for relief requests and
responsive letters, as well as the length of staff review. Re-
ponses to formal requests are posted on the Commission’s
Web site.




                                                                                                                              CFTC          85
    Performance Measure 3.4.4 Percentage of total requests receiving CFTC responses for guidance and advice.


                                                 History of Results:        FY 2003 Actual          FY 2004 Actual         FY 2005 Actual

                                                                                 90%                     90%                    90%


                          FY 2006 Performance Results

                   100


                                                                       	         Results:	    95%
                    80

                                                                       	   Measurement:	      Percentage
      PERCENTAGE




                    60
                                                                       	    Data Source:	     Signed letters (formal) and email &
                                                                                              telephone responses (informal).
                    40

                                                                       	     Verification:	   Agency files maintained in chronological
                    20                                                                        files and responses to formal request are
                                                                                              published on Commission’s Web site.
                     0

                            Plan              Actual



Lead Program Office                                                         fiscal year, resulting in some imprecision in statistical
Division of Clearing and Intermediary Oversight                             measures for a given year. DCIO staff make every effort to
Division of Market Oversight                                                respond to requests as quickly as possible, but the timeli-
                                                                            ness of a response also is affected by the speed with which
Performance Analysis and Review
                                                                            a requester provides additional information sought by
Division of Clearing and Intermediary Oversight
                                                                            staff, and the length of time required by other Commis-
DCIO staff respond to numerous requests for guidance
                                                                            sion divisions or offices to review a draft response, factors
and advice on the CEA and Commission regulations each
                                                                            outside the control of DCIO. All these factors contributed
year. Requests are received from members of the public,
                                                                            to DCIO responding to five percent fewer requests than
market participants, intermediaries, SROs, foreign entities,
                                                                            planned.
and others. These requests may be formal, such as written
requests for no-action, interpretative, or exemption letters.               Division of Market Oversight
DCIO also receives numerous requests for guidance and                       DMO staff respond to numerous requests for guidance
advice via e-mail and phone calls.                                          and advice on the CEA and Commission regulations each
                                                                            year. These requests may be informal, via e-mail or phone
	    DCIO responds to all requests received. Many of
                                                                            calls, or formal in the form of requests for no-action, inter-
these requests are routine in nature and are responded
                                                                            pretation, or exemption letters. Staff respond to informal
to in a very short time frame, if not immediately. This is
                                                                            guidance and advice requests in a very short period of
particularly true for many of the requests that are received
                                                                            time, usually no longer than a period of days. To the ex-
via e-mail and phone calls. Other requests that raise novel
                                                                            tent that staff are unable to provide an informal response
or complex issues, or requests for formal DCIO responses
                                                                            to such requests, the requester is advised to submit his/her
in the form of no-action letters, interpretations or exemp-
                                                                            request formally. DMO staff strive to address such formal
tions, may take more time because of the need for research
                                                                            requests within six months of receipt.
and for preparation of an appropriate response. It is noted
that the statistics on numbers of letters issued or e-mail                  Data Source and Validation
responses may not reflect the complexity of any particular                  Division of Clearing and Intermediary Oversight
matter or the resources necessary to address one particular                 Supporting documentation is in the form of responses
issue. In addition, matters commenced in one fiscal year                    to formal (by signed letter) and informal (by e-mail and
may overlap into, and be completed during, a subsequent                     telephone) requests for responses for guidance and advice.



86                 CFTC
                                                                PERFORMANCE SECTION




	   Responses to formal requests are posted on the
Commission’s Internet Web site and are maintained by
hard copy in the chronological files; responses to non-rou-
tine, informal requests similarly are recorded by hard copy
and maintained in the chronological files. The methodol-
ogy for collecting these statistics is by comparing the files
of requests received with responses sent and calculating
the performance statistic.

Division of Market Oversight
DMO does not track the length of time needed to respond
to informal requests for guidance. Staff, however, oper-
ate under the presumption that, if guidance cannot be
provided in response to informal requests, the requester is
advised to submit his/her request in the form of a written
request for a no-action, interpretation, or exemption let-
ter. Supporting documentation with respect to no-action,
interpretation and exemption requests is in the form of an
e-mail or signed letter from the requesting entity and the
Division’s signed letter in response.

	   DMO maintains the FILAC internal tracking system
for recording DMO actions, such as the issuance of no-ac-
tion, interpretation and exemption letters, which reflects
the dates of request and responsive letters, as well as the
length of staff review. Reponses to formal requests are
posted on the Commission’s Web site.




                                                                                      CFTC   87
Program Contributions to Strategic Goal Three

  Fostering Sound Business Practices: Oversight of SROs,        	   In addition to its formal oversight of SROs, Commis-
  DCOs, and Market Intermediaries                               sion staff performed examinations and reviews of approxi-
  A key aspect of assuring effective self-regulation is over-   mately 30 FCMs during FY 2006 to test compliance with
  sight by the Commission of futures industry SROs, which       the Commission’s financial requirements for the safekeep-
  include exchanges, NFA and DCOs, to ensure the fulfill-       ing of customer funds, and staff processed about 3,000 fi-
  ment of their own responsibilities for monitoring and         nancial reports filed by registrants. As a result of these and
  ensuring the financial integrity of market intermediaries     other ongoing oversight activities, no regulated customer
  and the protection of customer funds. Toward this end,        funds were lost in FY 2006, thereby meeting the program’s
  Commission staff oversee, review, and report to the Com-      objective of ensuring sound financial practices of clearing
  mission concerning SRO and DCO self-policing programs         organizations and firms holding customer funds.
  in order to evaluate their compliance with applicable pro-
                                                                Financial Surveillance
  visions of the CEA and Commission regulations. Similar
                                                                The Commission monitors the potential for, and instances
  to the approach of other Federal financial regulators and
                                                                of, market volatility, market disruptions, or emergencies
  certain overseas financial supervisors, the Commission
                                                                that have the potential to impact: 1) the proper capitaliza-
  employs a risk-based approach to its examination cycles
                                                                tion of firms; 2) the proper segregation of customer funds;
  of SROs and DCOs, i.e., both the scheduling and scope
                                                                3) the ability of financial intermediaries to make pay-
  of the risk-based reviews are based on an analysis of the
                                                                ments to a DCO in a timely manner; and 4) issues with
  underlying risks to which an institution is exposed and the
                                                                respect to systemic risk. This financial surveillance func-
  controls that it has in place to address those risks.
                                                                tion performed by Commission staff has taken on greater
  	    Commission staff perform periodic risk-based exami-      importance in recent years due to the number of instances
  nations, daily financial surveillance, and other oversight    of market volatility and its impact on market intermediar-
  activities concerning the self-policing programs by which     ies and the clearing system.
  the SROs monitor and enforce member compliance with
                                                                	   Staff monitor cases of volatile markets in order to
  requirements concerning fitness, net capital, segregation
                                                                advise the Commission of any potential financial impair-
  of customer funds, disclosure, sales practices, and related
                                                                ment of a registrant or potential systemic risk. It is not
  reporting and recordkeeping. The oversight of SRO com-
                                                                possible to estimate in advance the number of such events
  pliance programs is necessary to ensure that SRO member
                                                                that will occur annually because market volatility can-
  firms are properly capitalized and maintain appropriate
                                                                not be predicted. Nevertheless, such events are expected
  risk management capabilities, and that customer funds
                                                                to occur. Commission staff conducted 65 market move
  are held in segregation by appropriate custodians and are
                                                                reviews in FY 2006. Such reviews met the objectives of as-
  protected from misappropriation.
                                                                suring that registrants and financial intermediaries are not
  	    The oversight functions of the Commission took on        impaired by market volatility or disruptions and continue
  increased importance with the passage of the CFMA in          to meet financial obligations; and detecting any failure by
  2000. The CFMA defined a new category of registered enti-     a DCO to meet its obligations.
  ties, DCOs, and set forth core principles governing such
  entities. The core principles require a DCO to demon-
  strate, among other things, that it has adequate financial
  resources, risk management, default procedures, protec-
  tions for customer funds, and system safeguards.


  88      CFTC
                                                                     PERFORMANCE SECTION




Ensuring a Flexible and Responsive Regulatory                   	    Also during FY 2006, Commission staff issued three
Environment                                                     separate exemptive letters to CPOs of publicly-offered,
In FY 2006, staff supported the Commission’s ongoing            exchange-listed commodity pools. In each case, relief was
regulatory reform program, as well as actions required          provided from specific disclosure and reporting require-
by or appropriate to the implementation of the CFMA.            ments ordinarily applicable to CPOs, based upon repre-
These actions, in the form of rulemakings, interpretations,     sentations that the relevant information would be made
orders, and guidance, include the preparation of a number       readily available to pool participants on several private
of rulemakings during the fiscal year. One of these actions,    and regulator-provided Web sites. The relief was neces-
issued in February 2006, was a final rulemaking that            sary in order to permit shares in the pools to be listed and
defined the term “client” as it relates to a CTA. Another       traded on national securities exchanges.
action is a proposed rulemaking to be issued in FY 2007,
                                                                Remote Clearing
which concerns the regulation of advertising by CPOs,
                                                                As a matter of first impression, a foreign firm requested
CTAs, and their principals. In addition, in March 2006, the
                                                                to become a full clearing member of a combined DCM
Commission issued an order with respect to the multi-
                                                                and DCO to clear trades only for non-U.S. located
lateral clearing activities for over-the-counter derivative
                                                                customers without first registering under the CEA, com-
instruments of a new foreign facility.
                                                                monly referred to as “remote clearing.” Commission staff
	    The Commission adopted amendments to Part 4 of             researched the legal question as to whether a remote clear-
its regulations to require the electronic filing of commod-     ing foreign firm that would clear trades only for non-U.S.
ity pool annual reports with NFA, at the request of NFA.        located customers would be required to register with the
The Commission continues to increase electronic filing          Commission as an FCM, and addressed the material poli-
by proposing amendments to Part 4 of its regulations to         cy issues of remote clearing with respect to both customer
require electronic filing of notices of exemption submit-       protection and the financial integrity of the markets. After
ted to NFA, and by proposing amendments to Regulation           discussions with staff, the foreign firm decided to become
1.10 to require and permit the electronic filing of certi-      registered with the Commission as an FCM.
fied annual reports by IBs.  Electronic filing is expected to
increase the efficiency of the filing process. Further, the     CME Over-the-Counter (OTC) Clearing
Commission adopted amendments to its regulations that           The Commission issued an order permitting the CME, a
recognize the growing use by FCMs of internally devel-          registered DCO, and its clearing FCMs to hold funds secur-
oped mathematical VaR models, especially in light of SEC        ing positions executed in certain OTC markets in accounts
regulations that permit well-capitalized broker-dealers         segregated pursuant to Section 4d of the CEA.
to incorporate VaR measurements in the market risk and
                                                                Foreign Currency
credit risk capital deductions that are required for their
                                                                Commission staff continue to work with NFA staff regard-
proprietary trading assets. 
                                                                ing retail foreign currency trading by FCMs and their affili-
	    The Commission issued clarifying and conform-              ates. NFA submitted several additional rules concerning re-
ing amendments to Part 39 of its regulations relating to        tail foreign currency, which the Commission subsequently
applications for registration as a DCO. During FY 2006,         approved. These rules are intended to address ongoing
the Commission received 50 submissions in which DCOs            problems in the off-exchange retail forex market.
certified rules as being in compliance with the CEA.
                                                                	    Commission staff have considered ways to provide
	    During FY 2006, staff reviewed 22 NFA rule submis-         additional formal guidance regarding compliance and reg-
sions. Under Section 17(j) of the CEA, NFA may either           istration issues pertaining to entities involved in retail for-
make a proposed rule change effective ten days after            eign currency trading and have met with other divisions to
submission for review, absent determination that full           discuss their concerns regarding issues that may be raised
review is called for, or seek full review of the proposed       in such an advisory. Staff also have discussed issues with
rule change on its own. Some of the rule change proposals       NFA concerning NFA examinations and required adjusted
reviewed by staff were technical changes and others were        net capital for firms engaged in retail forex transactions.
substantive in nature.


                                                                                                                CFTC        89
Foreign Futures and Option Transactions                        Securities Dealers how to accomplish eventual updating
The Commission took action to approve the offer and            of the examinations, but, for the time being, salespersons
sale of certain foreign futures and option transactions        will be permitted to continue to offer SFPs after taking a
(U.S. customers trading on non-U.S. markets) in FY 2006.       Web-based training module. The SEC is in accord with this
In this regard, the Commission issued orders to several        approach.
foreign exchanges granting firms designated by these ex-
                                                               International Policy
changes an exemption from certain of the Commission’s
                                                               The Commission formulates international policy by:
foreign futures and option regulations.
                                                               1) coordinating with foreign regulatory authorities; 2)
Hedge Funds                                                    participating in international regulatory organizations
During FY 2006, Commission staff monitored the SEC’s           and forums; and 3) providing technical assistance to
implementation of new regulations requiring registration       foreign governmental bodies. These efforts are intended to
of hedge fund advisers under the Investment Advisers Act       facilitate cross-border transactions, and the supervision of
of 1940 for potential impacts on the Commission’s regu-        such transactions, by developing internationally accepted
latory programs. The staff also prepared the Chairman for      standards, enhancing international supervisory coopera-
his testimony on hedge funds before the Senate Commit-         tion and improving the quality and timelines of interna-
tee on Banking, Housing, and Urban Affairs in July 2006.       tional information sharing. In FY 2006, the Commission
                                                               contributed to this effort by:
Security Futures Products and Cooperation with the
                                                               •	 Coordinating representation in IOSCO, through its
SEC
                                                                 direct participation in the development of regulatory
The CFMA directs the Commission and the SEC to imple-
                                                                 standard-setting and guidance papers in areas such as
ment a joint regulatory framework for SFPs and narrow-
                                                                 recordkeeping, error trades, the role of prime brokers
based stock index futures. As part of the ongoing SFP su-
                                                                 in providing hedge fund valuation services, informa-
pervisory and oversight process, the Commission and the
                                                                 tion sharing for surveillance purposes, enforcement
SEC signed an MOU to clarify the ability of each agency
                                                                 issues related to the Internet, preserving and repatriating
to conduct inspections of notice-registered intermediar-
                                                                 property in cross-border enforcement cases and cross-
ies, exchanges, and limited purpose national securities
                                                                 border enforcement cooperation. The Commission also
associations. The MOU provides that the CFTC and SEC
                                                                 participates directly in the IOSCO Technical Commit-
will notify each other of any planned examinations, advise
                                                                 tee, and in a special IOSCO Executive Committee Task
the other of reasons for an intended examination, provide
                                                                 Force on Implementation of the IOSCO Objectives and
each other with examination-related information, and
                                                                 Principles of Securities Regulation;
conduct examinations jointly, if feasible. The agencies
will notify each other of significant market issues and will   •	 Coordinating Commission representation in the Coun-
share trading data and related market information.               cil of Securities Regulators of the Americas (COSRA),
                                                                 including participating in ways to advance COSRA’s
	     In furtherance of the goals of the CFMA, the Commis-
                                                                 regional technical assistance and training initiatives;
sion and the SEC jointly promulgated final rules to permit
trading of futures on debt indexes and debt securities,        •	 Advancing the work program of the Commission’s
subject to the sole jurisdiction of the CFTC.  In addition,      Trans-Atlantic Initiative with Council of European
the Commissions’ new rules allowed trading of security           Securities Regulators (CESR) by publishing ‘Frequently
futures products based on debt securities, subject to joint      Asked Questions’ in the form of online guides for con-
regulation by the SEC and CFTC.  This joint rulemaking           ducting derivatives business in the U.S. and the E.U.;
was necessitated by existing statutory language that made      •	 Coordinating the Commission’s participation in the
it difficult to trade such products.                             International Institute for the Unification of Private Law
	     The Commission permitted NFA in FY 2004 to                 (Unidroit) discussions concerning a draft document
postpone indefinitely updating the Series 3 and Series 30        that would create new international rules in the area of
examinations to include questions on SFPs. Staff have            clearing and settlement of securities products;
discussed with NFA and the National Association of


90      CFTC
                                                                     PERFORMANCE SECTION




•	 Coordinating the Commission’s participation in vari-         	   During FY 2006, the Commission’s Trade Practice
  ous Treasury-led financial services dialogues, including      Investigation (TPI) program generated 145 TPIs which
  dialogues with China, India, and Japan, as well as com-       resulted in a total of 24 referrals to exchanges and the
  menting on various Treasury position papers, including        Division of Enforcement. The TPI program, in conjunction
  work on a Hague Convention addressing intermediated           with the Commission’s RER program, supports the Com-
  securities;                                                   mission in ensuring that market participants are protected
                                                                from abusive trading practices, protecting the integrity of
•	 Coordinating with the U.K.’s Financial Services Author-
                                                                the markets as a price discovery mechanism, and main-
  ity to ensure the sharing of information needed to
                                                                taining public confidence in the markets.
  conduct surveillance of cross-border electronic markets
  in the U.S. and U.K.;                                         	   The Commission’s review of exchange rules is a key
                                                                aspect of the statutory framework for self-regulation. The
•	 Coordinating the Commission’s provision of represen-
                                                                DMO staff review exchange rule submissions with the
  tations and regulatory information to regulatory au-
                                                                goals of: 1) maintaining the fairness and financial integrity
  thorities in Australia and Singapore that supported the
                                                                of the markets; 2) protecting customers; 3) accommodat-
  recognition of U.S. futures exchanges’, electronic trading
                                                                ing and fostering innovation; and 4) increasing efficiency
  systems; and
                                                                in self-regulation consistent with the Commission’s statu-
•	 Coordinating the Commission’s technical assistance
                                                                tory mandates. To these ends, staff reviewed 178 exchange
  program through: entering into a technical assistance
                                                                rule submission packages and, within those packages, staff
  arrangement with the Office of the Agricultural Futures
                                                                reviewed 1,237 new rules and rule amendments.
  Trading Commission of Thailand (AFTC), and provid-
                                                                	   Commission staff also work to facilitate indus-
  ing technical assistance to foreign regulators through
                                                                try innovations and new trading methods and market
  visits with staff at the Commission by nine jurisdictions,
                                                                structures, thereby meeting the Commission’s objective
  one on-site visit by Commission staff to China, and a
                                                                of promoting and enhancing effective self-regulation and
  week-long seminar organized by the Commission in
                                                                competition. During FY 2005, staff were involved in a
  Chicago that was attended by 54 representatives from
                                                                number of significant matters including issues related to
  38 jurisdictions that examined the techniques used to
                                                                new exchanges and exempt markets, exchange mergers,
  promote market, firm, and customer protections.
                                                                novel trading procedures and contract designs, and new
Standing Committee 5                                            automated trading systems.
Commission staff continued to participate in IOSCO’s
                                                                Other Exemptive, Interpretive, and No-Action Relief
Standing Committee 5 (SC5) on Investment Management.
                                                                The Commission staff provide exemptive, interpretive, or
Throughout 2006, SC5 continued to consider and issue
                                                                other relief to facilitate the continued development of an
reports on several topics of importance to collective invest-
                                                                effective, flexible regulatory environment responsive to
ment vehicles.
                                                                evolving market conditions. For example, in FY 2006, staff
Foreign Futures Contracts                                       issued a no-action letter regarding speculative position
OGC continued its review of requests for no-action relief       limits to a registered CPO that planned to offer shares of
to allow the offer and sale of foreign exchange-traded          an index-based fund composed of notional amounts of
stock index futures contracts in the U.S. Through mid-July      various physical commodities, including wheat and corn.
2006, OGC issued four such no-action letters.                   The fund sought relief from the position limits for wheat
                                                                and corn to the extent that its positions resulted from
Market Compliance
                                                                maintaining long futures positions in the commodities
Commission staff completed two RERs of SRO compli-
                                                                that made up the index. The letter conditioned the relief
ance programs at the KCBT and NYBOT. Periodic review of
                                                                upon the fund: passively tracking a widely recognized
SRO compliance programs is a component of the pro-
                                                                commodity index; having unleveraged positions; and not
gram’s oversight activity to promote and enhance effective
                                                                having price exposure or maintaining positions into the
self-regulation and ensure that SROs enforce compliance
                                                                spot month. During the past year, the Commission also
with their rules.


                                                                                                              CFTC         91
issued: 1) a no-action letter to a to-be-formed, wholly         Interpretation No. 10-1 to prohibit FCMs from deposit-
owned subsidiary of Cargill, Inc. permitting it to register     ing, holding, or maintaining margin funds for customer
as an agricultural trade option merchant, even though           accounts in third-party custodial accounts, with a limited
such entity might not qualify as a “producer, processor, or     exception for FCMs not eligible to hold the assets of their
commercial user of, or a merchant handling” the com-            Registered Investment Company (RIC) customer, i.e., due
modity underlying the option under a strict interpretation      to their affiliation with the RIC or its adviser. The ban
of those terms; and 2) a comprehensive no-action letter         against the use of third-party accounts is intended to pre-
to all the designated contract markets allowing them to         vent potential delay or interruption in securing required
comply with the requirement to file notice of changes to        margin payments that, in times of significant market
option strike prices under Regulation 40.6(c)(2)(v) by          disruption, could magnify the impact of such market
complying with the daily reporting requirement of Regula-       disruption and impair the liquidity of other FCMs and
tion 16.01.                                                     clearinghouses.

	    The Commission also issued amended no-action let-
ters to Eurex Deutschland and SGX-DT (formerly known
as the Singapore International Monetary Exchange Lim-
ited). The letter to Eurex permitted members who are reg-
istered with the Commission as CPOs or CTAs, or who are
exempt from such CPO or CTA registration, to use Eurex
terminals located in the U.S. for the transmission of orders
on behalf of U.S. pools they operate or U.S. customer
accounts over which they have discretionary authority, re-
spectively, provided that an FCM or Regulation 30.10 Firm
acts as the clearing firm with respect to all activity con-
ducted by such CPOs and CTAs through the submission of
orders on the trading system. The letter to SGX extended
that exchange’s relief to include the Joint Asian Derivatives
Exchange (JADE), a joint venture between SGX and CBOT
Holdings, Inc., that will be operated as a division of SGX
and whose products will be made available for trading on
the CBOT’s electronic trading and order-matching system
known as the e-cbot trading platform.

	    Financial and Segregation Interpretation No. 10 (In-
terpretation No. 10), issued in 1984, effectively permitted
customer margins to be deposited at a bank in a safekeep-
ing or custodial account, otherwise known as “safekeep-
ing account” or “third-party custodial account”, in lieu of
posting such funds directly with an FCM, without being
deemed to violate the customer funds segregation provi-
sions of Section 4d(a)(2) of the CEA and related Commis-
sion regulations. Through analysis and discussions with
industry participants, it was determined that third-party
custodial accounts are no longer necessary or justified in
light of developments since the issuance of Interpreta-
tion No. 10 and may present significant cost and burdens
for market participants. Accordingly, DCIO withdrew
Interpretation No. 10 in May 2005 and issued an amended



92      CFTC
CFTC   93
         FINANCIAL SECTION




Message from the Chief Financial Officer..............95

Limitations of Financial Statements......................96

Principal Financial Statements.............................97

Report of the Independent Auditors.......................117
A Message From the Chief Financial Officer

The public accounting firm, KPMG LLP, on behalf of            	    The Commission recognizes that these conditions
our Inspector General, reported that the financial state-     impact reporting balances, and if left uncorrected increase
ments included in this report were presented fairly, in all   the risk that future statements could be misstated. There
material respects, and in conformity with U.S. generally      were carryover matters from the prior year. The major
accepted accounting principles for Federal agencies. How-     impediments to correcting them center on our successful
ever, to achieve this result, the financial statements were   transition to the Delphi operating environment and fully
restated for FY 2005. This was necessary to conform with      realizing the benefits of a full accounting services agree-
the Financial Accounting Standards Board’s Statement          ment.
of Financial Accounting Standards No. 13, Accounting for      	    Over the last two years, the Commission has taken a
Leases. Management will rely on this principle requiring      number of positive steps to enable it to accumulate, analyze
straight-lining of rent expenses going forward. Commis-       and present reliable financial information, or provide reliable,
sion error and other deficiencies led KPMG to find that       timely information for managing current operations and timely
there were material weaknesses in the controls over finan-    reporting of financial information to central agencies. The
cial reporting. The Commission initiated corrective actions   intent of these actions is to improve our audit results by
during FY 2006 that conclude next year.                       leveraging the financial management systems, resources,
	    KPMG also disclosed noncompliance with the Federal       and expertise of the Department of Transportation, a cabi-
Information Security Management Act. Specifically, they       net level agency.
recommended that the Commission continue to improve           	    The Commission has implemented an audit follow-
entitywide security and contingency planning programs,        up process to track corrective action taken by management
access controls, segregation of duties, and service conti-    on findings and recommendations. Every attempt will be
nuity to fully meet guidelines of the E-Government Act        made to put a plan into place within 60 days of November
of 2002 and OMB Circular A-130, Management of Federal         15. Corrective actions are typically scheduled for comple-
Information Resources.                                        tion before June 30 for systems related items and Septem-
	    The FY 2006 audit report noted three reportable          ber 30 for financial reporting and underlying data. Items
conditions that were repeated from last year. The three       taking greater effort or that are dependent on longer term
conditions affirmed the Commission’s action to move to        solutions, carryover into the next audit cycle.
a new financial management system, Delphi, operated by
the Department of Transportation, and its desire to lever-
age an asset management system in its new environment.
A reportable condition related to undelivered orders was
                                                              Mark Carney
modified to report inappropriate budgetary accounting for
                                                              Chief Financial Officer
replacement contracts. Last year’s finding that improve-
ments were needed in recording accruals and preparing         November 15, 2006
financial statements was revised, and reported as part of
the material weakness above.



                                                                                                              CFTC        95
          Limitations of Financial Statements




Management has prepared the accompanying financial statements to report the financial position and operational re-
sults for the CFTC for FY 2005 and FY 2004 pursuant to the requirements of Title 31 of the U.S. Code, section 3515(b).

	    While these statements have been prepared from the books and records of the Commission in accordance with
GAAP for Federal entities and the formats prescribed by OMB Circular A-136, Financial Reporting Requirements, these
statements are in addition to the financial reports used to monitor and control budgetary resources, which are prepared
from the same books and records.

	    The statements should be read with the understanding that they represent a component of the U.S. Government, a
sovereign entity. One implication of this is that the liabilities presented herein cannot be liquidated without the enact-
ment of appropriations, and ongoing operations are subject to the enactment of future appropriations.




96     CFTC
                      Principal Financial Statements
Commodity Futures Trading Commission

Balance Sheets
As of September 30, 2006 and 2005

                                                                                                             2005
                                                                                        2006
                                                                                                     (As Restated)


  Assets
  Intragovernmental:
  	   Fund Balance with Treasury (Note 3)                                    $	   20,055,508    $	     23,464,887
  	   Accounts Receivable (Note 4)                                                          -             175,595
  	   Prepayments (Note 2G)                                                          461,038                     -
  	   Total Intragovernmental                                                     20,516,546           23,640,482

  Custodial Fines and Interest Receivable, Net (Note 4)                            5,756,605           28,663,845
  Accounts Receivable (Note 4)                                                        63,855                10,332
  Property, Equipment , and Software, Net (Note 5)                                 3,674,493            1,919,650

  Total Assets                                                               $	   30,011,499    $	     54,234,309

  Liabilities
  Intragovernmental:
  	   FECA Liabilities                                                       $	       29,484    $	        138,496
  	   Accounts Payable                                                               236,108                90,950
  	   Total Intragovernmental                                                        265,592              229,446

  Accounts Payable                                                                 2,338,427            1,601,461
  Accrued Funded Payroll                                                           4,099,832            2,852,389
  Annual Leave                                                                     5,083,005            5,230,125
  Actuarial FECA Liabilities (Note 8)                                                281,801              491,304
  Custodial Liabilities                                                            5,756,605           28,663,845
  Contingent Liabilities (Note 10)                                                    11,600                     -
  Deposit Fund Liabilities                                                            47,488                20,094
  Other - Deferred Lease Liabilities (Note 9)                                      2,837,403            2,166,518
  Total Liabilities                                                          $	   20,721,753    $	     41,255,182

  Commitments and Contingencies (Notes 9 and 10)

  Net Position
  Cumulative Results of Operations (Note 12)                                 $	   (4,568,800)   $	    (6,106,083)
  Unexpended Appropriations                                                       13,858,546           19,085,210
  Total Net Position                                                               9,289,746           12,979,127

  Total Liabilities and Net Position                                         $	   30,011,499    $	     54,234,309
The accompanying notes are an integral part of these financial statements.


                                                                                                     CFTC      97
Commodity Futures Trading Commission

Statements of Net Cost
For the Years Ended September 30, 2006 and 2005

                                                                                                             2005
                                                                                        2006
                                                                                                     (As Restated)


  Goal 1: Ensure the economic vitality of the commodity futures and option markets
  Intragovernmental Gross Costs                                              $	     5,254,073   $	      5,839,022
  Less: Earned Revenue                                                                      -             (35,169)
  Intragovernmental Net Cost of Operations                                          5,254,073           5,803,853

  Gross Costs with the Public                                                      28,107,867          28,205,924
  Less: Earned Revenue                                                                (7,407)              (3,831)
  Net Cost of Operations with the Public                                           28,100,460          28,202,093

  Net Cost of Operations- Goal One                                           $	    33,354,533   $	     34,005,946

  Goal 2: Protect market users and the public
  Intragovernmental Gross Costs                                              $	     6,403,402   $	      6,869,438
  Less: Earned Revenue                                                                      -             (41,375)
  Intragovernmental Net Cost of Operations                                          6,403,402           6,828,063

  Gross Costs with the Public                                                      34,256,464          33,183,440
  Less: Earned Revenue                                                                (9,029)              (4,507)
  Net Cost of Operations with the Public                                           34,247,435          33,178,933

  Net Cost of Operations- Goal Two                                           $	    40,650,837   $	     40,006,996


  Goal 3: Ensure market integrity in order to foster open, competitive, and financially
  sound markets
  Intragovernmental Gross Costs                                              $	     4,761,504   $	      4,465,134
  Less: Earned Revenue                                                                      -             (26,894)
  Intragovernmental Net Cost of Operations                                          4,761,504           4,438,240

  Gross Costs with the Public                                                      25,472,755          21,569,236
  Less: Earned Revenue                                                                (6,714)              (2,929)
  Net Cost of Operations with the Public                                           25,466,041          21,566,307

  Net Cost of Operations- Goal Three                                         $	    30,227,545   $	     26,004,547

  Grand Total
  Intragovernmental Gross Costs                                              $	    16,418,979   $	     17,173,594
  Less: Earned Revenue                                                                      -           (103,438)
  Intragovernmental Net Cost of Operations                                         16,418,979          17,070,156

  Gross Costs with the Public                                                      87,837,086          82,958,600
  Less: Earned Revenue                                                               (23,150)             (11,267)
  Net Cost of Operations with the Public                                           87,813,936          82,947,333

  Total Net Cost of Operations                                               $	   104,232,915   $	   100,017,489
The accompanying notes are an integral part of these financial statements.


98     CFTC
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Changes in Net Position
For the Years Ended September 30, 2006 and 2005

                                                                                                                  2005
                                                                                             2006
                                                                                                          (As Restated)


  Cumulative Results of Operations
  Beginning Balances, October 1                                               $	       (6,106,083)   $	     (5,199,126)
  Adjustments: Correction of errors (Note 12)                                                    -          (1,785,274)
  Beginning Balances as adjusted, October 1                                            (6,106,083)          (6,984,400)

  Budgetary Financing Sources

  Appropriations Used:                                                                101,840,088           96,565,213

  Other Financing Sources

  	   Imputed Financing Sources                                                         3,930,110            4,330,593

  Net Cost of Operations                                                             (104,232,915)        (100,017,489)

  Net Change                                                                            1,537,283              878,317

  Total Cumulative Results of Operations, September 30                        $	       (4,568,800)   $	     (6,106,083)

  Unexpended Appropriations
  Beginning Balances, October 1                                               $	       19,085,210    $	     23,028,385
  Adjustments: Correction of errors (Note 12)                                                    -            (661,079)
  Beginning Balances as adjusted, October 1                                            19,085,210           22,367,306

  Budgetary Financing Sources
  	   Appropriations Received                                                          98,386,000           94,327,000
  	   Less: Rescinded                                                                    (983,860)            (754,616)
  	   Less: Canceled                                                                     (788,716)            (289,267)
  	   Appropriations Used                                                            (101,840,088)         (96,565,213)
  		 Total Budgetary Financing Sources                                                 (5,226,664)          (3,282,096)

  Total Unexpended Appropriations, September 30                               $	       13,858,546    $	     19,085,210

  Net Position                                                                $	        9,289,746    $	     12,979,127
The accompanying notes are an integral part of these financial statements.




                                                                                                          CFTC      99
Commodity Futures Trading Commission

Statements of Budgetary R esources
For the Years Ended September 30, 2006 and 2005

                                                                      2006                2005


  Budgetary Resources
  Unobligated Balance, October 1                           $	     3,768,541   $	     1,395,503
  Recoveries of Prior Year Unpaid Obligations                     5,598,356          6,920,117
  Total Prior Resources                                           9,366,897          8,315,620
  New Resources:
  	   Appropriations                                             98,386,000         94,327,000
  	   Spending Authority from Offsetting Collections
  		 Collected                                                     208,371              69,394
  		 Change Receivables from Federal sources                      (175,595)            152,789
  	 Total New Resources                                    $	 98,418,776      $	    94,549,183
  Permanently Not Available:
  	   Cancellation of Expired Accounts                            (788,716)          (289,267)
  	   Enacted Reduction                                           (983,860)          (754,616)

  Total Budgetary Resources                                $	 106,013,097     $	 101,820,920

  Status of Budgetary Resources
  Obligations Incurred, Direct                             $	 101,255,783     $	    98,029,681
  Obligations Incurred, Reimbursable                                23,150              22,698
  	 Total Obligations Incurred (Note 13)                        101,278,933         98,052,379
  Unobligated Balance Apportioned                                  552,827             768,613
  Unobligated Balance Not Available                               4,181,337          2,999,928

  Total Status of Budgetary Resources                      $	 106,013,097     $	 101,820,920

  Change in Obligated Balances
  Net Obligated Balance, October 1
  	   Unpaid Obligations                                   $	 19,851,847      $	    24,931,530
  	   Uncollected customer payments from Federal sources          (175,595)            (22,806)
  Net Obligated Balance, October 1                               19,676,252         24,908,724

  Gross Obligations Incurred                                    101,278,933         98,052,379

  Gross Outlays                                            (100,258,569)           (96,211,945)

  Recoveries of Prior Year Unpaid Obligations                   (5,598,356)         (6,920,117)

  Change in Receivables from Federal sources                       175,595           (152,789)
                                                           $	 15,273,855      $	    19,676,252




100    CFTC
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Budgetary R esources
For the Years Ended September 30, 2006 and 2005

                                                                                                   2006                2005

  Net Obligated Balance, September 30

  	   Unpaid Obligations                                                                 $	 15,273,855     $	    19,851,847
  	   Uncollected customer payments from Federal sources                                               -          (175,595)
  	 Net Obligated Balance, September 30                                                     15,273,855           19,676,252

  Net Outlays
  Gross Outlays                                                                          $	 100,258,569    $	    96,211,945
  Offsetting Collections Received                                                            (208,371)             (69,394)
  Distributed Offsetting Receipts                                                                (5,499)            (9,474)

  Net Outlays                                                                            $	 100,044,699    $	    96,133,077
The accompanying notes are an integral part of these financial statements.




                                                                                                                CFTC    101
Commodity Futures Trading Commission

Statements of Financing
For the Years Ended September 30, 2006 and 2005

                                                                                                                       2005
                                                                                                  2006
                                                                                                               (As Restated)



  Resources Used to Finance Activities
  Budgetary Resources Obligated
  Obligations Incurred                                                                 $	101,278,933      $	     98,052,379
  Less: Spending Authority from Offsetting Collections and Recoveries                       (5,631,132)         (7,142,300)
  Obligations Net of Offsetting Collections and Recoveries                                  95,647,801           90,910,079
  Less: Offsetting Receipts                                                                     (5,499)              (9,474)
  Net Obligations After Offsetting Receipts                                                 95,642,302           90,900,605

  Other Resources
  Imputed Financing from Cost Absorbed by Others                                             3,930,110            4,330,593
  Total Resources Used to Finance Activities                                           $	 99,572,412      $	     95,231,198


  Resources Used to Finance Items Not Part of the Net Cost of Operations
  Offsetting Receipts                                                                  $	        5,499    $	          9,474
  Change in Budgetary Resources Obligated for Goods, Services, and Benefits Ordered
                                                                                             6,707,559            5,655,299
  	   But not yet Provided
  Resources that Finance the Net Acquisition of Fixed Assets                                (2,447,064)         (1,248,014)
  Resources that Fund Expenses Recognized in Prior Periods (Note 16)                         (465,635)            (353,810)
  Total Resources Used to Finance Items Not Part of the Net Cost of Operations         $	    3,800,359    $	      4,062,949

  Resources Used to Finance the Net Cost of Operations                                 $	103,372,771      $	     99,294,147


  Components of the Net Cost of Operations That Will not Require or Generate
  Resources in the Current Period
  Components Requiring or Generating Resources in Future Periods:
  Increase in Exchange Revenue Receivable from the Public                              $	             -   $	           (875)
  Increase in Unfunded Annual Leave and Contingent Liabilities                                  11,600              454,822
  Increase in Other Unfunded Liabilites - Deferred Leases                                      670,885              226,840
  Total Components of Net Cost of Operations that will Require or Generate Resources
                                                                                       $	      682,485    $	        680,787
   in Future Periods (Note 16)


  Components Not Requiring or Generating Resources
  Depreciation and Amortization                                                        $	      225,049    $	        134,562
  Revaluation of Assets or Liabilities                                                           6,133              (92,007)
  Other - Increase in Exchange Revenue Receivable from the Public                              (53,523)                    -
  Total Components of Net Cost of Operations that will Not Require or
                                                                                       $	      177,659    $	         42,555
   Generate Resources

  Net Cost of Operations                                                               $	104,232,915      $	 100,017,489
The accompanying notes are an integral part of these financial statements.




102    CFTC
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

Statements of Custodial Activity
For the Years Ended September 30, 2006 and 2005

                                                                                                    2006                2005



  Revenue Activity
  Sources      of   Cash Collections:
      	   Registration and Filing Fees                                                  $	     1,239,020    $	       742,133
  	       Fines, Penalties, and Forfeitures                                                   12,395,880          34,260,078
  	       General Proprietary Receipts                                                             5,499                9,474
  Total Cash Collections                                                                      13,640,399          35,011,685
  Change in Accounts Receivable (Primarily write-offs)                                       (22,907,240)         (6,739,094)
  Total Custodial Revenue                                                               $	    (9,266,841)   $	    28,272,591


  Disposition of Collections
  	       Transferred   to   Others,   by   Recipient:
  		 Treasury                                                                           $	   (13,640,399)   $	   (35,011,685)
  		 Change in Custodial Liabilities                                                          22,907,240           6,739,094

  Net Custodial Activity                                                                $	              -   $	              -
The accompanying notes are an integral part of these financial statements.




                                                                                                                 CFTC    103
Notes to the Financial Statements                              ments in the prescribed formats. All agency financial state-
As of and For the Fiscal Years Ended September                 ments and reports used to monitor and control budgetary
30, 2006 and 2005                                              resources are prepared from the same books and records.
Note 1. Reporting Entity                                       The statements should be read with the understanding
The Commodity Futures Trading Commission (CFTC)                that they are for a component of the U.S. Government, a
is an independent agency of the executive branch of the        sovereign entity.
Federal Government. Congress created the CFTC in 1974
                                                               	     The Balance Sheets present the financial position
under the authorization of the Commodity Exchange Act
                                                               of the agency. The Statements of Net Cost present the
(CEA) with the mandate to regulate commodity futures
                                                               agency’s operating results; the Statements of Changes in
and option markets in the United States. The agency’s
                                                               Net Position display the changes in the agency’s equity
mandate was renewed and expanded under the Futures
                                                               accounts. The Statements of Budgetary Resources pres-
Trading Acts of 1978, 1982, and 1986; under the Fu-
                                                               ent the sources, status, and uses of the agency’s resources
tures Trading Practices Act of 1992; and under the CFTC
                                                               and follows the rules for the Budget of the United States
Reauthorization Act of 1995. The Commodity Futures
                                                               Government. The Statements of Financing present the
Modernization Act of 2000 reauthorized the Commission.
                                                               reconciliation of the agency’s use of budgetary resources
Since its inception, the CFTC has continuously operated
                                                               with its operating results. The Statements of Custodial
through authorized appropriations.
                                                               Activity present the sources and disposition of collections
	     The CFTC is responsible for ensuring the economic        for which the CFTC is the fiscal agent, or custodian, for the
utility of futures markets by encouraging their competi-       Treasury General Fund Miscellaneous Receipt accounts.
tiveness and efficiency, ensuring their integrity, and pro-
                                                               	     Throughout these financial statements, intragovern-
tecting market participants against manipulation, abusive
                                                               mental assets, liabilities, earned revenue, and costs have
trade practices, and fraud.
                                                               been classified according to the type of entity with whom
                                                               the transactions were made. Intragovernmental assets
Note 2. Summary of Significant                                 and liabilities are those from or to other federal entities.
Accounting Policies                                            Intragovernmental earned revenue represents collections
                                                               or accruals of revenue from other federal entities, and
A. Basis of Presentation
                                                               intragovernmental costs are payments or accruals to other
The financial statements have been prepared to report the
                                                               federal entities.
financial position and results of operations for the CFTC,
as required by the Chief Financial Officers’ Act of 1990       B. Budgetary Resources and Status
along with the Accountability of Tax Dollars Act of 2002,      The CFTC is funded through Congressionally approved
and the Government Management Reform Act of 1994.              appropriations. The CFTC is responsible for administering
They are presented in accordance with the form and con-        the salaries and expenses of the agency through the execu-
tent requirements contained in Office of Management and        tion of these appropriations.
Budget (OMB) Circular No. A-136, “Financial Reporting
                                                               Congress annually enacts one-year appropriations that
Requirements.”
                                                               provide the CFTC with the authority to obligate funds
	     The financial statements have been prepared from the     within the respective fiscal year for necessary expenses to
agency’s books and records in conformity with U.S. gener-      carry out mandated program activities. In addition, Con-
ally accepted accounting principles, as prescribed for the     gress enacted a permanent indefinite appropriation that is
federal government by the Federal Accounting Standards         available until expended. All appropriations are subject to
Advisory Board (FASAB).                                        quarterly apportionment as well as Congressional restric-
	     The financial statements report on the CFTC’s            tions.
financial position, net cost of operations, changes in net     The CFTC’s budgetary resources for FY 2006 consist of:
position, budgetary resources, financing, and custodial
                                                               •	 Unobligated balances of resources brought forward
activities. The books and records of the agency served as
                                                                   from the prior year,
the source of information for preparing the financial state-



104     CFTC
                                                                       FINANCIAL SECTION




•	 Recoveries of obligations in prior years, and                F. Property, Equipment, and Software
                                                                Property, equipment, and software represents furniture,
•	 New resources in the form of appropriations and spend-
                                                                fixtures, equipment, and information technology hard-
    ing authority from offsetting collections.
                                                                ware and software, which are capitalized and depreciated
	     Unobligated balances associated with resources
                                                                or amortized over their useful lives.
expiring at the end of the fiscal year remain available for
                                                                	     The CFTC capitalizes assets annually if they have
five years after expiration only for upward adjustments of
                                                                useful lives of at least two years and an individual value of
prior year obligations, after which they are canceled and
                                                                $25,000 or more. Bulk or aggregate purchases are capital-
may not be used. All unused monies related to canceled
                                                                ized when the individual useful lives are at least two years
appropriations are returned to Treasury and the canceled
                                                                and a value of $25,000 or more. Property, equipment, and
authority is reported as a line item on the Statements of
                                                                software that does not meet the capitalization criteria are
Budgetary Resources and the Statements of Changes in
                                                                expensed when acquired. Depreciation and amortization
Net Position.
                                                                is computed on a straight-line basis using a 5-year life.
C. Entity and Non-Entity Assets                                 The Commission’s assets are valued net of accumulated
Assets consist of entity and non-entity assets. Entity assets   depreciation. (See Note 5.)
are those assets that the CFTC has authority to use for its
                                                                G. Prepayments
operations. Non-entity assets are those held by the CFTC
                                                                Payments in advance of the receipt of goods and services
that are not available for use in its operations. Non-entity
                                                                are recorded as prepayments, and recognized as expenses
assets held by the CFTC include deposit fund balances,
                                                                when the related goods and services are received. Prepay-
custodial fines, and interest receivable, net.
                                                                ments reported on the Balance Sheet were made primarily
D. Fund Balance with Treasury                                   to the Department of Transportation (DOT) for imple-
Fund Balance with Treasury is the aggregate amount of the       mentation of the Delphi Financial System in 2007.
CFTC’s funds with Treasury in expenditure, receipt, and
                                                                H. Liabilities
deposit fund accounts. Appropriated funds recorded in
                                                                The CFTC’s liabilities consist of actual and estimated
expenditure accounts are available to pay current liabilities
                                                                amounts that are likely to be paid as a result of transac-
and finance authorized purchases. Custodial collections
                                                                tions covered by budgetary resources for which Congress
recorded in the deposit fund account and miscellaneous
                                                                has appropriated funds or funding, or are otherwise avail-
receipts accounts of the Treasury are not available for
                                                                able from reimbursable transactions to pay amounts due.
agency use. At fiscal year end, receipt account balances are
cleared and returned to Treasury.                               	     Liabilities include those covered by budgetary re-
                                                                sources in existing legislation and those not yet covered by
	     The CFTC does not maintain bank accounts of its
                                                                budgetary resources (See Note 6). The CFTC liabilities not
own, has no disbursing authority, and does not maintain
                                                                covered by budgetary resources include:
cash held outside of Treasury. Treasury disburses funds for
the agency on demand. Spending authority from offsetting        •	 Annual leave benefits which will be funded by annual
collections is recorded in the agency’s expenditure account         appropriations as leave is taken,
and is available for agency use subject to certain limita-      •	 Actuarial Federal Employees Compensation Act (FECA)
tions. (See Note 3.)                                                liabilities,

E. Accounts Receivable                                          •	 Custodial liabilities for custodial revenue transferred to
Accounts receivable consists of amounts owed by other               Treasury at fiscal year end,
federal agencies and the public to the CFTC and is valued       •	 Contingent liabilities,
net of an allowance for uncollectible amounts. The al-
                                                                •	 Deposit funds, and
lowance is based on past experience in the collection
of receivables and analysis of the outstanding balances.        •	 Other- Deferred Lease Liabilities.
Accounts receivable arise from reimbursable operations,
earned refunds or the Civil Monetary Sanctions program.
(See Note 4.)

                                                                                                               CFTC         105
The CFTC’s liabilities that are covered by budgetary re-      M. Net Position
sources are considered current liabilities.                   Net position consists of unexpended appropriations and
                                                              cumulative results of operations.
I. Accounts Payable
                                                              	     Unexpended appropriations are appropriations that
Accounts payable consists primarily of contracts for goods
                                                              have not yet been used to acquire goods and services or
or services, such as leases, utilities, telecommunications,
                                                              provide benefits. Appropriations are considered expended,
and consulting and support services.
                                                              or used, when goods and services have been acquired by
J. Accrued Payroll and Benefits and Annual Leave              the CFTC or benefits have been provided using the ap-
Liability                                                     propriation authority, regardless of whether monies have
The accrued payroll liability represents amounts for sala-    been paid or payables for the goods, services, or benefits
ries and benefits owed for the time since the payroll was     have been established. Appropriations were used primar-
last paid through the end of the fiscal year. The annual      ily to acquire goods and services to operate the CFTC’s
leave liability is the amount owed employees for unused       programs or to provide benefits.
annual leave as of the end of the fiscal year. At the end
                                                              	     Cumulative results of operations represent the excess
of each quarter, the balance in the accrued annual leave
                                                              of financing sources over expenses since inception. Cumu-
account is adjusted to reflect current balances and pay
                                                              lative results of operations are derived from the net effect
rates. Sick leave and other types of non-vested leave are
                                                              of capitalized assets, expenses, exchange revenue, and
expensed as taken.
                                                              unfunded liabilities.
	     The agency’s employees participate in the Civil Ser-
                                                              N. Earmarked Funds
vice Retirement System (CSRS) or the Federal Employees’
                                                              As of September 30, 2006, the CFTC’s financing sources
Retirement System (FERS). On January 1, 1987, FERS went
                                                              did not have any earmarked funds. Earmarked funds were
into effect pursuant to Public Law 99-335. Most employ-
                                                              not received by the agency for designated activities, ben-
ees hired after December 31, 1983, are automatically cov-
                                                              efits or purposes as specifically required by statute.
ered by FERS and Social Security. Employees hired prior to
January 1, 1984, could elect to either join FERS and Social   O. Revenues
Security or remain in CSRS.                                   The CFTC receives reimbursement and earns revenue for
	     For employees under FERS, the CFTC contributes          the following activities:
an amount equal to one percent of the employee’s basic        •	 Reimbursement for travel, subsistence, and related ex-
pay to the tax deferred Thrift Savings Plan and matches           penses from non-federal sources for attendance at meet-
employee contributions up to an additional four percent           ings or similar functions that an employee has been
of pay. FERS and CSRS employees can contribute a portion          authorized to attend in an official capacity on behalf of
their gross earnings to the plan up to IRS limits; however,       the Commission.
CSRS employee receive no matching agency contribution.
                                                              •	 Reimbursement for Intergovernmental Personnel Act
K. Leases                                                         Mobility Program assignments from state and local gov-
The CFTC does not have any capital lease liabilities. The         ernments, institutions of higher education, and other
operating leases consist of commercial property leases            eligible organizations for basic pay, supplemental pay,
for the CFTC’s headquarters and regional offices. Lease           fringe benefits, and travel and relocation expenses.
expenses are recognized on a straight-line basis.             •	 Reimbursement from non-federal sources for registra-
                                                                  tion fees to cover the cost of expenses related to the
L. Deposit Funds
                                                                  CFTC's annual International Regulators Conference.
Deposit funds are expenditure accounts used to record
monies that do not belong to the Federal government.          P. Net Cost of Operations
They are held awaiting distribution based on a legal          Net cost of operations is the difference between the CFTC’s
determination or investigation. The CFTC deposit fund is      expenses and its earned revenue. The presentation of
used to record and later distribute monetary awards to the    program results by strategic goals is based on the CFTC’s
appropriate defendants as restitution.


106     CFTC
                                                                       FINANCIAL SECTION




current Strategic Plan established pursuant to the Govern-        	    The costs of the Federal Government are not always
ment Performance and Results Act of 1993.                         funded in the period the costs are incurred. Components
                                                                  Requiring or Generating Resources in Future Periods
	     The mission statement of the CFTC is to protect
                                                                  identifies items that are recognized as a component of the
market users and the public from fraud, manipulation,
                                                                  net cost of operations for the period but the budgetary
and abusive practices related to the sale of commodity and
                                                                  resources (and related obligation) will not be provided (or
financial futures and options, and to foster open, competi-
                                                                  incurred) until a subsequent period (e.g., an increase to
tive, and financially sound futures and option markets.
                                                                  the annual leave liability).
The mission is accomplished through three strategic goals,
each focusing on a vital area of regulatory responsibility:       	    Components Not Requiring or Generating Resources
                                                                  includes items recognized as part of the net cost of opera-
•	 Ensure the economic vitality of the commodity futures
                                                                  tions for the period but will not generate or require the
    and option markets.
                                                                  use of resources, such as depreciation expense.
•	 Protect market users and the public.
                                                                  	    Net Cost of Operations is the sum of the line items
•	 Ensure market integrity in order to foster open, com-
                                                                  Total Resources Used to Finance Net Cost of Operations
    petitive, and financially sound markets.
                                                                  and Total Components of Net Cost of Operations that will

Q. Reconciliation of Net Obligations and Net Cost of              not Require or Generate Resources in the Current Period.

Operations                                                        This line item agrees with the Net Cost of Operations as

The Statements of Financing reconcile the net obliga-             reported on the Statements of Net Cost.

tions with the net cost of operations. On the Statements
                                                                  R. Custodial Activity
of Budgetary Resources, net obligations are calculated by
                                                                  The CFTC collects penalties and fines levied against
subtracting downward adjustments of prior-period obliga-
                                                                  firms for violation of laws as described in the Commod-
tions and offsetting collections from gross obligations.
                                                                  ity Exchange Act as codified at 7 U.S.C. § 1, et seq, and
The net cost of operations, reported on the Statements of
                                                                  the Commodities Futures Modernization Act of 2000,
Net Cost represents the difference between gross costs and
                                                                  Appendix E of P.L. 106-554, 114 Stat. 2763. Unpaid fines,
earned revenue.
                                                                  penalties and accrued interest are reported as custodial
	     Resources Used to Finance Activities reflects the           receivables, with an associated custodial liability. The
budgetary resources obligated and other resources used to         receivables and the liability are reduced amounts deter-
finance the activities of the agency. The obligations of bud-     mined to be uncollectible. Revenues earned and the losses
getary resources are net of offsetting collections, recoveries,   from bad debts are reported to Treasury.
and offsetting receipts. The other resources are financing
                                                                  	    Collections made by the CFTC during the year are
sources that increase net position but are not budgetary
                                                                  deposited and reported into designated Treasury miscel-
resources.
                                                                  laneous receipt accounts for:
	     Resources Used to Finance Items Not Part of the Net
                                                                  •	 Registrations and filing fees,
Cost of Operations adjusts total resources used to finance
                                                                  •	 Fees, fines, penalties and forfeitures, and
the activities of the entity to account for items that were
included in net obligations and other resources but were          •	 General miscellaneous recoveries and refunds.
not part of the net cost of operations. This section includes     	    At fiscal year end, custodial collections made by the
items in which the expense was recognized in a prior              CFTC are returned to Treasury. The CFTC does not retain
period but the budgetary resource and obligation are rec-         any amount for custodial activities including reimburse-
ognized in the current period (e.g., changes in the balance       ment of the cost of collection.
for undelivered orders, or decreases in unfunded liabili-
ties). It also includes budgetary resources and obligations
recognized in the current period that do not affect the net
cost of operations (e.g., the acquisition of assets reflected
in net obligations but not in net cost of operations for the
period).

                                                                                                                   CFTC      107
S. Use of Management Estimates
The preparation of the accompanying financial state-
ments in accordance with accounting principles gener-
ally accepted in the United States of America requires
management to make certain estimates and assumptions
that directly affect the results of reported assets, liabilities,
revenues, and expenses. Actual results could differ from
these estimates.

T. Tax Status
The CFTC is not subject to Federal, state or local income
taxes. Accordingly, no provision for income taxes is re-
corded.




108       CFTC
                                                                           FINANCIAL SECTION




Note 3. Fund Balance with Treasury
A. Reconciliation to Treasury
There are no differences between the Fund Balance reflected in the CFTC Balance Sheets and the balance in the Treasury
accounts.

B. Fund Balance with Treasury
Fund Balances with Treasury consist of entity assets such as appropriations and reimbursements for services rendered.
Obligation of these funds is controlled by quarterly apportionments made by the OMB. Work performed under reim-
bursable agreements is initially financed by the annual appropriation and is subsequently reimbursed. Other funds
include non-entity deposit fund receipts.

Fund Balance with Treasury at September 30, 2006 and 2005 consisted of the following:
                                                                                                        2006                  2005
    Appropriated Funds                                                                      $	    20,008,020    $	    23,444,793
        	    Other Funds:
    	        Deposit Fund                                                                              47,488            20,094

                                                                                            $	    20,055,508    $	    23,464,887


C. Status of Fund Balance with Treasury
Status of Fund Balance with Treasury at September 30, 2006 and 2005 consisted of the following:
                                                                                                        2006                  2005
    Appropriated Funds
        Unobligated Fund Balance
    	        Available                                                                      $	         42,385   $	      756,075
    	        Expired                                                                                 510,443             12,538
    	        Unavailable                                                                            4,181,337          2,999,928
    Obligated Balance Not Yet Disbursed                                                           15,273,855          19,676,252

    Deposit Fund                                                                                       47,488            20,094

    Total Fund Balance with Treasury                                                        $	    20,055,508    $	    23,464,887



Note 4. Accounts Receivable
Accounts receivable consist of amounts owed to the CFTC by other Federal agencies and the public. Accounts receivable
are valued net of estimated uncollectibles. Non-custodial accounts receivable are primarily for overpayments of expenses
to other agencies, or vendors, and repayment of employee benefits. Historical experience has indicated that most of the
non-custodial receivables are collectable and there are no material uncollectible amounts.

	           Custodial receivables (non-entity assets) are those for which fines and penalties have been assessed and levied
against businesses for violation of law. The CFTC litigates against defendants for alleged violations of the CEA, as
amended. Violators may be subject to a variety of sanctions including fines, injunctive orders, bars or suspensions,
rescissions of illegal contracts, disgorgements, and restitutions to customers.

	           Historical experience has indicated that a high percentage of custodial receivables prove uncollectible. The method-
ology used to estimate the allowance for uncollectible amounts related to custodial accounts is that custodial receivables
are considered 100% uncollectible unless otherwise noted in the judgment. An allowance for uncollectible accounts has
been established and included in accounts receivable on the balance sheets. The allowance is based on past experience
in the collection of accounts receivable and analysis of outstanding balances. Accounts are reestimated quarterly based
on account reviews and the agency determination that changes to the net realizable value are needed.


                                                                                                                     CFTC      109
Accounts receivable, as of September 30, 2006 and 2005, consisted of the following:
                                                                                                              2006                  2005
  Intragovernmental Accounts Receivable                                                       $	                   -   $	        175,595
  Custodial Fines and Interest Receivable, Net:
  	   Civil Monetary Penalty Interest                                                         $	         9,438,316     $	       2,501,590
  	   Civil Monetary Penalties, Fines, and Administrative Fees                                      530,489,941              328,168,373
  	   Less: Allowance for Loss on Interest                                                              (9,421,924)           (2,290,056)
  	   Less: Allowance for Loss on Penalties, Fines, and Administrative Fees                        (524,749,728)            (299,716,062)
  	   Net Custodial                                                                           $	         5,756,605     $	     28,663,845
  Other Accounts Receivable                                                                   $	            63,855     $	         10,332




Note 5. Property, Equipment, and Software, Net
Assets are capitalized annually if they have useful lives of at least two years and an individual value of $25,000 or more.
Bulk or aggregate purchases are capitalized when the individual useful lives are at least two years and a value of $25,000
or more. Depreciation and amortization is computed on a straight-line basis using a 5-year life. The CFTC did not defer
any maintenance in FY 2006 or FY 2005. Property and Equipment as of September 30, 2006 and 2005 consisted of the
following:
  2006                                                                                             Accumulated
                                                                                                   Amortization/
  Major Class                                     Service Life and Method             Cost         Depreciation         Net Book Value

  Equipment                                       5 Years/Straight Line       $	     1,146,835     $	     (334,735)     $	       812,100
  IT Software                                     5 Years/Straight Line              2,966,169            (103,776)            2,862,393

                                                                               $	 4,113,004        $	     (438,511)     $	     3,674,493



  2005                                                                                             Accumulated
                                                                                                   Amortization/
  Major Class                                     Service Life and Method             Cost         Depreciation         Net Book Value

  Equipment                                       5 Years/Straight Line       $	       562,894     $	     (176,878)     $	       386,016
  IT Software                                     5 Years/Straight Line              1,580,271             (46,637)            1,533,634

                                                                                   $	 2,143,165     $	 (223,515)            $	 1,919,650




Note 6. Liabilities Not Covered by Budgetary Resources
As of September 30, 2006 and 2005, the following liabilities not covered by budgetary resources exist:
                                                                                                              2006                  2005
  Intragovernmental - FECA Liabilities                                                        $	            29,484     $	        138,496
  Annual Leave                                                                                           5,083,005              5,230,125
  Actuarial FECA Liabilities                                                                               281,801               491,304
  Custodial Liabilities                                                                                  5,756,605            28,663,845
  Contingent Liabilities                                                                                    11,600                         -
  Deposit Fund Liabilities                                                                                  47,488                20,094
  Other - Deferred Lease Liabilities                                                                     2,837,403              2,166,518

  Total Liabilities Not Covered by Budgetary Resources                                        $	        14,047,386     $	     36,710,382




110      CFTC
                                                                      FINANCIAL SECTION




Note 7. Retirement Plans and Other Employee Benefits
The CFTC imputes costs and the related financing sources for its share of retirement systems accruing to its past and
present employees which are in excess of the amount of contributions from the CFTC and its employees, which are
mandated by law. The Office of Personnel Management (OPM), which administers federal civilian retirement programs,
provides the cost information to the CFTC. The CFTC recognizes the full cost of providing future pension and Other
Retirement Benefits (ORB) for current employees as required by Statement of Federal Financial Accounting Statement
(SFFAS) No. 5, “Accounting for Liabilities of the Federal Government.”

	   Full costs include pension and ORB contributions paid out of the CFTC’s appropriations and costs financed by
OPM. The amount financed by OPM is recognized as an imputed financing source. Reporting amounts such as plan as-
sets, accumulated plan benefits, or unfunded liabilities, if any, is the responsibility of OPM.

	   Liabilities for future pension payments and other future payments for retired employees who participate in the Fed-
eral Employees Health Benefits Program and the Federal Employees Group Life Insurance Program are reported by OPM
rather than the CFTC.



Note 8. Actuarial FECA Liabilities
FECA provides income and medical cost protections to covered federal civilian employees injured on the job, to employ-
ees who have incurred work-related occupational diseases and to beneficiaries of employees whose deaths are attribut-
able to job-related injuries or occupational diseases. The FECA program is administered by the U.S. Department of
Labor (DOL), which pays valid claims against the CFTC and subsequently seeks reimbursement from the CFTC for these
paid claims. Accrued FECA liabilities represent amounts due to DOL for claims paid on behalf of the agency.

	   Actuarial FECA liability represents the liability for future workers compensation (FWC) benefits, which includes the
expected liability for death, disability, medical, and miscellaneous cost for approved cases. The liability is determined
using a formula provided by DOL annually as of September 30th using a method that utilizes historical benefits pay-
ment patterns related to a specific incurred period to predict the ultimate payments related to that period. The projected
annual benefits payments are discounted to present value using OMB’s economic assumptions for ten-year Treasury
notes and bonds. To provide more specifically for effects of inflations on liability for FWC benefits, wage inflation factors
(Consumer Price Index-Medical) are applied to the calculation of projected future benefits. These factors are also used to
adjust historical payment so benefits are stated in current-year constant dollars.




                                                                                                              CFTC       111
Note 9. Leases
The CFTC leases office space in publicly owned buildings for its locations in Washington D.C., Chicago, New York, Min-
neapolis, and Kansas City. The lease contracts for publicly-owned buildings are operating leases. The CFTC has no real
property. Future estimated lease payments are not accrued as liabilities and are expensed on a straight-line basis.

As of September 30, 2006, future estimated minimum lease payments through FY 2011, and thereafter, is as follows:
    Fiscal Year                                                                                                        Dollars
    2007                                                                                                     $	 10,400,699
    2008                                                                                                           10,608,221
    2009                                                                                                           10,801,166
    2010                                                                                                           10,970,312
    2011                                                                                                           11,268,766
    Thereafter                                                                                                     34,636,011
    Total Minimum lease payments                                                                                   88,685,175
    Add: Amount representing estimated executory costs (such as taxes, maintenance, and insurance)                 16,557,028

    Total minimum lease payments, including estimated executory costs                                            $	105,242,203

	     Lease expense is recognized on a straight-line basis. Because the lease payment amounts vary, and in some cases,
CFTC received periods of up-front free rent, a deferred lease liability representing expense amounts in excess of pay-
ments to date, has been recorded. The deferred lease liabilities at September 30, 2006 and September 30, 2005 were
$2,837,403 and $2,166,518, respectively.



Note 10. Contingent Liabilities
The CFTC records commitments and contingent liabilities for legal cases in which payment has been deemed probable
and for which the amount of potential liability has been estimated, including certain judgments that have been issued
against the agency and which have been appealed. In FY 2006, the Office of General Counsel signed an agreement on
behalf of the CFTC to pay $11,600 in attorney fees for an Equal Employment Opportunity complaint and a contingent
liability was established.



Note 11. Undelivered Orders
The amount of budgetary resources obligated for undelivered orders as of September 30, 2006 and 2005 consisted of the
following:
                                                                                                     2006                2005
    Undelivered Orders                                                                  $	      8,599,488   $	     15,307,047




112        CFTC
                                                                                 FINANCIAL SECTION




Note 12. Restatement of FY 2005 Financial Statements
During FY 2006, the CFTC corrected its accounting for lease expenses. The CFTC previously recorded its lease expense
in the period in which the actual payments were made, rather than on a straight-line basis, as required. As a result, the
CFTC has restated its FY 2005 financial statements. Additionally, the CFTC recorded reductions to FY 2005 expenses for
transactions that should have been recorded as expenses in FY 2004. The effects of the restatements on CFTC’s 2005
financial statements are as follows:
                                                                      September 30, 2005          2005                    September 30, 2005
  FY 2005 Restatement                                                 As Reported                 Adjustment              As Restated

 Balance Sheet
  Other - Deferred Lease Liabilities                                $	                        - $	 2,166,518       (A) $	          2,166,518
  Total Liabilities                                                 $	           39,088,664 $	 2,166,518           (A) $	        41,255,182

  Cumulative Results of Operations                                  $	           (3,939,565) $	(2,166,518)         (A) $	        (6,106,083)
  Unexpended Appropriations                                         $	           19,085,210 $	                 -         $	      19,085,210

  Total Net Position                                                $	           15,145,645 $	(2,166,518)          (A) $	        12,979,127

 Statement of Net Cost
  Goal 1:
  Gross Costs with the Public                                       $	           28,301,068 $	 (172,270)           (B)
                                                                                                 $	       77,126   (A) $	        28,205,924
  Net Cost of Operations with the Public                            $	           28,297,237 $	 (172,270)           (B)
                                                                                                 $	       77,126   (A) $	        28,202,093
  Net Cost of Operations - Goal One                                 $	           34,101,090 $	 (172,270)           (B)
                                                                                                 $	       77,126   (A) $	        34,005,946
  Goal 2:
  Gross Costs with the Public                                       $	           33,295,374 $	 (202,670)           (B)
                                                                                                 $	       90,736   (A) $	        33,183,440
  Net Cost of Operations with the Public                            $	           33,290,867 $	 (202,670)           (B)
                                                                                                 $	       90,736   (A) $	        33,178,933
  Net Cost of Operations - Goal Two                                 $	           40,118,930 $	 (202,670)           (B)
                                                                                                 $	       90,736   (A) $	        40,006,996
  Goal 3:
  Gross Costs with the Public                                       $	           21,641,993 $	 (131,735)           (B)
                                                                                                 $	       58,978   (A) $	        21,569,236
  Net Cost of Operations with the Public                            $	           21,639,064 $	 (131,735)           (B)
                                                                                                 $	       58,978   (A) $	        21,566,307
  Net Cost of Operations - Goal Three                               $	           26,077,304 $	 (131,735)           (B)
                                                                                                 $	       58,978   (A) $	        26,004,547
  Grand Total:
  Gross Costs with the Public                                       $	           83,238,435 $	 (506,675)           (B)
                                                                                                 $	      226,840   (A) $	        82,958,600
  Net Cost of Operations with the Public                            $	           83,227,168 $	 (506,675)           (B)
                                                                                                 $	      226,840   (A) $	        82,947,333
  Total Net Cost of Operations                                      $	          100,297,324 $	 (506,675)           (B)
                                                                                                 $	      226,840   (A) $	       100,017,489

  (A) To record lease expense on a straight-line basis and record a resulting deferred lease liability
  (B) To reduce FY 2005 expenses for transactions that should have been recorded as expenses in FY 2004


                                                                                                                               CFTC      113
                                                                   September 30, 2005         2005                        September 30, 2005
 FY 2005 Restatement                                               As Reported                Adjustment                  As Restated

Statement of Changes in Net Position
Cumulative Results of Operations:
 	    Beginning Balance, October 1                                $	        (5,199,126) $	                     -         $	     (5,199,126)
 	    Adjustments - Correction of errors                          $	                     - $	           154,404    (B)   $	                -
                                                                  $	                     - $	     (1,939,678)      (A)   $	     (1,785,274)
 Beginning Balance, as adjusted                                   $	        (5,199,126) $	        (1,785,274)            $	     (6,984,400)
 	    Appropriations Used                                         $	         97,226,292 $	          (661,079)      (B)   $	      96,565,213
 	    Net Cost of Operations                                      $	     (100,297,324) $	               506,675    (B)
                                                                                            $	      (226,840)      (A)   $	   (100,017,489)
 	    Net Change in Cumulative Results of Operations              $	          1,259,561 $	              506,675    (B)
                                                                                            $	      (226,840)      (A)
                                                                                            $	      (661,079)      (B)   $	         878,317
 Ending Cumulative Results of Operations                          $	        (3,939,565) $	        (2,166,518)            $	     (6,106,083)
 	    Unexpended Appropriations:
 	    Beginning Balance, October 1                                $	         23,028,385 $	                     -         $	      23,028,385
 	    Adjustments - Correction of errors                          $	                     - $	       (661,079)      (B)   $	       (661,079)
 	    Beginning Balance, as adjusted                              $	         23,028,385 $	          (661,079)            $	      22,367,306

 	    Appropriations Used                                         $	       (97,226,292) $	              661,079    (B)   $	    (96,565,213)
 	    Total Budgetary Financing Sources                           $	        (3,943,175) $	              661,079    (B)   $	     (3,282,096)
 Ending Unexpended Appropriations                                 $	         19,085,210 $	                     -         $	      19,085,210

Statement of Financing
 Resources Used    to   Finance Items Not Part   of   Net Cost:
 	    Change in Undelivered Orders                                $	          6,316,378 $	          (661,079)      (B)   $	       5,655,299
 	    Net Acquisition of Assets                                   $	        (1,472,567) $	              224,553    (B)   $	     (1,248,014)
 	    Resources that Fund Expenses Recognized in Prior            $	                     - $	       (353,810)      (C)   $	       (353,810)
 	    Periods
 Total Resources Used to Finance Items Not Part of                $	          4,853,285 $	          (436,526)      (B)
  Net Cost
                                                                                            $	      (353,810)      (C)   $	       4,062,949
 Resources Used to Finance Net Cost of Operations                 $	       100,084,483 $	           (436,526)      (B)
                                                                                            $	      (353,810)      (C)   $	      99,294,147
 Components of the Net Cost of Operations that will
 not Require or Generate Resources in the Current
 Period:
 	    Increase in Unfunded Annual Leave, FECA                     $	            171,161 $	              (70,149)   (B)
 	    Expenses, and Contingent Liabilities
                                                                                            $	          353,810    (C)   $	         454,822
 	    Increase in Other Unfunded Liabilities - Deferred           $	                     - $	           226,840    (A)   $	         226,840
 	    Leases
 Total Components of Net Cost of Operations that                  $	            170,286 $	              (70,149)   (B)
  will Require or Generate Resources in Future
                                                                                            $	          226,840    (A)
  Periods
                                                                                            $	          353,810    (C)   $	         680,787
 Net Cost of Operations                                           $	       101,297,324 $	           (506,675)      (B)
                                                                                            $	          226,840    (A)   $	    100,017,489
 (A) To record lease expense on a straight-line basis and record a resulting deferred lease liability
 (B) To reduce FY 2005 expenses for transactions that should have been recorded as expenses in FY 2004
 (C) To reclassify amounts to conform with FY 2006 presentation


114    CFTC
                                                                   FINANCIAL SECTION




Note 13. Apportionment Categories of Obligations Incurred
Obligations incurred and reported in the Statements of Budgetary Resources in 2006 and 2005 consisted of
the following:
                                                                                               2006                2005
  Direct Obligations, Category A                                                   $	   101,255,783   $	    98,029,681
  Reimbursable Obligations, Category A                                                       23,150               22,698

  Total Obligations Incurred                                                       $	   101,278,933   $	    98,052,379




Note 14. Permanent Indefinite Appropriations
The CFTC’s permanent indefinite appropriation funds emergency expenses to respond to the terrorist attacks on the
United States that occurred on September 11, 2001 as authorized by Public Law 107-38. The fund provides support to
deal with consequences of the attacks and support national security.



Note 15. Explanation of Differences Between the Statement of Budgetary Resources
and the Budget of the United States Government
The CFTC had no material differences between the amounts reported in the Statement of Budgetary Resources and the
actual amounts reported in the Budget of the U.S. Government for FY 2005, except for the restated amounts. The Budget
of the U.S. Government with actual numbers for FY 2006 has not yet been published. The expected published date is
February 2007. A copy of the Budget can be obtained from OMB’s Internet site at http://www.whitehouse.gov/omb/.




                                                                                                           CFTC     115
Note 16. Explanation of Differences Between Liabilities Not Covered by Budgetary
Resources and Components Requiring or Generating Resources in Future Periods
Liabilities that are not by realized budgetary resources and for which there is not certainty that budgetary authority will
be realized, such as enactment of an appropriation, are considered liabilities not covered by budgetary resources. These
liabilities totaling $14,047,386 and $36,710,382 on September 30, 2006 and 2005, respectively, are discussed in Note
6, Liabilities Not Covered by Budgetary Resources. Deposit and custodial liabilities are non-entity liabilities and do not
affect the Statement of Budgetary Resources or the Statement of Financing. For the remaining liabilities that are not
covered by budgetary resources: (1) decreases in liabilities result from current year budgetary resources that are used to
fund expenses recognized in prior periods, and (2) increases in liabilities represent unfunded expenses recognized in the
current period. These increases represent components of current period net cost of operations that will require or gener-
ate resources in future periods. The changes in CFTC’s entity liabilities not covered by budgetary resources are comprised
of the following:
                                                                                             2006                2005
  Components Requiring     or   Generating Resources    in   Future Periods:
  	   Increase in Exchange Revenue Receivable from the Public                   $	               -   $	          (875)
  	   Increase in Annual Leave                                                                   -            454,822
  	   Increase in Contingent Liabilities                                                   11,600                     -
  	   Increase in Other Unfunded Liabilities-Deferred Lease Liabilities                   670,885             226,840

  Total Components Requiring or Generating                                      $	        682,485    $	       680,787
  Resources in Future Periods

  Resources   that   Fund Expenses Recognized   in   Prior Periods:
  	   Decrease in Annual Leave                                                  $	        147,120    $	               -
  	   Decrease in FECA Liabilities                                                        318,515             113,340
  	   Decrease in Contingent Liability                                                           -            240,470

  Total Resources that Fund Expenses Recognized                                 $	        465,635    $	       353,810
  in Prior Periods




116    CFTC
A Report of the Independent Auditors




                                 CFTC   117
                                           KPMG LLP
                                           2001 M Street, NW
                                           Washington, DC 20036




                                                 Independent Auditors’ Report


             Chairman and Inspector General of the
             U.S. Commodity Futures Trading Commission:

             We have audited the accompanying balance sheets of the U.S. Commodity Futures Trading
             Commission (CFTC) as of September 30, 2006 and 2005, and the related statements of net cost,
             changes in net position, budgetary resources, financing, and custodial activity (hereinafter
             referred to as “financial statements”) for the years then ended. The objective of our audits was to
             express an opinion on the fair presentation of these financial statements. In connection with our
             fiscal year 2006 audit, we also considered CFTC’s internal controls over financial reporting and
             performance measures, and tested CFTC’s compliance with certain provisions of applicable laws,
             regulations, and contracts that could have a direct and material effect on these financial
             statements.

             SUMMARY

             As stated in our opinion on the financial statements, we concluded that CFTC’s financial
             statements as of and for the years ended September 30, 2006 and 2005, are presented fairly, in all
             material respects, in conformity with U.S. generally accepted accounting principles.

             During 2006, CFTC restated certain 2005 financial statement amounts, as discussed in the
             opinion section below.

             Our consideration of internal controls over financial reporting and performance measures resulted
             in the following conditions being identified as reportable conditions:

                x   Improvement is Needed over Financial Reporting;

                x   Financial Management Systems Need Improvement;

                x   Improvement is Needed in the Fixed Asset System; and

                x   Improvement is Needed in Evaluating Undelivered Orders and Recording Budgetary
                    Transactions

             We consider the first reportable condition, above, to be a material weakness.

             The results of our tests of compliance with certain provisions of laws, regulations, and contracts
             disclosed the following instances of noncompliance or other matters that are required to be
             reported under Government Auditing Standards, issued by the Comptroller General of the United
             States, and Office of Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements
             for Federal Financial Statements:




                                            KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                            member firm of KPMG International, a Swiss cooperative.




118   CFTC
                                                            FINANCIAL SECTION




        x   Federal Information Security Management Act (FISMA); and

        x   Federal Financial Management Improvement Act of 1996 (FFMIA).

The following sections discuss our opinion on CFTC’s financial statements; our consideration of CFTC’s
internal controls over financial reporting and performance measures; our tests of CFTC’s compliance with
certain provisions of applicable laws, regulations, and contracts; and management’s and our
responsibilities.

OPINION ON THE FINANCIAL STATEMENTS

We have audited the accompanying balance sheets of the U.S. Commodity Futures Trading Commission as
of September 30, 2006 and 2005, and the related statements of net cost, changes in net position, budgetary
resources, financing, and custodial activity for the years then ended.

As discussed in Note 12 to the financial statements, the 2005 financial statements have been restated.

In our opinion, the financial statements referred to above present fairly, in all material respects, the
financial position of CFTC as of September 30, 2006 and 2005, and its net costs, changes in net position,
budgetary resources, reconciliation of net costs to budgetary obligations, and custodial activity for the
years then ended, in conformity with U.S. generally accepted accounting principles.

The information in the Management’s Discussion and Analysis is not a required part of the financial
statements, but is supplementary information required by U.S. generally accepted accounting principles
and OMB Circular No. A-136, Financial Reporting Requirements. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the methods of measurement
and presentation of this information. However, we did not audit this information and, accordingly, we
express no opinion on it.

The information in the FY 2006 Performance Section, Appendices, and pages 1 and 2 of the FY 2006
Performance and Accountability Report, are presented for purposes of additional analysis and are not
required as part of the financial statements. This information has not been subjected to auditing procedures
and, accordingly, we express no opinion on it.

INTERNAL CONTROL OVER FINANCIAL REPORTING

Our consideration of internal control over financial reporting would not necessarily disclose all matters in
the internal control over financial reporting that might be reportable conditions. Under standards issued by
the American Institute of Certified Public Accountants, reportable conditions are matters coming to our
attention relating to significant deficiencies in the design or operation of the internal control over financial
reporting that, in our judgment, could adversely affect CFTC’s ability to record, process, summarize, and
report financial data consistent with the assertions by management in the financial statements.

Material weaknesses are reportable conditions in which the design or operation of one or more of the
internal control components does not reduce to a relatively low level the risk that misstatements caused by
error or fraud, in amounts that would be material in relation to the financial statements being audited, may
occur and not be detected within a timely period by employees in the normal course of performing their
assigned functions. Because of inherent limitations in internal control, misstatements due to error or fraud
may nevertheless occur and not be detected.




                                                                                                           CFTC    119
             In our fiscal year 2006 audit, we noted certain matters, described in Exhibits I and II, involving internal
             control over financial reporting and its operation that we consider to be reportable conditions. We believe
             that the reportable condition presented in Exhibit I is a material weakness. Exhibit II presents the other
             reportable conditions. Exhibit III presents the status of prior year reportable conditions.

             We noted certain additional matters that we have reported to management of CFTC in two separate letters,
             addressing information technology and other matters, dated July 28 and November 15, 2006, respectively.

             INTERNAL CONTROLS OVER PERFORMANCE MEASURES

             Under OMB Bulletin No. 06-03, the definition of material weaknesses is extended to other internal
             controls as follows. Material weaknesses are reportable conditions in which the design or operation of one
             or more of the internal control components does not reduce to a relatively low level the risk that
             misstatements caused by error or fraud, in amounts that would be material to a performance measure or
             aggregation of related performance measures, may occur and not be detected within a timely period by
             employees in the normal course of performing their assigned functions. Because of inherent limitations in
             internal control, misstatements due to error or fraud may nevertheless occur and not be detected.

             Our consideration of the design and operation of internal control over the existence and completeness
             assertions related to key performance measures would not necessarily disclose all matters involving the
             design and operation of the internal control over the existence and completeness assertions related to key
             performance measures that might be reportable conditions.

             In our fiscal year 2006 audit, we noted no matters involving the design and operation of the internal control
             over the existence and completeness assertions related to key performance measures that we considered to
             be material weaknesses as defined above.

             COMPLIANCE AND OTHER MATTERS

             Our tests of compliance with certain provisions of laws, regulations, and contracts, as described in the
             Responsibilities section of this report, exclusive of those referred to in FFMIA, disclosed one instance of
             noncompliance that is required to be reported under Government Auditing Standards or OMB Bulletin No.
             06-03, and is described below.

             x   FISMA, passed as part of the E-Government Act of 2002, requires that Federal agencies: (1) provide a
                 comprehensive framework for ensuring the effectiveness of information security controls over
                 information resources that support Federal operations and assets; (2) provide effective government-
                 wide management and oversight of the related information security risks; (3) provide for development
                 and maintenance of minimum controls required to protect Federal information and information
                 systems; (4) provide a mechanism for improved oversight of Federal agency information security
                 programs; (5) acknowledge that commercially developed information security products offer advanced,
                 dynamic, robust, and effective information security solutions, reflecting market solutions for the
                 protection of critical information infrastructures important to the national defense and economic
                 security of the nation that are designed, built, and operated by the private sector; and (6) recognize that
                 the selection of specific technical hardware and software information security solutions should be left
                 to individual agencies from among commercially developed products. OMB Circular No. A-130,
                 Management of Federal Information Resources, provides further information security guidance. We
                 noted that CFTC needs continued improvements with its entity-wide security and contingency planning
                 programs, access controls, segregation of duties, and service continuity, to fully meet these guidelines.
                 This matter is further described in the reportable condition entitled Financial Management Systems
                 Need Improvement, in Exhibit II.




120   CFTC
                                                          FINANCIAL SECTION




The results of our tests of compliance with certain provisions of other laws and regulations, exclusive of
those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are required to
be reported under Government Auditing Standards or OMB Bulletin No. 06-03.

The results of our tests of FFMIA disclosed instances, described below and in Exhibits I and II, in which
CFTC’s financial management systems did not substantially comply with the Federal financial
management systems requirements or the applicable Federal accounting standards, discussed in the
Responsibilities section of this report.

x   FFMIA mandates that Federal financial management be advanced by ensuring that Federal financial
    management systems can and do provide reliable, consistent disclosure of financial data, and that they
    do so on a basis that is uniform across the Federal government from year-to-year consistently, using
    U.S. generally accepted accounting principles. Federal agencies need to comply with FFMIA by
    adhering to policies established by OMB, such as OMB Circular No. A-127, Financial Management
    Systems, and OMB Circular No. A-130. FFMIA requires that Federal agencies implement information
    security controls and contingency planning capabilities in accordance with OMB Circular No. A-130.
    Although CFTC has implemented certain security measures to alleviate prior year vulnerabilities, the
    agency needs to improve in these areas to be in compliance with OMB Circular No. A-130. This
    matter is discussed in further detail in our separate IT report, dated July 28, 2006, and we recommend
    that CFTC implement the recommendations presented in that report in fiscal year 2007.

x   FFMIA mandates that Federal financial management systems comply with Federal accounting
    standards. We noted that CFTC did not appropriately account for its lease expenses in accordance with
    Statement of Financial Accounting Standards No. 13, Accounting for Leases, resulting in a restatement
    of its 2005 financial statements. This matter is further discussed in Exhibit I.

The results of our tests of FFMIA disclosed no instances in which CFTC’s financial management systems
did not substantially comply with the United States Government Standard General Ledger at the
transaction level.


                                            * * * * *

RESPONSIBILITIES

Management’s Responsibilities. The United States Code, Title 31, Sections 3515 and 9106 require
agencies to report annually to Congress on their financial status and any other information needed to fairly
present their financial position and results of operations. To meet these reporting requirements, CFTC
prepares and submits financial statements in accordance with OMB Circular No. A-136.

Management is responsible for the financial statements, including:

x   Preparing the financial statements in conformity with U.S. generally accepted accounting principles;

x   Preparing the Management’s Discussion and Analysis (including the performance measures);

x   Establishing and maintaining effective internal control; and

x   Complying with laws, regulations, and contracts applicable to CFTC, including FFMIA.




                                                                                                       CFTC    121
           In fulfilling this responsibility, management is required to make estimates and judgments to assess the
           expected benefits and related costs of internal control policies.

           Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2006 and 2005
           financial statements of CFTC based on our audits. We conducted our audits in accordance with auditing
           standards generally accepted in the United States of America; the standards applicable to financial audits
           contained in Government Auditing Standards, issued by the Comptroller General of the United States; and
           OMB Bulletin No. 06-03. Those standards and OMB Bulletin No. 06-03 require that we plan and perform
           the audits to obtain reasonable assurance about whether the financial statements are free of material
           misstatement. An audit includes consideration of internal control over financial reporting as a basis for
           designing audit procedures that are appropriate in the circumstances, but not for the purpose of expressing
           an opinion on the effectiveness of CFTC’s internal control over financial reporting. Accordingly, we
           express no such opinion.

           An audit also includes:

           x   Examining, on a test basis, evidence supporting the amounts and disclosures in the financial
               statements;

           x   Assessing the accounting principles used and significant estimates made by management; and

           x   Evaluating the overall financial statement presentation.

           We believe that our audits provide a reasonable basis for our opinion.

           In planning and performing our fiscal year 2006 audit, we considered CFTC’s internal control over
           financial reporting by obtaining an understanding of CFTC’s internal control, determining whether internal
           controls had been placed in operation, assessing control risk, and performing tests of controls in order to
           determine our auditing procedures for the purpose of expressing our opinion on the financial statements.
           We limited our internal control testing to those controls necessary to achieve the objectives described in
           Government Auditing Standards and OMB Bulletin No. 06-03. We did not test all internal controls
           relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
           1982. The objective of our audit was not to provide an opinion on CFTC’s internal control over financial
           reporting. Consequently, we do not provide an opinion thereon.

           As required by OMB Bulletin No. 06-03, in our fiscal year 2006 audit, with respect to internal control
           related to performance measures determined by management to be key and reported in the Management’s
           Discussion and Analysis and Performance sections, we obtained an understanding of the design of internal
           controls relating to the existence and completeness assertions and determined whether these internal
           controls had been placed in operation. We limited our testing to those controls necessary to test and report
           on the internal control over key performance measures in accordance with OMB Bulletin No. 06-03.
           However, our procedures were not designed to provide an opinion on internal control over reported
           performance measures and, accordingly, we do not provide an opinion thereon.

           As part of obtaining reasonable assurance about whether CFTC’s fiscal year 2006 financial statements are
           free of material misstatement, we performed tests of CFTC’s compliance with certain provisions of laws,
           regulations, and contracts, noncompliance with which could have a direct and material effect on the
           determination of the financial statement amounts, and certain provisions of other laws and regulations
           specified in OMB Bulletin No. 06-03, including certain provisions referred to in FFMIA. We limited our
           tests of compliance to the provisions described in the preceding sentence, and we did not test compliance
           with all laws, regulations, and contracts applicable to CFTC. However, providing an opinion on




122 CFTC
                                                         FINANCIAL SECTION




compliance with laws, regulations, and contracts was not an objective of our audit and, accordingly, we do
not express such an opinion.

Under OMB Bulletin No. 06-03 and FFMIA, we are required to report whether financial management
systems for executive departments and agencies subject to the Chief Financial Officers Act of 1990
substantially comply with (1) Federal financial management systems requirements, (2) applicable Federal
accounting standards, and (3) the United States Government Standard General Ledger at the transaction
level. As an agency requiring financial statement reporting under the Accountability of Tax Dollars Act of
2002, CFTC is not subject to FFMIA. However, it has elected to implement the provisions as described
above. Therefore, we performed tests of compliance with FFMIA Section 803(a) requirements.

RESTRICTED USE

This report is intended solely for the information and use of CFTC’s management, CFTC’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 15, 2006




                                                                                                     CFTC 123
                                                                                                              Exhibit I

                                 U.S. COMMODITY FUTURES TRADING COMMISSION

                                                       Material Weakness


           Improvement is Needed over Financial Reporting

           CFTC has a material weakness in the area of financial reporting that hinders preparation of timely and
           accurate financial statements. We noted the following conditions in our fiscal year 2006 audit:

           x   Allowance for Custodial Fines Receivable

               The Division of Enforcement (DOE) within CFTC is responsible for reviewing each case and
               determining the Custodial Fines and Interest Receivable balance as well as estimating the allowance for
               loss on each receivable. CFTC’s policy is to assume that all custodial fines are 100% uncollectible,
               unless otherwise noted in the judgment. During the year, DOE reported four cases totaling
               approximately $65.6 million as collectible, when in fact they were uncollectible. These receivables
               were reported as collectible on the third quarter Treasury Report on Receivables (TROR) and in the
               interim financial statements submitted to the Office of Management and Budget (OMB). The error was
               discovered by the Office of Financial Management (OFM) during its third quarter fluctuation analysis.
               However, the fluctuation analysis was not performed prior to the issuance of the above reports. The
               lack of an adequate review process at DOE and OFM caused the error to occur and be reported.

               Statement of Federal Financial Accounting Standards (SFFAS) No. 1, Accounting for Selected Assets
               and Liabilities, paragraphs 44-46, states that losses on receivables should be recognized when it is
               more likely than not that the receivables will not be totally collected. Losses due to uncollectible
               amounts should be measured through a systematic methodology. The systematic methodology should
               be based on analysis of both individual accounts and a group of accounts as a whole.

               During our test work over the fourth quarter activity, we noted that DOE implemented corrective
               actions to address this finding. DOE and OFM developed a spreadsheet to track each case and the
               related allowance. This spreadsheet was reviewed by the Deputy Director of DOE. We did not find
               any exceptions during our test work over the fourth quarter.

           x   Accounting for Leases and Knowledge of Accounting Principles

               CFTC does not recognize lease expense, for rental of its various office spaces, on a straight-line basis,
               as required under generally accepted accounting principles. Instead, lease expense is recognized in the
               period in which the actual payments are made. Because CFTC is a relatively small federal agency, the
               cumulative impact of the straight-lining of lease expense results in a significant adjustment. The
               deferred lease liability as of September 30, 2006, was $2.8 million, but had not been recorded prior to
               our audit. Of this amount, $0.7 million should have been expensed in FY 2006, $0.2 million should
               have been expensed in FY 2005, and $1.9 million should have been expensed prior to FY 2005. As a
               result, CFTC restated its FY 2005 financial statements.

               The Financial Accounting Standards Board’s Statement of Financial Accounting Standards No. 13,
               Accounting for Leases, paragraph 15, states that “if rental payments are not made on a straight-line
               basis, rental expense nevertheless shall be recognized on a straight-line basis unless another systematic
               and rational basis is more representative of the time pattern in which use benefit is derived from the
               leased property, in which case that basis shall be used.” For purposes of the calculation of the prepaid




124 CFTC
                                                            FINANCIAL SECTION




                                                                                                     Exhibit I

                      U.S. COMMODITY FUTURES TRADING COMMISSION

                                             Material Weakness


    rent or deferred rent liability, the lease term is “the fixed noncancelable term of the lease,” including a
    period after the lease term meeting certain criteria, as defined in SFAS No. 13 paragraph 5f. The
    CFTC error occurred because management was not aware of this accounting principle requiring
    straight-lining of rent expenses.

x   Improvements are Needed in Recording Accruals and Preparing Financial Statements

    Although CFTC has developed and implemented a process for estimating its interim and year-end
    accounts payable and accruals, the process needs improvement. At year-end, CFTC makes a rigorous
    effort to pay all of its invoices received prior to September 15. This effort is designed to ensure that
    CFTC does not have a significant accounts payable balance at year-end. In addition, each individual
    Contracting Officer’s Technical Representative (COTR) evaluates contracts for open obligations as of
    September 15, 2006 to determine whether a liability should be accrued, and informs the OFM. CFTC
    did not properly record the accounts payable, operating leases, subsequent cash disbursements, and
    undelivered orders. Over all these areas, 16 out of 95 transactions we tested were either
    inappropriately included or excluded from accounts payable as of September 30, 2006.

    The aggregated amount of all known differences identified in our sample totaled to a net overstatement
    of accounts payable of $12,703, and the statistically projected error was $261,458.

    Office of Management and Budget’s Circular No. A-136, Form and Content of Performance
    Accountability Report (PAR), defines accounts payable as the amounts owed by the reporting agency
    for goods and services received from other entities, progress in contract performance made by other
    entities, and rents due to other entities.

    Statement of Federal Financial Accounting Standards No. 1, Accounting for Selected Assets and
    Liabilities, paragraph 74, states that when the entity accepts title to goods, whether goods are received
    or in transit, the entity should recognize a liability for the unpaid amount of the goods. If invoices for
    those goods are not available when financial statements are prepared, the amounts should be estimated.

Recommendations

We recommend that CFTC:

1. Establish timely management review controls over the determination and reporting of the allowance
   for losses for Custodial Fines and Interest Receivable at DOE;

2. Provide formal training on generally accepted accounting principles to key accounting personnel at
   least annually;

3. Hire additional people with experience in financial reporting;

4. Implement timely internal controls which requires OFM to review the Custodial Fines and Interest
   Receivable balance prior to recording in the accounting system and inclusion in the financial




                                                                                                          CFTC 125
                                                                                                                Exhibit I

                                 U.S. COMMODITY FUTURES TRADING COMMISSION

                                                       Material Weakness


               statements. The review should include DOE justifying and explaining to OFM why they believe
               receivable amounts are collectible if identified as such;

           5. Develop a system to assure that existing leases are properly recorded on a straight-line basis;

           6. Ensure that new leases or changes to existing leases are properly accounted for;

           7. Review CFTC’s accounting policies to identify any others which may not be in accordance with U.S.
              generally accepted accounting principles;

           8. Improve accrual procedures to ensure that accounts payable and other accruals are recorded when the
              goods or services are received and accepted, including determining a reasonable and logical accrual
              estimate for invoices not yet received; and

           9. Evaluate the adequacy of the prior year accrual by comparing subsequent payments received after year-
              end against the accrual. Consider making changes to the accrual methodology based on the results of
              the analysis.

           Agency Response

           We concur with this finding and agree with the recommendation.




126 CFTC
                                                         FINANCIAL SECTION




                                                                                               Exhibit II

                     U.S. COMMODITY FUTURES TRADING COMMISSION

                                          Reportable Condition


Financial Management Systems Need Improvement

Effective general information technology (IT) controls add assurance that data used to prepare and report
financial information and statements is complete, reliable, and has integrity. Our fiscal year 2006 IT
assessment was focused on general IT controls over CFTC’s management systems and supporting network
infrastructure, using GAO’s Federal Information System Controls Audit Manual (FISCAM) as a guide.
The six FISCAM general IT control review elements are as follows:

        x   Entity-wide security program;
        x   Secure access controls;
        x   Application software development and change control;
        x   System software;
        x   Segregation of duties; and
        x   Service continuity.

CFTC management has not implemented test plans that will allow them to assess their efficiency and
effectiveness in carrying out the process steps in its IT Continuity of Operations Plan. Additionally,
controls in the following areas need to be strengthened: granting of system access to users, managing of
software change controls, and the proactive assessing of device security controls to identify potential
vulnerabilities.

These weaknesses led to our determination that CFTC was not in compliance with the Federal Information
Security Management Act and the Federal financial management system requirements called for in the
Federal Financial Management Improvement Act of 1996, as discussed in the Compliance and Other
Matters section of our auditors’ report.

Recommendations

Specific recommendations to address IT controls are included in a separate limited distribution IT general
controls report dated July 28, 2006, issued as part of the fiscal year 2006 financial statement audit. We
recommend that CFTC take steps to ensure effective implementation of our recommendations.

Agency Response

We concur with this finding and agree with the recommendation.


Improvement is Needed in the Fixed Asset System

CFTC does not have adequate internal controls to account for, record, track, or monitor its Property and
Equipment and IT Software (collectively P&E). Based on discussions with OFM, and review of CFTC’s
fixed asset policy and records, CFTC’s assets are comprised of furniture, equipment, computer hardware
and software, copiers, and fax machines. CFTC has completed the development of its asset management
policy but has not completed the implementation of its asset management program. CFTC has designated




                                                                                                     CFTC 127
                                                                                                              Exhibit II

                                 U.S. COMMODITY FUTURES TRADING COMMISSION

                                                      Reportable Condition


           several individuals to track its fixed assets; however, the information maintained by these individuals is not
           complete or precise as required by the Federal Accounting Standards Advisory Board (FASAB) and Joint
           Financial Management Improvement Program (JFMIP) standards, that requires an accounting and control
           function that ensures standard transaction processing, accurate valuation, and disclosure of the acquisition
           and disposition of assets.

           In addition, CFTC has not conducted a detailed physical inventory of all property and equipment within the
           last five years. Partial inventories performed during the last five years by different CFTC groups have not
           been uniform or consistent with an established set of physical inventory policies and procedures. For
           example, CFTC’s Office of Information Management may perform a physical inventory using one set of
           guidelines, and CFTC’s Office of Management Operations may use entirely different guidelines.

           We used a substantive approach in auditing the balance of CFTC’s P&E and the related accumulated
           depreciation as of September 30, 2006. OFM manually compiled all obligations, purchase orders, and
           contracts related to fixed asset purchases that were recorded in Federal Financial System (FFS) from 2001
           through 2006, to determine total P&E capitalizable assets. An accumulated depreciation and write-off
           schedule was also prepared. We noted during our test work that CFTC inappropriately expensed software
           development costs of $1.2 million instead of capitalizing the costs to P&E.

           Statement of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting for Property, Plan, and
           Equipment, defines property, plant, and equipment (PP&E) as any property, plant, or equipment used in
           providing goods or services or supports the mission of the entity. All general PP&E shall be recorded at
           cost and the cost shall be charged to expense through depreciation.

           SFFAS No. 10, Accounting for Internal-Use Software, states that for internally developed software,
           capitalized cost should include the full cost (direct and indirect) incurred during the software development
           stage. These costs include salaries of programmers, systems analysts, project managers, and administrative
           personnel, associated employee benefits, and outside consultants’ fees.

           Recommendations

           We recommend that CFTC:

           x   Implement a property management system that will do the following: (1) classify P&E by assets or
               classes described in SFFAS No. 6, Accounting for Property, Plant, and Equipment, and No. 10,
               Accounting for Internal Use Software; (2) allow user defined transaction types and automatically
               record the transaction type when the property record is created or updated; (3) provide unique
               identification; (4) provide a complete audit trail of all changes to property records including, but not
               limited to, modifications, improvements, changes in value, and the individual entering or approving the
               information; (5) designate property tracked in the property management system as either capitalized or
               expensed; (6) allow user defined capitalization thresholds to be established for property classes; and (7)
               notify the user when depreciation, amortization, or depletion thresholds are exceeded.

           x   Improve internal controls, policies, and procedures related to fixed assets to ensure that assets and
               depreciation are recorded in the financial statements on a timely basis. CFTC should also ensure that




128 CFTC
                                                          FINANCIAL SECTION




                                                                                                 Exhibit II

                     U.S. COMMODITY FUTURES TRADING COMMISSION

                                           Reportable Condition


    appropriate personnel are designated to maintain adequate and timely records of inventories and
    property additions/disposals and that this information is communicated to OFM on a timely basis for
    recording in the financial statements.

x   Improve procedures for property accountability that includes tracking the movement of assets,
    recording changes in physical condition, and verification of physical counts. In addition, a unique item
    identification system should be implemented to track each individual asset and assist in performing
    physical inventories.

Agency Response

We concur with this finding and agree with the recommendations.


Improvement is Needed in Evaluating Undelivered Orders and Recording Budgetary Transactions

At the end of each quarter, OFM sends correspondence to program office officials responsible for
recording obligations to request the status of undelivered orders. The program offices are required to
review the obligations and determine if each should be de-obligated. During the year, CFTC program
offices did not provide timely information to OFM for the undelivered orders review, and OFM did not
follow-up to ensure that memorandums were returned timely.

We performed test work over balances for a statistical sample of 43 undelivered orders. Four of the sample
items were not properly de-obligated, and two additional sample items were delivered orders that had not
been properly recorded for the year ended September 30, 2006. These errors result in an overstatement of
undelivered orders of $482,014 as of September 30, 2006, for which CFTC made a correcting entry for
September 30, 2006 financial statement purposes. The statistically projected overstatement is $504,645.

In addition, CFTC inappropriately accounted for replacement contracts on its quarterly Standard Form (SF)
133, Report on Budget Execution and Budgetary Resources. Per GAO Appropriations Law, Chapter 5,
obligations can be made for replacement contracts without a new apportionment when a previous
contractor defaults. The replacement contract seeks only to meet the pre-existing and continuing need.
CFTC reported the defaulted contracts as recoveries of prior year obligations and the replacement contracts
as new obligations in FY 2006. OMB guidelines indicate that these transactions should not be shown as
recoveries and new obligations in the current fiscal year. Also, during its analysis, CFTC discovered that
$193,563 of new replacement contracts were obligated; however, the previous contract was not de-
obligated; therefore, these were double counted on the general ledger and on the SF 133. Correcting
entries were made for this matter for September 30, 2006 financial statement purposes.

The United States Standard General Ledger defines undelivered orders as the amount of goods and/or
services ordered, which have not been actually or constructively received.

The GAO Appropriations Law, Chapter 5, states that “appropriations are made to be used and not to be
defeated in their use, and it would be a narrow construction to hold that a default on a properly made




                                                                                                       CFTC 129
                                                                                                            Exhibit II

                                  U.S. COMMODITY FUTURES TRADING COMMISSION

                                                       Reportable Condition


             contract would prevent the use of the appropriation for the object for which it was made and for carrying
             out which the contract was executed.”

             Recommendation

             We recommend that:

             x   CFTC improve its process for analyzing its undelivered orders balance on a quarterly and year-end
                 basis, to determine those obligations that should be de-obligated or expended (the process should
                 ensure that OFM can accurately and timely identify those outstanding undelivered orders that should be
                 de-obligated);

             x   Program office officials provide necessary documentation in a timely manner to support why
                 outstanding obligations should remain open; and

             x   OFM properly account for replacement contracts on its general ledger and SF 133 submissions.

             Agency Response

             We concur with this finding and agree with the recommendation.




130   CFTC
                                                          FINANCIAL SECTION




                                                                                              Exhibit III

                     U.S. COMMODITY FUTURES TRADING COMMISSION

                            Fiscal Year 2006 – Status of Prior Year Comments


The status of prior year reportable conditions and compliance matters is presented below.


    Internal Control Over Financial Reporting                 Fiscal Year 2006 Status


               Reportable Conditions

Financial Management Systems Need Improvement           Repeated.

Improvement is Needed in the Fixed Asset System         Repeated.

Improvement is Needed in Evaluating Undelivered         Repeated.
Orders

Improvements are Needed in Recording Accruals and       Revised and reported as part of the
Preparing Financial Statements                          Material Weakness in Exhibit I.


     Compliance with Laws and Regulations

Noncompliance with the Federal Information              Repeated.
Security Management Act

Noncompliance with the Federal Financial                Repeated.
Management Improvement Act of 1996 (Although
CFTC is not required to comply with FFMIA, it has
elected to do so.)




                                                                                                    CFTC    131
                  APPENDICES




FY 2006 Commissioners..................................... 133

Enforcement Litigation by Strategic Goals............ 136

CFTC Information Technology Systems................ 153

Glossary of Abbreviations and Acronyms.............. 154
                           FY 2006 Commissioners


Reuben Jeffery III, Chairman                                  don. Mr. Jeffery has a broad range of international capital
Reuben Jeffery III was nominated by President George          markets, corporate finance and merger and acquisition
W. Bush to serve as Chairman of the Commodity Futures         experience.
Trading Commission. He was confirmed by the U.S. Sen-         	   Prior to joining Goldman Sachs, Mr. Jeffery was a law-
ate on June 30, 2005, to a term expiring April 13, 2007.      yer with the New York firm of Davis Polk & Wardwell. He
	   In his capacity as Chairman, Mr. Jeffery serves as a      began his career as a commercial banker with the Morgan
member of the President’s Working Group on Financial          Guaranty Trust Company of New York.
Markets along with the Secretary of the Treasury, the         	   Mr. Jeffery received his BA degree in Political Science
Chairman of the Board of Governors of the Federal Re-         from Yale University in 1975 and his Juris Doctor and
serve, and the Chairman of the SEC.                           Master of Business Administration degrees from Stanford
	   Prior to joining the CFTC, Mr. Jeffery was the Special    University in 1981. He was admitted to the New York Bar
Assistant to the President and Senior Director for Interna-   in 1982. Mr. Jeffery lives with his wife, Robin and three
tional Economic Affairs at the National Security Council.     children, Jocelyn, Ben and Bob in Washington, D.C.
He was previously the Representative and Executive Direc-
                                                              Walter L. Lukken, Commissioner
tor of the Coalition Provisional Authority Office at the
                                                              Walter L. Lukken was sworn in on August 7, 2002 as a
Pentagon, after having served as an advisor to Ambassador
                                                              Commissioner of the CFTC. He was nominated by Presi-
Bremer in Iraq. Before joining the Coalition Provisional
                                                              dent George W. Bush on April 16, 2002, and confirmed by
Authority in May of 2003, Mr. Jeffery served as Special Ad-
                                                              the Senate on August 2, 2002, to a term expiring April 13,
visor to the President for Lower Manhattan Development.
                                                              2005. On May 25, 2005, Mr. Lukken was nominated by
In this capacity he helped coordinate ongoing Federal ef-
                                                              President Bush to a second term as a Commissioner expir-
forts in support of the longer term recovery and redevelop-
                                                              ing April 13, 2010. The Senate confirmed that nomination
ment of Lower Manhattan in the aftermath of September
                                                              on June 30, 2005.
11, 2001.
                                                              	   Commissioner Lukken was appointed in October
	   Mr. Jeffery spent eighteen years working for Goldman,
                                                              2003 to serve as Chairman and Designated Federal Of-
Sachs & Co. where he was managing partner of Goldman
                                                              ficial of the CFTC’s Global Markets Advisory Committee
Sachs in Paris (1997-2001) and of the firm’s European
                                                              (GMAC). The GMAC was created by the Commission to
Financial Institutions Group (1992-1997) based in Lon-
                                                              provide a forum in which it can discuss the many complex



                                                                                                            CFTC 133
and novel issues raised by the ever-increasing globaliza-        and Aging Committees. In this position, he advised Sena-
tion of futures markets. Commissioner Lukken has also            tor Breaux on all policy decisions, as well as coordinating
represented the CFTC before the International Organiza-          Senator Breaux’s lead role in the Senate bipartisan Centrist
tion of Securities Commissions (IOSCO), the European             Coalition. Mr. Hatfield also served as Chief of Staff to the
Union, and other foreign regulatory bodies.                      House Majority Whip, Tony Coelho (D-CA) where he
                                                                 managed Congressman Coelho’s personal and whip staffs.
	   In May 2003, CFTC Chairman James Newsome and
SEC Chairman William Donaldson tasked Commissioner               	   In between stints on Capitol Hill, Mr. Hatfield served
Lukken and SEC Commissioner Paul Atkins, respectively,           as Deputy Commissioner General of the U.S. Pavilion at
to work together with agency staff on the completion of          the 1998 World’s Fair in Lisbon, Portugal where he was
issues arising from the implementation of the CFMA of            responsible for outreach to 139 foreign governments par-
2002 (H.R. 5660). Their efforts resulted in a memoran-           ticipating in the World’s Fair.
dum of understanding between the agencies regarding              	   Mr. Hatfield has significant experience in public
security futures products in March 2004.                         service, but has also been influential in the private sector.
	   Mr. Lukken joined the Commission after serving four          In 1989, Mr. Hatfield partnered with a colleague to form
years on the professional staff of the U.S. Senate Agricul-      a government affairs company which concentrated on is-
ture Committee under Chairman Richard Lugar (R-IN).              sues under the jurisdiction of the House Ways and Means
While working for the committee, Mr. Lukken specialized          Committee, the House Energy and Commerce Committee
in futures and derivatives markets, agricultural banking,        and the Senate Environmental and Public Works Commit-
and agricultural tax issues. In this capacity, Mr. Lukken was    tee. He also directed and oversaw communications and
involved in the drafting of the CFMA of 2002 (H.R. 5660)         public affairs for a start-up education telecommunications
and the 2002 Farm Bill (H.R. 2646).                              company called Education Training Communications, Inc.

	   Before joining the committee, Mr. Lukken worked              	   Mr. Hatfield is a native of California and graduated
for five years in the personal office of Senator Lugar as a      Summa Cum Laude from California State University,
legislative assistant specializing in finance and tax matters.   Fresno. He now resides in Washington, DC.

	   A native of Richmond, Indiana, Mr. Lukken received           Michael V. Dunn, Commissioner
his B.S. degree with honors from the Kelley School of            Michael V. Dunn was nominated to a second term as
Business at Indiana University, and his Juris Doctor degree      a Commissioner of the Commodity Futures Trading
from Lewis and Clark Law School in Portland, Oregon.             Commission by President Bush on June 16, 2006, and
Mr. Lukken is a member of the Illinois Bar. He is married        confirmed by the Senate on August 3, 2006, to a term
to Dana Bostic Lukken of Morgan City, Louisiana, and             expiring June 19, 2011. Mr. Dunn has served as a Commis-
they and their son William and daughter Genevieve reside         sioner since December 6, 2004. On January 9, 2006, he
in Washington, D.C.                                              was chosen by his colleagues to chair the Commission’s
                                                                 Agriculture Advisory Committee and on March 13, 2006,
Frederick W. Hatfield, Commissioner
                                                                 he was appointed Chairman of the Commission’s Forex
Fred Hatfield was confirmed by the U.S. Senate on No-
                                                                 Task Force.
vember 21, 2004, as a Commissioner of the Commodity
Futures Trading Commission. He was sworn in on Decem-            	   Prior to joining the CFTC, Mr. Dunn served as Direc-
ber 6, 2004 to a term expiring April 13, 2008.                   tor, Office of Policy and Analysis at the Farm Credit Ad-
                                                                 ministration (FCA). Prior to this position, in January 2001
	   Since joining the Commission, Mr. Hatfield has
                                                                 he served briefly as a member of the FCA Board.
worked on several cross regulatory issues, such as portfolio
margining, and has represented Chairman Reuben Jeffery           	   Prior to joining FCA, Mr. Dunn was the Under Secre-
on the President’s Corporate Fraud Task Force.                   tary of Agriculture for Marketing and Regulatory Programs
                                                                 at the U.S. Department of Agriculture (USDA). He also
	   Prior to joining the CFTC, Mr. Hatfield was Chief of
                                                                 served as the Acting Under Secretary for Rural Economic
Staff to Senator John Breaux (D-LA), Assistant Minority
                                                                 Community Development and as Administrator of the
Whip and Member of the U.S. Finance, Commerce, Rules
                                                                 Farmers Home Administration (FmHA) at USDA.


134 CFTC
                                                                   APPENDICES




	   Mr. Dunn has had a long involvement in agricultural       Global Leadership Award, announced at the March 31,
credit dating back to the late 1970s, when he was the         2004, National Energy Marketers Association Conference
Midwest Area Director for the FmHA. He has been a loan        in Washington, D.C.
officer and vice president of the Farm Credit Banks of        Financial Literacy and Education. Dr. Brown-Hruska
Omaha and has served as a member of the professional          served as the CFTC’s representative on the Financial
staff of the Senate Agricultural Committee, specializing in   Literacy and Education Commission, chaired by Treasury
agricultural credit. At the USDA, Mr. Dunn also served as a   Secretary John Snow. Subsequently, she was named Chair-
member of the Commodity Credit Corporation and Rural          man of the Subcommittee on Web site Development,
Telephone Bank Board. He is a past member of the Iowa         which is made up of representatives from various agen-
Development Commission and has served as the Chair-           cies within the Federal government. In September 2004, a
man of the State of Iowa’s City Development Board.            Web site that serves as a clearinghouse for information on
	   A native of Keokuk, Iowa, and a current resident of       financial literacy was successfully launched.
Harpers Ferry, West Virginia, Mr. Dunn received his B.A.      Financial Markets. Dr. Brown-Hruska holds a Ph.D. in
and M.A. degrees from the University of New Mexico.           economics (1994) from Virginia Tech in Blacksburg,
                                                              Virginia. Prior to coming to the CFTC, Dr. Brown-Hruska
Sharon Brown-Hruska, Former Commissioner
                                                              was an Assistant Professor of Finance at George Mason
Sharon Brown-Hruska resigned from the Commission on
                                                              University’s School of Management (1998 – 2002) and
July 28, 2006. She was first nominated to the Commission
                                                              the A.B. Freeman School of Business at Tulane University
by President Bush on April 9, 2002, confirmed by the Sen-
                                                              (1995-1998). Courses taught by Professor Brown-Hruska
ate on August 2, 2002, and sworn in on August 7, 2002.
                                                              included Risk Management and Financial Innovation,
She was subsequently nominated by President Bush to a
                                                              International Finance, Venture Capital, Investments, and
second term as a Commissioner, and confirmed by the
                                                              Financial Markets. Dr. Brown-Hruska has authored numer-
Senate on November 21, 2004, to a term expiring April 13,
                                                              ous scholarly and applied papers based on her research in
2009. Dr. Brown-Hruska was designated by President Bush
                                                              the areas of derivatives and market microstructure, includ-
as Acting Chairman at the Commodity Futures Trading
                                                              ing, “A Penny for Your Trade” in Barron’s (2001); “Finan-
Commission on July 26, 2004 and served in that capacity
                                                              cial Markets as Information Monopolies?” in Regulation
until July 5, 2005.
                                                              (2000), and “Fragmentation and Complementarity: The
	   In her capacity as Acting Chairman, Brown-Hruska
                                                              Case of EFPs” in the Journal of Futures Markets (2002).
served as a member of the President’s Working Group on
                                                              	   A native of Winchester, Virginia, she lives with her
Financial Markets along with the Secretary of the Treasury,
                                                              husband Donald Hruska and their son, Jacob, in Burke,
the Chairman of the Board of Governors of the Federal
                                                              Virginia.
Reserve, and the Chairman of the SEC. Dr. Brown-Hruska
was also the Chairman of the CFTC’s Technology Advisory
Committee.

Energy. In March 2003, then CFTC Chairman James
Newsome announced that Dr. Brown-Hruska would be
evaluating legislation, issues and economic developments
of relevance to our Nation’s energy markets, in addition
to her other duties as a Commissioner. She has spoken on
energy issues to many forums and organizations, includ-
ing the Energy Bar Association, Edison Electric Institute,
and the World Forum on Energy Regulation. She has
recently published articles in the Energy Daily on energy
derivatives and the Futures and Derivatives Law Report on
market manipulation in the energy markets. For her work
in this area, she was awarded the Key Women in Energy’s



                                                                                                              CFTC 135
      Enforcement Litigation for Goal One

Strategic Goal One – Ensure the economic                      NYMEX futures contract for propane, in part because
vitality of the commodity futures and                         the NYMEX propane contract provides for delivery of
option markets.                                               propane at TEPPCO. CFTC v. BP Products North America,
                                                              Inc., No. 06C 3503 (N.D.Ill. filed June 28, 2006).
Manipulation, Attempted Manipulation and False
Reporting                                                     	      With the filing of the BP enforcement action,
Enforcement actions filed during FY 2006:                     the Commission has, since December 2002, filed a
                                                              total of 35 enforcement actions charging a total of 55
•	 Manipulation, Attempted Manipulation, and False
                                                              respondents/defendants (31 companies and 24 indi-
  Reporting Enforcement
                                                              viduals) with alleged wrongdoing in the energy markets.
  On June 28, 2006, the Commission filed a civil injunc-      The Commission has settled 27 of these enforcement
  tive enforcement action against BP Products North           actions and obtained $302,863,500 in civil monetary
  America, Inc. (BP), a wholly-owned subsidiary of BP         penalties. Eight Commission energy market-related en-
  plc, alleging that BP manipulated the price of Febru-       forcement actions remain pending. The Commission’s
  ary 2004 TET physical propane by, among other things,       Division of Enforcement is currently investigating ap-
  cornering the market for February 2004 TET physical         proximately 70 individuals and companies for alleged
  propane. (The term “TET propane” refers to propane          violations in the energy sector.
  that is deliverable at the TEPPCO storage facility in
                                                            •	 In re Dominion Resources, Inc.
  Mont Belvieu, Texas, or anywhere within the TEPPCO
  system. “TEPPCO” is an acronym for Texas Eastern            On September 27, 2006, the Commission simultane-
  Products Pipeline Co, LLC.)                                 ously filed and settled an administrative enforcement
                                                              action against Dominion Resources, Inc. (Dominion)
  	      The Commission also charged BP with attempt-
                                                              finding that Dominion falsely reported trade informa-
  ing to manipulate the price of April 2003 TET physical
                                                              tion concerning natural gas transactions in violation of
  propane by attempting to corner the April 2003 TET
                                                              the Act. Specifically, the order finds that, from at least
  physical propane market. According to the lawsuit, TET
                                                              December 2000 through November 2002, several trad-
  propane is the primary propane used for residential and
                                                              ers on Dominion’s natural gas trading desks knowingly
  commercial heating in the Northeast U.S., particularly
                                                              reported false, misleading and knowingly inaccurate
  in rural areas that are not served by natural gas pipe-
                                                              natural gas trading information, including price and
  lines, and the price of TET propane at Mont Belvieu
                                                              volume information, to Gas Daily, Inside FERC, and
  affects the price of propane paid by consumers. Fur-
                                                              Natural Gas Intelligence. According to the order, the re-
  thermore, prices of TET propane affect the price of the
                                                              ports contained both fictitious trades and certain actual



136 CFTC
                                                             APPENDICES




trades in which the prices and/or volumes were altered,
as well as selected trades observed in the market, all of
which were represented to be Dominion’s actual trades.
The order explains that reporting firms including Gas
Daily, Inside FERC, and Natural Gas Intelligence use
price and volume information collected from partici-
pants like Dominion to calculate indexes of natural gas
prices for various hubs throughout the United States.
According to the order, participants in the natural gas
markets use these indexes to price and settle commod-
ity transactions, and natural gas futures traders refer
to the published indexes for price discovery and for
assessing price risks. The Commission assessed sanc-
tions including: a civil monetary penalty ($4.5 million);
order to comply with certain undertakings, including
providing future cooperation to the Commission. The
Commission received cooperation from the Richmond
Division of the Federal Bureau of Investigation, and the
United States Attorney’s Office of the Eastern District of
Virginia in connection with this matter. In re Dominion
Resources, Inc., CFTC Docket No. 06-06 (CFTC filed Sept.
27, 2006).




                                                                          CFTC 137
      Enforcement Litigation for Goal Two


Strategic Goal Two – Protect market users                     •	 In re Veras Investment Partners, LLC, et al.
and the public.                                                 On December 22, 2005, the Commission simultane-
Commodity Pools, Hedge Funds, Commodity Pool                    ously filed and settled an administrative enforcement
Operators, and Commodity Trading Advisors                       action against Veras International Partners, LLC (Veras),
Enforcement actions filed during FY 2006:                       a registered commodity pool operator and commodity
                                                                trading advisor, and James McBride and Kevin Larson,
•	 CFTC v. Lake Dow Capital, LLC, et al.
                                                                both of whom were registered associated persons of
  On October 19, 2005, the Commission filed a civil             Veras. The Commission found that the defendant the
  enforcement action charging Lake Dow Capital, LLC             fraudulently operated two pools as hedge funds that
  (Lake Dow), a registered commodity pool operator and          traded commodity futures contracts and securities.
  commodity trading advisor, and Ty Edwards, a Lake             Specifically, the Commission found that the defendants
  Dow principal and registered associated person, with          failed to disclose to fund participants certain deceptive
  fraud in their operation of the Aurora Investment Fund        and illegal market timing and late trading practices that
  (Aurora Fund) hedge fund. The Commission alleges              Veras used to execute its securities trading strategies. The
  that the defendants misrepresented the amount of funds        Commission assessed sanctions including: a cease and
  they managed ($60 to $100 million, when in fact the           desist order; $500,000 joint and several civil monetary
  Aurora Fund did not exceed $20 million) and falsely           penalty; and 18-month trading bans for McBride and
  represented that the fund had consistently generated          Larson. The U.S. Securities and Exchange Commission
  annual profits without a single losing month. The court       and the New York Attorney General’s Office filed and
  entered a statutory restraining order, which included an      settled related actions against Veras, McBride, Larson
  asset freeze, on the same date that the action was filed.     and others. In re Veras Investment Partners, LLC, et al.,
  On November 8, 2005, the court issued a consent order         CFTC Docket No. 06-01 (CFTC filed Dec. 22, 2006).
  of preliminary injunction against all defendants pro-
                                                              •	 CFTC v. DeFazio.
  hibiting further violations of the Commodity Exchange
  Act and continuing the asset freeze. CFTC v. Lake Dow         On January 5, 2006, the Commission filed a civil
  Capital, LLC, et al., No. 1 05-CV 2709 (N.D. Ga. filed        enforcement action charging Charles A. DeFazio, and
  Oct. 19, 2005).                                               Galaxy Resources 2000, LLC with fraud. The complaint
                                                                alleges that, from March through September 2005,




138 CFTC
                                                                     APPENDICES




  DeFazio solicited and accepted at least $900,000 from         •	 CFTC v. Aurifex Commodities Research Company, et al.
  at least 85 customers while claiming that Galaxy was            On March 7, 2006, the Commission filed a civil en-
  a profitable commodity pool when, in fact, Galaxy               forcement action charging Ty and Monette Klotz, and
  lost more $937,000 trading commodity futures. The               their two Michigan companies, Aurifex Commodities
  complaint also alleges that in September 2005, DeFazio          Research Co. and Aurifex Research LLC, with hedge
  confessed to pool participants that their funds had been        fund fraud. The CFTC complaint alleges that, between
  wiped out completely. According to the complaint,               at least April 2004 and February 2006, Ty and Monette
  DeFazio improperly commingled funds, used customer              Klotz, doing business as Aurifex Investments, engaged in
  funds to pay personal expenses, and that DeFazio and            a Ponzi scheme while soliciting participants for and op-
  Galaxy falsely claimed to be registered with the CFTC.          erating what they described as a “private hedge fund.”
  On January 10, 2006, the court issued consent order             According to the complaint, Ty Klotz told potential par-
  of preliminary injunction that: enjoins the defendants          ticipants that Aurifex invested participants’ funds in a
  from trading commodity futures contracts and op-                pooled commodity futures account, and falsely claimed
  tions and also enjoins them from further violations             that the Aurifex fund earned monthly profits of 20
  as charged; and freezes the defendants’ assets. CFTC v.         percent. The complaint alleges that Klotz falsely assured
  DeFazio, et al., No. 06CV 0020 (S.D. Cal. filed Jan. 5,         potential participants that their Aurifex deposits would
  2006).                                                          be insured against loss with Lloyd’s of London, and that
•	 CFTC v. Rodriguez.                                             Aurifex would receive fees only after participants’ funds
                                                                  doubled. Also, according to the complaint, Ty Klotz
  On February 3, 2006, the Commission filed a civil
                                                                  claimed to have more than 200 participants whose
  enforcement action charging Lazaro Jose Rodriguez with
                                                                  funds were deposited into a commodity futures trading
  fraud. The complaint alleges that, between March 2005
                                                                  account opened in the name of Monette Klotz in April
  and January 2006, Rodriguez, doing business as The
                                                                  2004. Trading in this account lost money, whoever, as
  FIRM “Financial” and as Financial Investments Require
                                                                  alleged, the Klotzes falsely informed participants that
  Money – Financial Consultants, solicited and received
                                                                  the fund was profitable while concealing the trading
  approximately $1.5 million from at least 400 custom-
                                                                  losses and their misappropriation of participants’ funds.
  ers to trade commodity futures and options contracts.
                                                                  Monette Klotz, the complaint alleges, used participant
  As part of those solicitations, Rodriguez allegedly made
                                                                  funds for a down-payment on the purchase of a house,
  false promises guaranteeing large profits without risk.
                                                                  and for the purchase of multiple automobiles. On the
  The complaint also alleges that as part of his fraudulent
                                                                  same day the complaint was filed, the court issued a
  scheme, Rodriguez pretended to be an experienced com-
                                                                  statutory restraining order freezing the defendants’ as-
  modities trader, which he was not. Rather than using
                                                                  sets. CFTC v. Aurifex Commodities Research Company, et
  customer funds to trade commodity futures and op-
                                                                  al., No. 1:06-cv-0166-RHB (W.D. Mich. filed March 7,
  tions, Rodriguez allegedly misappropriated the money
                                                                  2006).
  and used it to purchase luxury cars, jewelry, and other
  personal items. On the same day that the complaint            •	 CFTC v. Scholze.
  was filed, the court entered a statutory restraining order      On June 9, 2006, the Commission filed a civil enforce-
  freezing the defendant’s assets and, among other things,        ment action charging Gary F. Scholze with fraudulently
  enjoining the defendant from destroying, or deny-               soliciting approximately $1.2 million in a scheme in-
  ing CFTC representatives access to books and records.           volving commodity futures and options. Specifically, the
  The Commission received cooperation from the U.S.               complaint alleges that, since about August 2001 through
  Attorney’s Office for the Southern District of Florida, the     May 2006, Scholze, a retired chiropractor, fraudulently
  Federal Bureau of Investigation, and the Florida Office         solicited — through professional publications for
  of Financial Regulation in connection with this matter.         chiropractors and at commodity trading seminars -- at
  CFTC v. Rodriguez, No. 06 CV 0855 (S.D.N.Y. filed Feb.          least 14 customers located throughout the United States
  3, 2006).                                                       to invest in commodity futures and options, through




                                                                                                              CFTC 139
  either individual accounts or a pooled account with            mately $193,000 from nine participants to trade in S&P
  other customers that he would trade on their behalf.           futures contracts. Liskiewicz misappropriated a portion
  The complaint further alleges that Scholze fraudulently        of the pool participants’ funds for his personal use and
  promised some customers that they would make a prof-           lost the remaining funds in unprofitable trading, ac-
  it and reassured others that they would not lose their         cording to the order. Liskiewicz fraudulently concealed
  principal investment due to his specialized trading strat-     his conduct from the pool participants by issuing false
  egy. However, the complaint alleges that Scholze traded        account statements showing healthy profits from futures
  less than half of the customer funds, sustaining losses        trading, the order finds. The order further finds that
  of over $200,000, and misappropriated additional par-          Liskiewicz failed to operate his commodity pool as a
  ticipant funds to pay for personal expenses. Throughout        legal entity separate from himself, commingled pool
  the time period, Scholze allegedly concealed his trading       participants’ funds with his personal funds, and failed
  losses and misappropriation by falsely reporting to            to provide required disclosure documents to the pool
  customers that their investments were growing due to           participants. The Commission imposed the following
  profitable trading. For example, in one alleged incident,      sanctions: a cease and desist order from further viola-
  a customer who invested $300,000 believed, based on            tions as charged; civil monetary penalty ($240,000);
  the statements from Scholze, that by early 2005, his           permanent trading ban; and undertaking to neither
  investment had grown to over $1 million. According to          apply for registration with the Commission nor act in
  the complaint, while some customers received partial           a capacity requiring such registration. In re Liskiewicz,
  returns of their investments, since March 2005, custom-        CFTC Docket No. 06-04 (CFTC filed June 12, 2006).
  ers have not received any funds from Scholze, despite        •	 CFTC v. King, et al.
  repeated demands. The complaint also charges Scholze
                                                                 On August 30, 2006, the Commission filed a civil en-
  with failure to register as a commodity trading advisor
                                                                 forcement action charging Carl W. King and his compa-
  and a commodity pool operator, and with committing
                                                                 ny, Carl W. King Investments, LLP (King Investments),
  other regulatory violations, including failing to provide
                                                                 with fraud and the issuance of false reports to custom-
  required disclosure documents, accepting money in
                                                                 ers. The complaint alleges that since 1995 and continu-
  his own name and commingling customer funds with
                                                                 ing through February 2003, King, individually and as
  personal funds. In a related matter, on June 19, 2006,
                                                                 the agent of King Investments, engaged in a scheme
  Scholze was arraigned in federal court on one count of
                                                                 to defraud customers of more than $4.5 million. King
  wire fraud based on a criminal complaint filed by the
                                                                 allegedly told potential customers that King Invest-
  United States Attorney for the District of Vermont. The
                                                                 ments managed over $15 million in assets for custom-
  Commission received assistance from the Federal Bu-
                                                                 ers with which he traded commodity futures contracts
  reau of Investigation, the United States Postal Inspector,
                                                                 on their behalf. King purportedly informed customers
  and the United States Attorney’s Office for the District
                                                                 that he achieved positive returns on his trading which,
  of Vermont in connection with this matter. CFTC v.
                                                                 at times, yielded profits in excess of 20 percent. As al-
  Scholze, NO. 2:06-CV-114 (D. Vt. filed June 9, 2006).
                                                                 leged in the complaint, the defendants accepted money
•	 In re Liskiewicz.                                             from individual customers and placed the money in an
  On June 12, 2006, the Commission simultaneously                account in the name of King Investments (the Corpo-
  filed and settled an administrative enforcement action         rate Account). After receiving money from individual
  against Michael J. Liskiewicz. Without admitting or            customers, the complaint alleges that the defendants
  denying the findings, Liskiewicz consented to entry of         did not invest the money in commodity futures trading,
  the order that finds he, while unlawfully acting as an         but left the money in the Corporate Account where King
  unregistered commodity pool operator, engaged in               could access it for his personal use on items includ-
  fraud by misappropriating customer funds and issu-             ing his home mortgage and health care expenses. The
  ing false account statements. According to the CFTC’s          complaint further alleges that the defendants concealed
  order, Liskiewicz, who has never been registered with          the misappropriation of customer finds by issuing
  the CFTC in any capacity, solicited and pooled approxi-        customers false statements showing profits and mak-



140 CFTC
                                                                      APPENDICES




  ing purported profit payments from other customers’           •	 CFTC v. Kis.
  investments. In a related criminal action, King pled            On September 27, 2006, the Commission filed a civil
  guilty in the United States District Court for the Eastern      enforcement action charging Christian Kis with fraud in
  District of Texas to one count of mail fraud as a result of     his operation of Raptor Capital, Inc. (Raptor Capital), a
  his fraudulent activities. King is currently serving an 87      company he formed primarily for purposes of trading
  month prison term in Federal prison. The Commission             commodity futures contracts, as a commodity pool. The
  received cooperation from the United States Securities          complaint alleges that, from approximately March 2003
  and Exchange Commission, the Texas State Securities             through January 2006, Kis used the internet to solicit
  Board, and the United States Attorney’s Office for the          over $400,000 from members of the general public in
  Eastern District of Texas in connection with this matter.       the U.S. and the United Kingdom to purchase shares in
  CFTC v. King, et al., No. 3-06CV1583-M (N.D. Tex. filed         Raptor Capital, lost all of the investors’ money, and then
  Aug. 30, 2006).                                                 concealed those losses by issuing false statements to in-
•	 In re Holman.                                                  vestors. The complaint further alleges that although Kis
                                                                  was sustaining losses throughout the time he was trad-
  On September 27, 2006, the Commission simultane-
                                                                  ing, he routinely sent false written statements to inves-
  ously filed and settled an administrative enforcement
                                                                  tors indicating that the share price of Raptor Capital was
  action against Eddie Holman Jr., who did business
                                                                  increasing as a result of his supposedly profitable com-
  under the name C-THRU Inc., finding commodity
                                                                  modity futures trading. The complaint also alleges that
  pool fraud. The order finds that, beginning in at least
                                                                  Kis failed to register with the Commission as a com-
  September 2000, Holman, while acting as a commod-
                                                                  modity trading advisor and a commodity pool operator
  ity pool operator, fraudulently solicited members of the
                                                                  and committed other regulatory violations, including
  public to deposit funds with the C-THRU pool. Specifi-
                                                                  failure to provide required disclosure documents and
  cally, the order finds that Holman falsely represented
                                                                  accepting customer funds in his own name. On October
  that the pool was earning profits through the trading
                                                                  6, 2006 the court entered a statutory restraining order
  of commodity futures, and delivered false performance
                                                                  freezing assets and preserving books and records. The
  statements to pool participants that supported these
                                                                  Commission received cooperation from the Securities
  false claims that the pool was generally making profits.
                                                                  Division of the Tennessee Department of Commerce
  In fact, the order finds that when Holman did trade, the
                                                                  and Insurance in connection with this matter. CFTC v.
  trading generally incurred losses and the account closed
                                                                  Kis, No. 3 06 0935 (M.D. Tenn. filed Sept. 27, 2006).
  with a net loss. The order further finds that Holman
  commingled pool funds with other funds, failed to             •	 CFTC v. Perkins, et al.
  furnish monthly trading statements received from the            On September 28, 2006, the Commission filed a civil
  futures commission merchant, and failed to maintain             enforcement action charging William D. Perkins with
  certain records. The Commission assessed sanctions              fraudulently soliciting participation interests in a com-
  including: a cease and desist order; permanent trad-            modity pool he operated under the name Universe Cap-
  ing ban; payment of restitution ($146,000) and a civil          ital Appreciation, LLC (Universe), which led to the loss
  monetary penalty ($240,000); and order to comply                of over $2 million of the $3.4 million that participants
  with certain undertakings, including not applying for           invested. The Commission alleges that, from at least
  registration with the CFTC. In September 2006, Hol-             January 2002 through March 2004, Perkins touted Uni-
  man was arrested in Jupiter, Florida, by the Indian River       verse as a way for investors with less than $100,000 to
  County Sheriff’s Office and criminally charged with two         participate in a so-called “superfund” trading in selected
  second degree felonies, organized scheme to defraud             financial futures contracts. Specifically, the complaint
  ($50,000 or more) and grand theft ($50,000 or more).            alleges that Perkins: falsely claimed that “astonishing”
  In re Holman, CFTC Docket No. 06-07 (CFTC filed Sept.           profits of approximately 100 percent per annum were
  27, 2006).                                                      being made by the superfund and that those profits
                                                                  were “verified” by an allegedly independent CPA, whose




                                                                                                              CFTC      141
  name was not disclosed; misrepresented the compensa-            appropriation and fraud involving Connecticut hedge
  tion he expected to receive from operating Universe;            fund manager Bayou Management, LLC (Bayou Man-
  prepared and distributed false statements to investors.         agement), its principals, Samuel Israel III and Daniel E.
  In fact, as the complaint alleges, the superfund accepted       Marino, and Richmond Fairfield Associates, Certified
  approximately $43 million during the relevant time and          Public Accountants PLLC (Richmond Fairfield); consent
  used only a portion to trade commodity futures con-             order with Bayou Management and Israel included a
  tracts but lost, misappropriated, or dissipated approxi-        permanent injunction and trading ban with monetary
  mately $13.6 million. The complaint further alleges             sanctions to be determined later; action remains pend-
  that Perkins failed to disclose that, immediately prior to      ing against Marino and Richmond Fairfield).
  forming Universe, he had participated in at least three       •	 CFTC v. Pippin, No. CV 05 4120, Consent Order of
  other failed high-yield investment schemes in which             Permanent Injunction (E.D.N.Y. filed April 26, 2006)
  Perkins and the business acquaintance and partner               (enforcement action filed Aug. 29, 2005; consent order
  who brought the Universe opportunity to Perkins had             included the following sanctions: permanent injunction
  solicited and lost over $2 million of participant funds in      from further violations, permanent trading ban, pay-
  other apparent investment scams. In 2004, the Commis-           ment of restitution ($1.68 million), and payment of a
  sion filed a related civil enforcement action, CFTC v. Eq-      civil monetary penalty ($106,500)).
  uity Financial Group, LLC, et al., No. 04-cv-1512 (D.N.J.),
  which remains pending, and the United States Attor-           Commodity Trading Advisors, Managed Accounts, and
  ney’s Office for the Western District of North Carolina       Trading Systems
  filed a criminal action against one of the defendants in      Enforcement actions filed during FY 2006:
  that case, United States v. Coyt E. Murray, No. 3:06cr79-     •	 CFTC v. Maggio, et al.
  1 (W.D.N.C.). CFTC v. Perkins, et al., CFTC Docket No.
                                                                  On November 25, 2005, the Commission filed a civil
  1:06-cv-4674 (D.N.J. filed Sept. 28, 2006).
                                                                  enforcement action charging John Anthony Maggio and
Results obtained during FY 2006 in enforcement actions            two companies he owned, Trade Risk Management LLC
filed during previous fiscal years:                               (OR) and Trade Risk Management (WA), with fraudu-
•	 CFTC v. Steele, No. 05-3130, Order of Default Judg-            lent solicitation of over 420 customers to purchase a
  ment (N.D. Ill. filed Nov. 22, 2005) (enforcement               futures charting service known as Sigma Band Charting.
  action filed May 25, 2005; default judgment included            Specifically, the complaint alleges that the defendants,
  the following sanctions: permanent injunction from              none of whom were registered with the Commission,
  further violations, permanent trading and registration          misrepresented, among other things, that use of the
  bans, payment of restitution ($7.4 million), and, after         Sigma Band Charting charts would give customers a
  full restitution to customers is made, payment of a civil       99 percent chance of making money every time they
  monetary penalty ($6.2 million)).                               traded. The complaint alleges that the defendants col-
                                                                  lected approximately $400,000 in customer fees. CFTC
•	 CFTC v. Charles L. Harris, Tradewinds International,
                                                                  v. Maggio, et al., No. C05 5766RJB (W.D.Wash. filed
  L.L.C., Civil Action No. 04-C-5723, Consent Order
                                                                  Nov. 25, 2005).
  of Permanent Injunction (N.D. Ill. filed Feb. 9, 2006)
  (enforcement action filed Sept. 1, 2004; consent order        •	 In re Burgess, et al.
  included the following sanctions: permanent injunction          On January 31, 2006, the Commission simultaneously
  from further violations, permanent trading ban, pay-            filed and settled an administrative enforcement action
  ment of restitution, jointly and severally ($13,904,331),       against James R. Burgess, and his firm, Optioneer Inc.
  and, upon full payment of restitution, payment of a             (Optioneer) finding that they fraudulently solicited
  civil monetary penalty ($7 million)).                           customers for a commodity options trading system and
•	 CFTC v. Bayou Management, LLC, No. 05 CIV. 8374,               related products and services. Specifically, the Commis-
  Consent Order of Permanent Injunction (S.D.N.Y. en-             sion found that, between August 2002 and July 2004,
  tered April 3, 2006) (filed Sept. 29, 2005 alleging mis-        the respondents fraudulently solicited clients through



142 CFTC
                                                                   APPENDICES




  their Web site to purchase an options trading system          Web sites the following misrepresentations, among oth-
  known as The Optioneer System. According to the               ers: defendants represented that their advisory service
  order, the respondents falsely touted substantial profits     had a record of 90-96 percent accuracy and profitability,
  from using The Optioneer System, failed to disclose that      with purported returns for each year from 1998 through
  certain performance histories posted on the Optioneer         2002 that ranged from 302 percent to 447 percent; and
  Web site were based on hypothetical or simulated trad-        defendants failed to reveal that purported trading was
  ing rather than actual trading, and failed to provide the     based on hypothetical or simulated performance. In
  required disclosure statement concerning the inherent         fact, the complaint alleges that the defendants’ advisory
  limitations of hypothetical or simulated trading. The         services never operated, and clients were abandoned
  Commission’s sanctions included a civil monetary              after purchasing trading systems or training courses,
  penalty ($130,000) and a cease and desist order. In re        receiving little or nothing of value and losing their
  Burgess, et al., CFTC Docket No. 06-03 (CFTC filed Jan.       money. The complaint further alleges that Castle acted
  31, 2006).                                                    as an unregistered commodity trading advisor and Cas-
                                                                tillo acted as an unregistered associated person. CFTC v.
•	 CFTC v. McCall.
                                                                Castillo, et al., No. C 06 2540 (N.D. Cal. filed April 12,
  On February 2, 2006, the Commission filed a civil
                                                                2006).
  enforcement action charging Richard McCall, doing
                                                              •	 CFTC v. Schroeder.
  business as The Mastery Group International, with
  fraudulent solicitation with respect to his futures trad-     On September 27, 2006, the Commission filed a civil
  ing workshop called Sabaki-Micro Trading for Futures.         enforcement action charging Steven G. Schroeder with
  The complaint alleges that, between March and June            fraudulently soliciting more than $1 million from at
  2004, McCall made the following misrepresentations,           least 10 clients, whose commodity futures trading ac-
  among others: 1) he was an experienced futures trader         counts he managed and who lost in excess of $184,465.
  with his trading results consistently ranked among “the       Specifically, the complaint alleges that, commencing at
  top five percent of traders worldwide” (in fact he had        least as early as September 2004 and continuing to the
  traded commodity futures for only one year, and that          present, Schroeder fraudulently solicited and defrauded
  the account in which he traded experienced consistent         existing and prospective managed futures account
  trading losses); and 2) students following his Sabaki-        clients, while holding himself out to the public as a
  Micro Trading for Futures would have “a better than 90        commodity trading advisor, including soliciting clients
  percent chance of being profitable.” On February 22,          via contacts he established by postings on an internet
  2006, the court entered a consent order of preliminary        Web site, letstalkwinning.com. Among other things,
  injunction preserving books and records and enjoin-           Schroeder is alleged to have: lied about the size of his
  ing the defendant from further violations as charged.         personal trading accounts, the profitability of his past
  CFTC v. McCall, No. 2:06-cv-00132 (D.Nev. filed Feb. 2,       trading, and his educational background; and created
  2006).                                                        a fictitious brokerage statement showing his personal
                                                                trading account with more than $1 million in equity
•	 CFTC v. Castillo, et al.
                                                                at a time when his personal trading account had a zero
  On April 12, 2006, the Commission filed a civil en-
                                                                balance. On the same day the complaint was filed, the
  forcement action charging Gilbert Philip Castillo, Jr.
                                                                court entered a statutory restraining order freezing assets
  and his company, Castle Enterprise Corporation, with
                                                                and preserving books and records. CFTC v. Schroeder,
  fraudulent solicitation. The complaint alleges that,
                                                                No. 1:06CV0705 (W.D. Mich. filed Sept. 27, 2006).
  during the period of February 1999 through mid-2005,
                                                              •	 CFTC v. Hayes, et al.
  the defendants fraudulently solicited over $800,000
  from the retail public to purchase commodity trading          On September 29, 2006, the Commission filed a
  advice and services related to the trading of S&P 500         civil enforcement action charging Michael Hayes and
  commodity futures and options contracts. Specifically,        Coldwell Publishing, Inc. (Coldwell) with fraudulently
  the complaint alleges that the defendants made on their       promoting a commodity futures and options trading



                                                                                                             CFTC 143
  system that was contained in a book entitled, The Insid-      ally $308,400, and Belbeck $26,000) and payment of
  er’s Profit Matrix (IPM), which was authored by Hayes         civil monetary penalties (Owen, Longhorn and Phoenix
  under the pseudonym Frank Richards. Specifically, that        each $480,000, and Belbeck $10,000)).
  Hayes authored both the trading system and the pro-         •	 CFTC v. Poole, No. 1:05CV00859, Order for Entry of De-
  motional material used to sell that system to the general     fault Judgment (M.D.N.C. filed May 1, 2006) (enforce-
  public through Coldwell. The complaint alleges that           ment action filed September 30, 2005; default judgment
  Hayes acted as a commodity trading advisor by offering        included the following sanctions: permanent injunction
  and selling approximately 15,000 copies of the book to        from further violations, permanent trading and registra-
  the public, grossing more than $1 million in sales from       tion bans, and payment of a civil monetary penalty
  2001 through 2004. The complaint further alleges that         ($240,000)).
  Hayes: misrepresented that IPM’s performance record
                                                              •	 CFTC v. Wall Street Underground, Inc., No. 03-2193-CM,
  and profit results presented were based an actual trad-
                                                                Orders (D.Kan. filed April 7 and July 11, 2006) (en-
  ing, when, in fact, the results were either derived from
                                                                forcement action filed April 22, 2003; consent order of
  hypothetical trading or simply made-up; overstated the
                                                                permanent injunction against Asaro and Web Fulfill-
  profit potential of the trading system; failed to ad-
                                                                ment Centre, Inc. (Web) filed April 7, 2006; default
  equately warn potential purchasers of the risks inherent
                                                                judgment against Guarino and Wall Street Under-
  in futures and options trading; and presented hypotheti-
                                                                ground, Inc. (WSU) filed July 11, 2006; consent order
  cal performance results without the required cautionary
                                                                and default judgment included the following sanctions:
  statement. CFTC v. Hayes, et al., No. 4:06cv130 (E.D. Va.
                                                                permanent injunctions from further violations (all
  filed Sept. 29, 2006).
                                                                defendants), permanent trading bans (all defendants),
Results obtained during FY 2006 in enforcement actions          permanent registration bans (Asaro and Web), payment
filed during previous fiscal years:                             of restitution (Guarino and WSU jointly and severally
•	 CFTC v. Webman, et al., No. 05-CV-4819 (MBM), Orders         $2,374,582), and payment of civil monetary penalties
  (S.D.N.Y. filed Nov. 5, 2005 and July 10, 2006) (en-          (Asaro and Web jointly and severally $310,000, and
  forcement action filed May 19, 2005; order of default         Guarino and WSU jointly and severally $7,123,746)).
  judgment against International Forex Advisory Group
                                                              Futures Commission Merchants, Introducing Brokers
  (IFA Group) and Worldwide Currencies Corp. (WCC)
                                                              and Their Associated Persons
  filed Nov. 5, 2005; consent order of permanent injunc-
                                                              Enforcement actions filed during FY 2006:
  tion against Melvin and Larry Webman filed July 10,
  2006; orders included the following sanctions: per-         •	 CFTC v. Executive Commodity Corp., et al.
  manent injunction from further violations (all defen-         On June 20, 2006, the Commission filed a civil
  dants), permanent trading and registration bans (both         enforcement action charging Executive Commod-
  Webmans), payment of restitution (Webmans jointly             ity Corporation (Executive), a registered introducing
  and severally $2,957,912, IFA Group $2,701,960, and           broker, and three of Executive’s registered associated
  WCC $255,952), and payment of civil monetary penal-           persons (Thomas Kennedy, Don Campbell, and Alberto
  ties (Webmans $500,000 each, IFA Group $3,178,530,            Jimenez) with fraudulent solicitation. Specifically, the
  and WCC $526,470); litigation remains pending against         complaint alleges that the defendants fraudulently so-
  Wexler).                                                      licited more than $6.2 million from approximately 495
•	 CFTC v. Longhorn Financial Advisors, LLC, et al., No.        retail customers to trade in exchange-traded options on
  04cv00911 (Beatty), Consent Orders of Permanent In-           commodities futures contracts during the period from
  junction (M.D.N.C. filed March 28, 2006) (enforcement         January 2003 through December 2003. CFTC v. Execu-
  action filed October 5, 2004; consent orders included         tive Commodity Corp., et al., No. 06-60886 CIV-DIMI-
  the following sanctions: permanent injunction from fur-       TROULEAS (S.D. Fla. filed June 20, 2006).
  ther violations (all defendants), permanent trading and
  registration bans (all defendants), payment of restitu-
  tion (Owen, Longhorn and Phoenix jointly and sever-


144 CFTC
                                                                      APPENDICES




•	 In re Denniston.                                               consent orders against John Hollenbaugh and Reid
                                                                  Henshaw entered December 16, 2005 included perma-
  On August 7, 2006, the Commission simultaneously
                                                                  nent injunction from further violations and from trad-
  filed and settled an administrative enforcement action
                                                                  ing commodity futures and options, and order to pay
  against Toby Wayne Denniston, II, who has never been
                                                                  restitution ($165,695, to be offset by restitution paid by
  registered with the Commission in any capacity. The
                                                                  other defendants) and civil monetary penalties (Hol-
  Commission found that Denniston, while employed
                                                                  lenbaugh $50,000 and Henshaw $75,000); judgment
  by registered IB Castle Trading Inc, committed fraud
                                                                  against Carnegie and John Glase filed June 27, 2006
  and misappropriation of customer funds. Specifically,
                                                                  included order to pay restitution ($229,971), disgorge-
  the Commission found that between November 2004
                                                                  ment (32,850) and a civil monetary penalty ($32,850)).
  and August 2005, Denniston misappropriated over
  $190,000 from Acceleration Mercury Fund 4X LP, a              •	 CFTC v. Chase Commodities Corp., et al., No. CV04-6463
  commodity pool, for his own use and benefit. Den-               PA (CWx), Consent Order of Permanent Injunction
  niston accomplished the misappropriation by forging             (C.D.Cal. filed Jan. 25, 2006) (enforcement action filed
  signatures on at least 58 checks. To conceal his misap-         August 4, 2004; the consent order included the fol-
  propriation, Denniston regularly altered the pool’s             lowing sanctions: permanent injunction from further
  bank and trading account statements and created false           violations (Chase, LaGorio and Obando), permanent
  account statements to be sent to pool participants. The         trading bans (permanent against Chase and LaGorio,
  Commission assessed sanctions including: a cease and            and five-year against Obando); payment of restitution,
  desist order; permanent trading ban; payment of restitu-        jointly and severally (all defendants, $4,252,645 total),
  tion ($209,070, which includes prejudgment interest)            and payment of civil monetary penalties (LaGorio and
  and a civil monetary penalty ($250,000); and an order           Obando, $120,000 each)).
  to comply with his undertaking to neither apply for           •	 CFTC v. Lanier, No. CIV-05-516-F Consent Order of
  registration with the Commission nor act in a capacity          Permanent Injunction (W.D. Okla. field March 3, 2006)
  requiring such registration or acting as a principal, offi-     (enforcement action filed March 10, 2005; consent
  cer, or employee of any person registered, required to be       order included the following sanctions: permanent
  registered or exempt from registration. The Commission          injunction from further violations, permanent trading
  received cooperation from the National Futures Associa-         ban, payment of restitution ($110,860) and payment of
  tion in connection with this matter. In re Denniston,           a civil monetary penalty ($120,000)).
  CFTC Docket No. 06-05 (CFTC filed August 7, 2006).
                                                                •	 CFTC v. First American Investment Services, Inc., et al.,
Results obtained during FY 2006 in enforcement actions            No. 04-60744-CIV-HURLEY/HOPKINS, Consent Order
filed during previous fiscal years:                               of Permanent Injunction (S.D. Fla. filed May 22, 2006)
•	 CFTC v. Wilshire Investment Management Corp., et al.,          (enforcement action filed June 7, 2004; consent order
  No. 04-80862, Final Judgment Trial Order (S.D. Fla.             included the following sanctions: permanent injunction
  filed Dec. 5, 2005) (enforcement action filed Septem-           from further violations as charged (all defendants), pay-
  ber 14, 2004; final judgment included the following             ment of restitution, jointly and severally (First American
  sanctions: permanent injunction from further violations         $7,983,388, Knowles $1,600,000, Allotta $1,137,000,
  (all defendants), payment of restitution (all defendants        Savitsky $660,000, Mills $250,000 and Eulo $200,000)
  $147,892), and payment of civil monetary penal-                 and civil monetary penalties (First American
  ties (Wilshire, Malcolmson and Russo each $100,000,             $1,000,000, Knowles $400,000, Allotta $373,000, Sav-
  corporate defendants Wilshire Investment Management             itsky $140,000, Mills $75,000 and Eulo $75,000)).
  Corp. and National Commodities Corp., Inc. jointly
  and severally $100,000)).

•	 CFTC v. Carnegie Trading Group, Ltd., et al., No. 1:04
  CV 1403, Orders (N.D. Ohio filed Dec. 16, 2005 and
  June 27, 2006) (enforcement action filed July 23, 2004;



                                                                                                                 CFTC 145
Foreign Currency                                              •	 CFTC v. Saume, et al.
Enforcement actions filed during FY 2006:                       On December 13, 2005, the Commission filed a civil
•	 CFTC v. Madison Forex International, LLC, et al.             enforcement action charging Carlos Alejandro Libera
                                                                Saume and three of his companies (Asesoria Invertrust
  On October 18, 2005, the Commission filed a civil
                                                                C.A., Forinex Investment Corp., and Invertrust, Inc.)
  enforcement action charging: two related companies,
                                                                with forex futures fraud. The complaint alleges that,
  Madison Forex International, LLC (Madison) and
                                                                since 2000, the defendants fraudulently solicited more
  its predecessor, Chadwick Grayson Bauer & Co., Inc.
                                                                than $14 million from at least 140 customers. Specifi-
  (Chadwick); four employees of Madison and Chadwick,
                                                                cally, the complaint alleges that the defendants, who
  John Peter D’Onofrio (who is also the owner of Madi-
                                                                have never been registered with the Commission, mis-
  son), Christopher Peck, Gary Baugh and Lea Lauren,
                                                                represented their trading history and misappropriated
  and a registered FCM, Qualified Leverage Providers,
                                                                customer funds for personal use, trading, and the distri-
  Inc. (QLP), for whom Madison allegedly acted as a de
                                                                bution of false profits to prior customers. On the same
  facto agent pursuant to an “Introducing Agreement.”
                                                                date that the action was filed, the court issued an order
  The complaint alleges a series of violations that started
                                                                freezing assets and ordering the defendants to repatriate
  at Chadwick and continued at Madison. Madison
                                                                all funds in offshore accounts. CFTC v. Saume, et al., No.
  Allegations: Specifically, the complaint alleges that,
                                                                05-61903 CIV-MARRA (S.D. Fla. filed Dec. 13, 2005).
  from November 2003 through March 2005, Madison,
  Peck, Lauren, and other Madison employees fraudu-           •	 CFTC v. Valko, et al.
  lently solicited retail customers to trade forex options      On January 3, 2006, the Commission filed a civil
  misrepresenting the potential trading profit and risks.       enforcement action charging International Invest-
  Contrary to their representation that none of Madison’s       ments Holdings Corp. (IIHC), Doreen Valko (IIHC’s
  customers had ever lost money, the complaint alleges          president) and Frank DeSantis (who allegedly provided
  that at least 177 Madison customers had losses total-         consulting and marketing services to both Valko and
  ing approximately $2.7 million. Also, according to the        IIHC) with foreign currency options fraud. Specifically,
  complaint, D’Onofrio, as the owner, and Baugh, as the         the complaint alleges that the defendants misappropri-
  managing partner, are liable for Madison’s violations         ated and defrauded approximately 205 retail customers
  as controlling persons of Madison, and QLP is liable          of at least $1.13 million while purportedly trading for-
  for violations of its agent, Madison. Chadwick Allega-        eign currency options. The complaint alleges that IIHSC
  tions: Peck and other employees of Chadwick engaged           and DeSantis sought to hide the misappropriation by
  in similar fraud in soliciting customers to trade foreign     generating false statements for customer accounts, con-
  currency futures and options between September 2002           firming the purported foreign currency options transac-
  and November 2003, according to the complaint.                tions. On January 4, 2006, the court entered a statutory
  Chadwick allegedly churned customer accounts by               restraining order freezing assets and preserving books
  trading those accounts for the purpose of generating          and records. On August 16, 2006 the court entered a
  commissions, without regard for customers’ interests.         Judgment by Default and Order of Permanent Injunc-
  In a seven-month period in 2003, it is alleged that these     tion against IIHC, which included the following sanc-
  managed accounts lost $320,000 of $440,000 invested,          tions: a permanent injunction from further violations
  including $230,000 in commissions paid to Chadwick.           and from engaging in any business activities related to
  The complaint alleges that D’Onofrio and Baugh, as            commodity futures and options trading; and payment
  President and Vice President of Chadwick, respectively,       of restitution ($6,060,000) and a civil monetary penalty
  are liable for Chadwick’s fraud violations as controlling     ($6,060,000). The Commission’s enforcement action
  persons. On the same day that the complaint was filed,        remains pending against Valko, and DeSantis. CFTC v.
  the court entered a statutory restraining order freezing      Valko, et al., No. 06-060001-CIV-DIMITROULEAS/SELT-
  the assets of all the defendants except QLP, and prohib-      ZER (S.D. Fla. filed Jan. 3, 2006).
  iting the defendants from destroying documents. CFTC
  v. Madison Forex International, LLC, et al., No. 05-61672
  (S.D. Fla. filed Oct. 18, 2005).

146 CFTC
                                                                       APPENDICES




•	 CFTC, et al. v. Rask.                                           propriated more than $4.3 million of customer funds.
                                                                   Customer funds were sent to various overseas bank
  On February 6, 2006, the Commission and the State
                                                                   accounts in the names of foreign companies, according
  of Oregon Department of Consumer and Business
                                                                   to the complaint. On the same date that the complaint
  Services jointly filed a civil enforcement action charg-
                                                                   was filed, the court entered a statutory restraining order
  ing James John Rask with forex fraud. The complaint
                                                                   preserving books and records and freezing assets. CFTC
  alleges that, from at least December 2000 to August
                                                                   v. Falco & Stevens, Inc., No. 06 CV 1692 (S.D.N.Y. filed
  2002, Rask fraudulently solicited retail customers to
                                                                   March 3, 2006).
  participate in a purported foreign currency investment
  fund called the Orion Fund, which was operated by              •	 CFTC v. First Int’l Group, Inc., et al.
  Orion International, Inc. (Orion) and its owner Russell          On April 17, 2006, the Commission filed a civil enforce-
  Cline. An enforcement action is pending against Orion            ment action charging First International Group, Inc.
  and Cline charging illegal off-exchange forex fraud in           (FIG) and two of the firm’s brokers, Michael Mesa and
  connection with the solicitation of at least $27 million         Tom Keesee, with fraudulent solicitation since at least
  from over 600 retail customers. See CFTC, et al., v. Orion       June 2004. Specifically, the complaint alleges that FIG,
  International, Inc., et al., No. CV-03-603-KI (D. Ore. filed     through its brokers, fraudulently represented that their
  May 7, 2003). On February 26, 2006, the court entered            trade recommendations would result in large profits
  a consent order of permanent injunction against Rask.            in a short period of time, and also fraudulently failed
  The order found that Rask fraudulently solicited $3.4            to inform customers and prospective customers that
  million from 44 retail customers, which funds were de-           the vast majority of FIG customers who traded closed
  posited into an account controlled by Orion and Cline.           their accounts at a loss. According to the complaint, 93
  Among Rask’s misrepresentations were his claims that             percent of First International Group’s customers lost
  the Orion Fund had produced annual profits in excess             money, and approximately two-thirds of the customers
  of 150 percent and that customer funds would be used             lost virtually all of their investments. On April 18, 2006,
  to trade foreign currency futures. In fact, the consent or-      the court entered a statutory restraining order preserving
  der found that Rask personally misappropriated almost            books and records and freezing assets. The Commission
  $2 million of customer funds, and virtually all Orion            received assistance from the Florida Bureau of Financial
  Fund customer funds were misappropriated by Orion,               Investigations and the U.S. Postal Inspection Service in
  Cline and Rask. The order included the following sanc-           this matter. CFTC v. First Int’l Group, Inc., et al., No. 06-
  tions: permanent injunction from further violations, as          20979 CIV-JORDAN (S.D. Fla. filed April 17, 2006).
  charged; $2,409.885 in restitution; and a $1,965,565
                                                                 Results obtained during FY 2006 in enforcement actions
  civil monetary penalty. CFTC, et al. v. Rask, No. CV ’06
                                                                 filed during previous fiscal years:
  162 (D. Ore. filed Feb. 6, 2006).
                                                                 •	 CFTC v. International Funding Association, et al., No. CIV
•	 CFTC v. Falco & Stevens, Inc.
                                                                   03-1826 PHX, Consent Order of Permanent Injunc-
  On March 3, 2006, the Commission filed a civil en-               tion (D. Ariz. filed Feb. 22, 2006) (enforcement action
  forcement action charging Falco & Stevens, Inc. (F&S)            filed September 18, 2003; consent order included the
  and its President, Vyacheslav Nass, neither of whom              following sanctions: permanent injunction from further
  were registered with the Commission, with: illegally             violations, permanent trading ban, payment of restitu-
  selling forex futures contracts to over 100 retail cus-          tion, jointly and severally ($15,963,433), and pay-
  tomers; fraudulently soliciting retail customers; and            ment of a civil monetary penalty, jointly and severally
  misappropriating millions of dollars of customer funds.          ($15,963,433)).
  The complaint alleges that, beginning in August 2005,
                                                                 •	 CFTC v. Hawker, et al., No. 2:03 CV 0260 JTG, Supple-
  F&S made false promises that guaranteed customers
                                                                   mental Consent Order (D. Utah filed March 29, 2006)
  large profits without risk in foreign currency trading.
                                                                   (enforcement action filed March 12, 2003; consent or-
  According to the complaint, however, instead of trading
                                                                   der of permanent injunction entered October 24, 2003;
  customer monies as promised, F&S and Nass misap-
                                                                   supplemental consent order included the following



                                                                                                                 CFTC 147
  sanctions: payment of restitution, jointly and severally      •	 CFTC v. World Market Advisors, Inc., et al., Order of De-
  ($245,163) and payment of a civil monetary penalty,             fault Judgment (S.D. Fla. filed June 27, 2006) (enforce-
  jointly and severally ($120,000)).                              ment action filed June 9, 2005; default judgment against
                                                                  World Market Advisors, Inc., U.S. Capital Management,
•	 CFTC v. Sonoma Trading Corporation, et al., No. 05-CIV-
                                                                  Inc., United Equity Group, Inc., Liberty One Advi-
  60342-COOKE/BROWN, Judgment by Default and Or-
                                                                  sors, LLC, and Lighthouse Capital Management, LLC
  der of Permanent Injunction (S.D. Fla. filed March 30,
                                                                  included the following sanctions: permanent injunc-
  2006) (enforcement action filed March 9, 2005; default
                                                                  tion against further violations, permanent trading and
  judgment included the following sanctions: permanent
                                                                  registration bans, payment of restitution (jointly and
  injunction from further violations, and payment of a
                                                                  severally $20,514,361), and payment of disgorgement
  civil monetary penalty ($500,000)).
                                                                  (jointly and severally $12,632,841); litigation remains
•	 CFTC v. Tambiev, et al., No. 03-CV-0177 (RJD), Judgment
                                                                  pending against five individual and three corporate
  (E.D.N.Y. filed May 5, 2006) (enforcement action filed
                                                                  defendants).
  January 7, 2003; order adopting magistrate’s recommen-
  dation included the following sanctions: permanent            Other Illegal Off-Exchange
  injunction from further violations, and payment of civil      Enforcement action filed during FY 2006:
  monetary penalties (Tambiev and Tamb International,           •	 CFTC v. American Energy Exchange.
  Inc. each to pay $240,000)).
                                                                  On September 12, 2006, the Commission filed a civil
•	 CFTC v. Firsone, et al., NO. 2:05-CV-02547 (TCP)               enforcement action charging American Energy Exchange
  (MLO), Order of Default Judgment (E.D.N.Y. filed                (AMENX) and York Commodities (York) with fraud in
  March 23, 2006) (enforcement action filed May 26,               the solicitation of customers to purchase options on
  2005; default judgment against Windsor Forex Trading            commodity futures contracts. The complaint alleges
  Corp. included the following sanctions: permanent in-           that AMENX and York, through misrepresentations on
  junction from further violations, permanent trading and         their Web sites, www.amenx.com and www.york-com-
  registration bans, payment of restitution ($266,768),           modities.com, defrauded customers out of over $1.39
  and payment of a civil monetary penalty ($266,768)).            million. York allegedly solicited customers to trade
•	 CFTC v. Gibraltar Monetary Corporation, Inc., et al., No.      options on energy futures contracts with AMENX by
  04-80132-CIV-DIMITROULEAS, Final Judgment (S.D.                 duping customers into believing that: 1) AMENX is a
  Fla. filed June 14, 2006) (enforcement action filed Feb-        futures exchange; 2) York is its broker; and 3) both are
  ruary 10, 2004; permanent injunction from further vio-          located in the United States. As alleged, York leased the
  lations (Kline, Fremer and Johnson), permanent trading          use of a fax number with a (212) New York area code
  bans (Kline, Fremer and Johnson), payment of restitu-           to substantiate its representations as a United States-
  tion, jointly and severally (all defendants $2,752,337          based company. Likewise, as part of the fraud to deceive
  total), and payment of civil monetary penalties (Gibral-        customers into believing it was a reputable commodity
  tar $120,000, Kline $240,000, Fremer $352,011, and              futures exchange, the complaint alleges that AMENX on
  Johnson $191,367)).                                             its Web site listed firms as members of AMENX when,
                                                                  in fact, none were members and had never heard of
•	 CFTC v. Orion Int’l, Inc., et al., No. 03-CV-603-KI, Order
                                                                  AMENX. On the same day the complaint was filed, the
  of Default Judgment (D. Ore. filed June 16, 2006)
                                                                  court entered a statutory restraining order preserving
  (enforcement action filed May 7, 2003; default judg-
                                                                  books and records. The Commission received coop-
  ment against Orion International, Inc. included the
                                                                  eration from the Australian Securities and Investment
  following sanctions: permanent injunction from further
                                                                  Commission, the Bundesbank and German Financial
  violations, permanent trading and registration bans,
                                                                  Supervisory Authority, the Hong Kong Securities and
  payment of restitution ($28,823,034), and payment of a
                                                                  Futures Commission, the Swiss Federal Banking Com-
  civil monetary penalty ($84,469,100); litigation remains
                                                                  mission, the New York Mercantile Exchange, and the
  pending against Cline).
                                                                  Office of Investor Education and Assistance, U.S. Securi-



148 CFTC
                                                                     APPENDICES




  ties and Exchange Commission for their assistance.              disqualification of their registrations based upon entry
  CFTC v. American Energy Exchange, et al., No. 06 CV 7017        of a district court consent order of permanent injunc-
  (S.D.N.Y. filed Sept. 12, 2006).                                tion entered against them. CFTC v. Bayou Management,
                                                                  LLC, et al., No. 05cv8374 (CM), Partial Consent Order
Statutory Disqualification
                                                                  of Permanent Injunction and Ancillary Equitable Relief
•	 In re Chase Commodities Corp.
                                                                  Against Samuel Israel and Bayou Management LLC
  On April 7, 2006, the Commission filed a Notice of In-          (S.D.N.Y. entered April 3, 2006). The district court order
  tent to Revoke Registration against Chase Commodities           found that Israel and Bayou defrauded commodity
  Corporation (Chase), a registered introducing broker.           pool participants, submitted to NFA annual reports that
  The Commission seeks to determine whether Chase’s               were not prepared by an independent certified public
  registration should be revoked based upon entry of a            accountant or independent licensed public accountant.
  consent order against it by a federal district court that       The district court assessed sanctions including: a perma-
  contained findings of fact and conclusions of law that          nent injunction from further violations and from either
  respondent committed options fraud (see CFTC v. Chase           applying for registration or acting in a capacity requir-
  Commodities Corp., et al., No. CV 04-6463 PA (CWx)              ing such registration with the Commission; permanent
  (C.D. Cal. filed Jan. 24, 2006)). In re Chase Commodities       trading ban; and payment of restitution and a civil
  Corp., CFTC Docket No. SD 06-01 (CFTC filed April 7,            monetary penalty in amounts to be determined by later
  2006)                                                           agreement between the Commission and Israel and

•	 In re United Investors Group, Inc.                             Bayou. The Commission accepted Israel’s settlement
                                                                  offer and revoked his registration on the day the notice
  On August 21, 2006, the Commission filed a Notice of
                                                                  was filed; the statutory disqualification action against
  Intent to Revoke Registration against United Investors
                                                                  Bayou remains pending. In re Israel, CFTC Docket No.
  Group, Inc. (UIG). The Commission seeks to determine
                                                                  SD 06-03 (CFTC filed Aug. 21, 2006) and In re Bayou
  whether UIG is subject to statutory disqualification of
                                                                  Management LLC, CFTC Docket No. SD 06-05 (CFTC
  its registration as an Introducing Broker based on the
                                                                  filed September 27, 2006).
  entry of a district court consent order of permanent in-
  junction against it. CFTC v. United Investors Group, Inc.,    •	 In re Risk Capital Trading Group, Inc.

  et al., No. CV 05-80002-CIV-HURLEY/HOPKINS (S.D.                On September 1, 2006, the Commission filed a Notice
  Fla. entered June 6, 2006). The district court found UIG        of Intent to Revoke Registration against Risk Capital
  liable for options fraud committed by its APs and as-           Trading Group, Inc. (Risk Capital). The Commission
  sessed sanctions against UIG including: a permanent in-         seeks to determine whether Risk Capital is subject
  junction from further violations and from either apply-         to statutory disqualification of its registration as an
  ing for registration or acting in a capacity requiring such     Introducing Broker based on the entry of a district court
  registration with the Commission except as provided             consent order of permanent injunction against it. CFTC
  for in Commission Regulation 4.14(a)(9); permanent              v. Risk Capital Trading Group, Inc., No. 03-CV-2633-ODE,
  trading ban; and payment of restitution ($8,025,021)            Consent Order of Permanent Injunction and Equitable
  and a civil monetary penalty ($16,299,903). In re United        Relief (N.D. Ga. entered June 16, 2006) (the Consent
  Investors Group, Inc., CFTC Docket No. SD 06-02 (CFTC           Order). The Consent Order found that from at least
  filed August 21, 2006).                                         January 2001 through September 2003 Risk Capital’s

•	 In re Israel and In re Bayou Management LLC.                   associated persons fraudulently solicited customers to
                                                                  trade commodity options. The Consent Order assessed
  On August 21, 2006 and September 27, 2006, the Com-
                                                                  sanctions including: a permanent injunction from fur-
  mission filed Notices of Intent to Revoke Registration
                                                                  ther violations and from either applying for registration
  against Samuel Israel III and Bayou Management LLC
                                                                  or acting in a capacity requiring such registration with
  (Bayou Management), respectively. The Commission
                                                                  the Commission; permanent trading ban; and payment
  sought to determine whether registered CPO Bayou
                                                                  of restitution (over $12 million) and a civil monetary
  and its registered AP Israel were subject to statutory
                                                                  penalty (over $8 million). In re Risk Capital Trading



                                                                                                               CFTC 149
  Group, Inc., CFTC Docket No. SD 06-04 (CFTC filed
  Sept. 1, 2006).

•	 In re Wilshire Investment Management Corp.

  On September 28, 2006, the Commission filed a Notice
  of Intent to Revoke Registration against Wilshire Invest-
  ment Management Corp. (Wilshire). The Commission
  seeks to determine whether Wilshire is subject to statu-
  tory disqualification of its registration as an Introduc-
  ing Broker based on the entry of a district court trial
  order and final judgment against it. CFTC v. Wilshire
  Investment Management, et al., No. 04-80862-CIV-
  MIDDLEBROOKS/JOHNSON (S.D. Fla. entered Dec. 5,
  2005). The court’s order found that Wilshire, through
  its employees, engaged in the fraudulent solicitation
  of retail customers to invest in options on commodity
  futures contracts, as charged by the CFTC in its com-
  plaint filed in September 2004. The court’s order found
  that Wilshire and others fraudulently solicited members
  of the public to open accounts to trade options on com-
  modity futures contracts by misrepresenting and failing
  to disclose material facts concerning, among other
  things: 1) the likelihood that a customer would realize
  large profits from trading options; 2) the risk involved
  in trading options; and 3) the performance record
  of Wilshire customers. The court assessed sanctions
  included requiring Wilshire to pay restitution and a civil
  monetary penalty, and barring Wilshire from engaging
  in any commodity related activity. In re Wilshire Invest-
  ment Management Corp., CFTC Docket No. SD 06-06
  (CFTC filed Sept. 28, 2006).




150    CFTC
    Enforcement Litigation for Goal Three


Strategic Goal Three – Ensure market                              The Commission found that the defendants engaged
integrity in order to foster open,                                in non-competitive transactions and fictitious sales by
competitive, and financially sound                                prearranging NYMEX trades. Specifically, the Commis-
markets.                                                          sion found that, on five occasions between November
                                                                  2003 and March 2004, traders for STUSCO and STASCO
Financial, Supervision, Compliance and Recordkeeping
                                                                  prearranged trades for crude oil futures contracts. In
Enforcement
                                                                  each instance, according to the order, the traders prear-
Enforcement action filed during FY 2006:
                                                                  ranged the trade by agreeing in advance on the quantity
•	 CFTC v. FX Trading, LLC.                                       and the settlement month, agreeing to take the opposite
  On December 8, 2005, the Commission filed a civil               positions of the trade and executing the trade on the
  enforcement action charging registered futures commis-          NYMEX. The order finds that Catterall was involved in
  sion merchant FX Trading, LLC with failure to maintain          the prearrangement of certain of these trades. Without
  required minimum net capital requirements since at              admitting or denying the findings, the respondents con-
  least October 31, 2005. On the same day that the com-           sented to entry of the order, which included the follow-
  plaint was filed, the court entered a statutory restraining     ing sanctions, among others: a cease and desist order;
  order preserving books and records and freezing ap-             and civil monetary penalties for STASCO ($200,000)
  proximately $3.5 million in assets. CFTC v. FX Trading,         and Catterall ($100,000). Separately, NYMEX has taken
  LLC, No. 05-5722 (D.N.J. filed Dec. 8, 2005).                   disciplinary action against its member firm, STUSCO,
                                                                  and an employee of the firm. The Commission received
Trade Practice                                                    assistance in this matter from NYMEX staff. In re Shell
Enforcement actions filed during FY 2006:                         Trading US Company, et al., CFTC Docket No. 06-02
•	 In re Shell Trading US Company, et al.                         (CFTC filed Jan. 4, 2006).

  On January 4, 2006, the Commission simultaneously             •	 CFTC v. Doyle.
  filed and settled an action against Shell Trading US            On August 10, 2006, the Commission filed a civil
  Company (STUSCO) and Shell International Trading                enforcement action charging Matthew Doyle, a tele-
  and Shipping Co. (STASCO), two companies whose                  phone clerk for a registered floor broker, in connection
  ultimate parent is Royal Dutch Shell, and Nigel Cat-            with an alleged scheme to defraud certain customers
  terall, who was the chief trader on behalf of STUSCO.           and his employer. Specifically, the Commission alleges



                                                                                                             CFTC          151
  that, during the week of April 18, 2005, Doyle will-
  fully prepared or caused to be prepared order tickets for
  hundreds of natural gas futures contracts containing
  false customer account identification to be executed
  by his employer on the NYMEX. Through this scheme,
  the complaint alleges, Doyle attempted to assign losing
  trades to the accounts of certain customers, and when
  that failed, he caused these losing trades to be assigned
  to his employer’s account. According to the complaint,
  as a result of this scheme, Doyle’s employer suffered
  millions of dollars in losses through the losing trades.
  The Commission received cooperation from the NYMEX
  Compliance staff in connection with this matter. CFTC
  v. Doyle, Docket No. 06 CV 6094 (S.D.N.Y. filed August
  10, 2006).

•	 In re Machata, et al.

  On September 27, 2006, the Commission simultane-
  ously filed and settled an administrative enforcement
  action against Andrew Machata and his company, Roll-
  ing Meadow Ranch, Inc. (RMR), finding they violated
  NYBOT trading limits for frozen concentrated orange
  juice commodity futures contracts. Specifically, the
  order finds that, between March 2004 and August 2005,
  RMR, by and through Machata, traded frozen concen-
  trated orange juice futures contracts on the NYBOT and
  exceeded the position limits set by the NYBOT in viola-
  tion of the Act. Machata, as president and sole opera-
  tor of RMR, opened the trading accounts, determined
  trading strategies, and placed all trades, according to the
  order. The Commission assessed sanctions including:
  a cease and desist order; and a civil monetary penalty
  ($130,000 jointly and severally). The Commission re-
  ceived cooperation from the NYBOT in connection with
  this matter. In re Machata, et al., CFTC Docket No. 06-08
  (CFTC filed Sept. 27, 2006).

International Cooperative Enforcement
•	 December 2005, Protocol with the Dubai Financial
  Services Authority.

•	 January 2006, Amendment of the Commission’s State-
  ment of Intent with the Japanese FSA to reflect new au-
  thority obtained by the Japanese FSA over all financial
  derivatives including foreign currency.

•	 June 2006, Information Sharing Agreement with the
  Israeli Securities Authority.




152 CFTC
    CFTC Information Technology Systems


Integrated Surveillance System (ISS)                          Filings and Actions (FILAC)
User: Market Oversight                                        User: Clearing & Intermediary Oversight,
Functionality: ISS collects futures and options position      Market Oversight
data for large traders from reporting firms and open          Functionality: FILAC manages data associated with the ap-
interest, volume, price, and clearing member data from        proval organizations, products, rules, foreign filings, and
exchanges and is used to monitor futures and options          actions.
trading in order to detect any market anomalies that may
occur.
                                                              Strategic Planning Workforce (SWP)
                                                              User: CFTC-Wide
Regulatory Statement Review (RSR                              Functionality: SWP is designed to allow the Commission
Express)                                                      to matech current CFTC skill needs to the existing talent
User: Clearing & Intermediary Oversight                       base in the workforce. This matching will help determine
Functionality: RSR Express collects 1-FR reports and Focus    skill gaps and allow for future planning on how to meet
reports from all firms and is used to monitor the financial   skill needs.
status of firms and the changes to that status over time.

                                                              Project eLaw
Stressing Positions at Risk (SPARK)                           User: Enforcement, General Counsel, Proceedings
User: Clearing & Intermediary Oversight,                      Functionality: Project eLaw is a CFTC-wide initiative to
Market Oversight                                              define requirements that will lead to the creation of an
Functionality: SPARK is a tool used by Commission staff       automated law office that seamlessly integrates technology
to perform “what if” analysis to determine the effect of      and 	 work processes to support Commission managers
market movement on margin.                                    and staff in their investigative, trial, and appellate work.




                                                                                                             CFTC 153
                                                The CFTC Glossary

A Guide to the Language of the Futures Industry
http://www.cftc.gov/opa/glossary/opaglossary_a.htm

Because the acronyms of many words and phrases used throughout the futures industry are not readily available in stan-
dard references, the Commission’s Office of External Affairs compiled a glossary to assist members of the public.

	     This glossary is not inclusive, nor are general definitions intended to state or suggest the views of the Commission
concerning the legal significance, or meaning of any word or term. Moreover, no definition is intended to state or sug-
gest the Commission’s views concerning any trading strategy or economic theory.



Glossary of Acronyms
AE................................................................................................ The Actuarials Exchange, LLC
AFTC........................................................................................... Office of the Agricultural Futures Trading Commission of
                                                                                                Thailand
ALJ............................................................................................... Administrative Law Judge
AML............................................................................................. Anti-Money Laundering
AP................................................................................................ Associated Persons
BTEX............................................................................................ BrokerTec Futures Exchange
CBOE.......................................................................................... Chicago Board Options Exchange
CBOT.......................................................................................... Chicago Board of Trade
CCORP....................................................................................... The Clearing Corporation
CCX............................................................................................. Chicago Climate Exchange, Inc.
CDXCHANGE............................................................................ Commodities Derivative Exchange, Inc.
CCFE........................................................................................... Chicago Climate Exchange, Inc.
CEA............................................................................................. Commodity Exchange Act
CESR........................................................................................... Council of European Securities Regulators
CFE.............................................................................................. CBOE Futures Exchange



154 CFTC
                                                                                                        APPENDICES




CFFE............................................................................................ Cantor Financial Futures Exchange
CFTC........................................................................................... Commodity Futures Trading Commission
CFMA.......................................................................................... Commodity Futures Modernization Act of 2000
CME............................................................................................ Chicago Mercantile Exchange
CME AM..................................................................................... CME Auction Markets
COMEX....................................................................................... Commodity Exchange Division
COSRA........................................................................................ Council of Securities Regulators of the Americas
CPO............................................................................................ Commodity Pool Operator
CSCE........................................................................................... Coffee Sugar and Cocoa Exchange
CTA.............................................................................................. Commodity Trading Advisor
DCIO.......................................................................................... Division of Clearing and Intermediary Oversight (CFTC)
DCM........................................................................................... Designated Contract Market
DCO............................................................................................ Derivatives Clearing Organization
DJIA VIX...................................................................................... Dow Jones Industrial Average Volatility Index
DMO........................................................................................... Division of Market Oversight (CFTC)
DOJ............................................................................................. Department of Justice
ECM............................................................................................ Exempt Commercial Markets
EGA............................................................................................. E-Government Act
EPFE............................................................................................ Exchange Place Futures, LLC	
EUREX US................................................................................... U.S. Futures Exchange, LLC
FB................................................................................................ Floor Brokers
FCM............................................................................................ Futures Commission Merchant
FCOM......................................................................................... FutureCom
FIA............................................................................................... Futures Industry Association
FILAC.......................................................................................... Filings and Actions
FISMA......................................................................................... Federal Information Security Management Act
FMFIA......................................................................................... Federal Managers’ Financial Integrity Act
FOREX......................................................................................... Foreign Currency
FSA.............................................................................................. Financial Services Authority
FT................................................................................................ Floor Trader
FTE.............................................................................................. Full-time Equivalent
FY................................................................................................ Fiscal Year
GAAP........................................................................................... U.S. Generally Accepted Accounting Principles
GAO............................................................................................ General Accountability Office
GCC............................................................................................ Guaranty Clearing Corporation
GPRA........................................................................................... Government Performance and Results Act
HSE............................................................................................. HoustonStreet Exchange, Inc.



                                                                                                                                               CFTC 155
IB................................................................................................. Introducing Broker
ICAP............................................................................................ ICAP Commodity Derivatives Trading System
ICAP ETC.................................................................................... ICAP Electronic Trading Community
ICAP HYDE................................................................................ ICAP Hyde Limited Trading System
ICC.............................................................................................. Intermarket Clearing Corporation
ICE.............................................................................................. IntercontinentalExchange, Inc.
IMAREX...................................................................................... International Maritime Exchange
INET............................................................................................ INET Futures Exchange
INTRADE.................................................................................... INTRADE Board of Trade
ISS............................................................................................... Integrated Surveillance System
IOSCO........................................................................................ International Organization of Securities Commissions
JADE............................................................................................ Joint Asian Derivatives Exchange
JO................................................................................................ Judgment Officer
KCBT........................................................................................... Kansas City Board of Trade
LCH............................................................................................. London Clearing House
LLC.............................................................................................. Limited Liability Corporation
MACE.......................................................................................... MidAmerica Commodity Exchange
MDA............................................................................................ Management’s Discussion and Analysis
ME............................................................................................... Merchants Exchange
MGE............................................................................................ Minneapolis Grain Exchange
MOU........................................................................................... Memoranda of Understanding
MSR............................................................................................. Monthly Status Report
NFA............................................................................................. National Futures Association
NGX............................................................................................ Natural Gas Exchange
NQLX.......................................................................................... NQLX LLC
NTP............................................................................................. NetThruPut
NYBOT........................................................................................ New York Board of Trade
NYCC.......................................................................................... New York Clearing Corporation
NYCE.......................................................................................... New York Cotton Exchange
NYFE........................................................................................... New York Futures Exchange
NYMEX....................................................................................... New York Mercantile Exchange
OCC............................................................................................ The Options Clearing Corporation
OCX............................................................................................ OneChicago Futures Exchange
OGC............................................................................................ Office of the General Counsel (CFTC)
OHR............................................................................................ Office of Human Resources (CFTC)
OIA.............................................................................................. Office of International Affairs (CFTC)
OIG............................................................................................. Office of Inspector General (CFTC)



156 CFTC
                                                                                                      APPENDICES




OITS............................................................................................ Office of Information and Technology Services (CFTC)
OMB............................................................................................ Office of Management and Budget
ONXCC....................................................................................... OnExchange Clearing Corporation
OPEX........................................................................................... Optionable, Inc.
OTC............................................................................................. Over-the-Counter
PBOT........................................................................................... Philadelphia Board of Trade
PPGC........................................................................................... Pay Parity Governance Committee
RBOB.......................................................................................... Reformulated Gasoline Blendstock for Oxygen Blending
RER.............................................................................................. Rule Enforcement Reviews
RIC.............................................................................................. Registered Investment Company
RWG............................................................................................ Registration Working Group
SC5.............................................................................................. IOSCO’s Standing Committee 5 on Investment Manage-
                                                                                                  ment
SEC.............................................................................................. Securities and Exchange Commission
SFP.............................................................................................. Security Futures Products
SL................................................................................................. Spectron Live.com Limited
SPARK......................................................................................... Stressing Positions at Risk
SRO............................................................................................. Self-Regulatory Organization
TCX............................................................................................. Trade Capture Exchange
TFS............................................................................................... Traditional Financial Services Pulp and Paper Division
TFSE............................................................................................ TFS Energy, LLC
TPI............................................................................................... Trade Practice Investigation
TRADE........................................................................................ Trade Practice Surveillance System
TREASURY.................................................................................. U.S. Department of the Treasury
TS................................................................................................ TradeSpark, LP
UK............................................................................................... United Kingdom
UNIDROIT................................................................................. International Institute for the Unification of Private Law
US................................................................................................ United States of America
USA PATRIOT............................................................................. Uniting and Strengthening America by Providing Appropri-
                                                                                         ate Tools Required to Intercept and Obstruct Terrorism
VaR.............................................................................................. Value at Risk
VIX.............................................................................................. Volatility Index
WBOT......................................................................................... Weather Board of Trade
WXL............................................................................................. WeatherXchange Limited
XBOT........................................................................................... Exempt Boards of Trade




                                                                                                                                             CFTC 157
      Photo Credits and Acknowledgements

Cover Page Photo Credits:
Top of page, from left to right:
    KCBT Building, 1877. Photo provided by Kansas City Board of Trade
     KCBT Trading Floor, 1877. Photo provided by Kansas City Board of Trade
     KCBT Building, 1887–1924. Photo provided by Kansas City Board of Trade
     CME Trading Floor, 1950’s. Photo provided by Chicago Mercantile Exchange
     The last day in the old Board of Trade Building, January 1, 1925. Photo provided by Kansas City Board of Trade
     Trading Floor Board of Trade, Kansas City, January 9, 1925. Photo provided by Kansas City Board of Trade
     CME Trading Floor Soon After 1928 Opening. Photo provided by Chicago Mercantile Exchange
     KCBT Trading Floor, 1930’s. Photo provided by Kansas City Board of Trade
     KCBT Trading Floor, July 19, 1932. Photo provided by Kansas City Board of Trade
     KCBT 80th Anniversary, February 6, 1936. Photo provided by Kansas City Board of Trade
     CME, 1940’s . Photo provided by Chicago Mercantile Exchange
     CBOT Building. Photo provided by Chicago Board of Trade
     KCBT Building, 1925–1966. Photo provided by Kansas City Board of Trade
     Ticker Tape Parade with CBOT Building in the Background. Photo provided by Chicago Board of Trade.
     KCBT Building. Photo provided by Kansas City Board of Trade
     CBOT Trading Floor. Photo provided by Chicago Board of Trade
     CME S&P Pit. CME-NYSE AP photo provided by Chicago Mercantile Exchange
     CBOT Trading Floor. Photo provided by Chicago Board of Trade
     CME Trading Floor. Photo provided by Chicago Mercantile Exchange
     CME Trading Floor. Photo provided by Chicago Mercantile Exchange
     CBOT Building. Photo provided by Chicago Board of Trade
     CBOT Trading Floor. Photo provided by Chicago Board of Trade

Internal Report Photo Credits:
     Robert Rathe Photography; Pages 2, 26, 54, 133, 138, and 151; photos by Robert Rathe
     Commodity Futures Trading Commission; Pages 1, 5, 14, 30, 33, 41, 42, 71, 95, 96, 97, 117, 136, 153, and 154;
     photos by Stacy D. Yochum

Acknowledgements
This Performance and Accountibility Report was produced with the energies and talents of Commission staff. To these
individuals, the Office of Financial Management would like to offer our sincerest thanks and acknowledgement.

We would also like to acknowledge the Office of Inspector General and KPMG, LLP for the professional manner in
which they conducted the audit of the Fiscal Year 2006 Financial Statements.

We offer our special thanks to Sledd Studios, in particular John Sledd, for his outstanding contribution to the design of
this report.




158 CFTC
Additional copies of the Commodity Futures Trading Commission FY 2006 Performance and Accountability Report
are available by contacting the Office of Financial Management:


Office of Financial Management
Commodity Futures Trading Commission
Three Lafayette Centre
1155 21st Street, N.W.
Washington, DC 20581


Telephone: Emory Bevill, 202.418.5187 or Lisa Malone, 202.418.5184
Fax:	202.418.5414
E-mail: ebevill@cftc.gov or lmalone@cftc.gov
Web: http://www.cftc.gov/cftc/cftcreports.htm


The CFTC’s Strategic Plan is available on the Web at: http://www.cftc.gov/files/ofm/ofmfy2009strategicplan.pdf
       COMMODITY FUTURES TRADING COMMISSION

T hree L afayette C entre • 1155 21 st S treet , N.W. • W ashington , DC 20581

                       202.418.5000 •   www. cftc . gov
